<html>
<title> - ORR, ELKIND, SUH, AND BEAUDREAU NOMINATIONS</title>
<body><pre>[Senate Hearing 113-144]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 113-144

 
              ORR, ELKIND, SUH, AND BEAUDREAU NOMINATIONS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                                   TO

 CONSIDER THE FOLLOWING NOMINATIONS: DR. FRANKLIN M. ORR, TO BE UNDER 
SECRETARY FOR SCIENCE, DEPARTMENT OF ENERGY; MR. JONATHAN ELKIND, TO BE 
AN ASSISTANT SECRETARY OF ENERGY (INTERNATIONAL AFFAIRS), DEPARTMENT OF 
ENERGY; MS. RHEA S. SUH, TO BE ASSISTANT SECRETARY OF FISH AND WILDLIFE 
 AND PARKS, DEPARTMENT OF THE INTERIOR; AND MR. TOMMY P. BEAUDREAU, TO 
   BE AN ASSISTANT SECRETARY OF THE INTERIOR (POLICY, MANAGEMENT AND 
                                BUDGET)

                               __________

                           DECEMBER 12, 2013


                       Printed for the use of the
               Committee on Energy and Natural Resources



                  U.S. GOVERNMENT PRINTING OFFICE
86-264                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0562756a45667076716d6069752b666a682b">[email&#160;protected]</a>  

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                      RON WYDEN, Oregon, Chairman

TIM JOHNSON, South Dakota            LISA MURKOWSKI, Alaska
MARY L. LANDRIEU, Louisiana          JOHN BARRASSO, Wyoming
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
BERNARD SANDERS, Vermont             MIKE LEE, Utah
DEBBIE STABENOW, Michigan            DEAN HELLER, Nevada
MARK UDALL, Colorado                 JEFF FLAKE, Arizona
AL FRANKEN, Minnesota                TIM SCOTT, South Carolina
JOE MANCHIN, III, West Virginia      LAMAR ALEXANDER, Tennessee
BRIAN SCHATZ, Hawaii                 ROB PORTMAN, Ohio
MARTIN HEINRICH, New Mexico          JOHN HOEVEN, North Dakota
TAMMY BALDWIN, Wisconsin

                    Joshua Sheinkman, Staff Director
                      Sam E. Fowler, Chief Counsel
              Karen K. Billups, Republican Staff Director
           Patrick J. McCormick III, Republican Chief Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Beaudreau, Tommy P., Nominee to be Assistant Secretary of the 
  Interior (Policy, Management and Budget).......................    15
Begich, Hon. Mark, U.S. Senator From Alaska......................     7
Elkind, Jonathan, Nominee to be Assistant Secretary of Energy 
  (International Affairs), Dept. of Energy.......................    10
Feinstein, Hon. Dianne, U.S. Senator From California.............     4
Murkowski, Hon. Lisa, U.S. Senator From Alaska...................     2
Orr, Franklin M. Jr., Nominee to be Under Secretary For Science, 
  Department of Energy...........................................     8
Suh, Rhea, Nominee to be Assistant Secretary of Fish and 
  Wildlife, Department of the Interior...........................    12
Wyden, Hon. Ron, U.S. Senator From Oregon........................     1

                               Appendix I

Responses to additional questions................................    37

                              Appendix II

Additional material submitted for the record.....................    69


              ORR, ELKIND, SUH, AND BEAUDREAU NOMINATIONS

                              ----------                              


                      THURSDAY, DECEMBER 12, 2013

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:01 a.m. in room 
SD-366, Dirksen Senate Office Building, Hon. Ron Wyden, 
chairman, presiding.

       OPENING STATEMENT OF HON. RON WYDEN, U.S. SENATOR 
                          FROM OREGON

    The Chairman. The Energy and Natural Resources Committee 
will come to order.
    Today we meet to consider 4 nominations.
    Dr. Franklin M. Orr, to be the Under Secretary for Science.
    Mr. Jonathan Elkind, to be the Assistant Secretary of 
Energy for International Affairs.
    Ms. Rhea Suh, to be the Assistant Secretary for Fish, 
Wildlife and Parks.
    Mr. Tommy Beaudreau, to be the Assistant Secretary of the 
Interior for Policy, Management and Budget.
    My view is is these are 4 very well qualified nominees.
    Briefly, Franklin Orr has been nominated to be the Under 
Secretary for Science at the Department of Energy. This is a 
position that was originally established to oversee the 
Department's research and development programs. Secretary Moniz 
has expanded the Office's role to encompass both science and 
energy programs.
    I'm of the view that Dr. Orr is an individual with 
credentials as broad as the expanded scope of the office he has 
been nominated to. He is also a Stanford Fellow which I'm sort 
of predisposed starting with my history with my mom as a 
librarian there. I came there after starting at Cal after, 
particularly, start with a basketball career.
    So we're glad you're here, Dr. Orr.
    Jonathan Elkind, nominated to be the Assistant Secretary of 
Energy for International Affairs, had been the principle Deputy 
Assistant Secretary for Policy and International Affairs since 
June 2009 and has served as the Acting Secretary since earlier 
this year. Before joining the Department of Energy in 2009, he 
was the Senior Fellow at the Brookings Institution where he 
focused on energy security and foreign policy. He has also 
worked in the private sector.
    We're very glad to have you as well.
    Ms. Rhea Suh, been nominated to be Assistant Secretary for 
Fish, Wildlife and Parks. She has been the Assistant Secretary 
of the Interior of Policy and Management and Budget for the 
past 4 years. She previously worked for the Hewlett and Packard 
Foundation, served as a Senior Legislative Assistant to Senator 
Ben Nighthorse Campbell.
    We look forward to talking with you, Ms. Suh. You have one 
big challenge on your hands, as you know. Senator Murkowski and 
I have, in a bipartisan way, made it a priority to look at how 
we're going to fund the parks for the future. So we're looking 
forward to exploring that with you.
    Mr. Beaudreau, you've been nominated to be the Assistant 
Secretary of the Interior for Policy, Management and Budget. 
The job is being vacated by Ms. Suh if she's confirmed in the 
position she's being considered for. You've been the Director 
of the Bureau of Ocean Energy Management since 2001. Previously 
you were a partner in the law firm of Fried, Frank, Harris, 
Shriver and Jacobson.
    Like our other nominees this morning we think you're very 
well qualified, enjoyed visiting with you. As you know, we're 
going to really be interested in those kind of 3 parts of the 
job that you're going to be focused on, policy, management and 
budget. We're going to ask some questions about how we can look 
to that position to help us tackle some of the issues that I, 
Senator Murkowski and Senator Landrieu feel very strongly about 
and that's revenue sharing.
    We think all of you are highly qualified for the positions 
you've been nominated for. We look forward to learning more 
about your thoughts on key issues this morning.
    I'm going to recognize Senator Murkowski to make her 
statement at this point, then we have some other formalities.
    We're very happy to be joined by our colleague, the Chair 
of the Intelligence Committee, Senator Feinstein, who has a 
long history of involvement in these issues.
    So we're going to recognize now, Senator Murkowski, for her 
statement. Then we have some formalities to go through, an oath 
and on a hectic morning in the Senate. We will manage to get it 
all in.
    So, Senator Murkowski, please proceed.
    As all of you nominees know, Senator Murkowski and I feel 
very strongly about working on these issues in a bipartisan 
way. We're going to do that again.

        STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman. Thank you to 
those who are with us this morning. Welcome to Senator 
Feinstein.
    It is important work this morning. Since our committee last 
convened we've seen some changes in the Senate rules with 
respect to nominations. Without seeking to revisit any of that 
this morning, I hope that all Senators would agree that our 
committee's process on nominations, which has always been very 
significant, perhaps has renewed significance.
    I think it's worthy of note that through history more than 
90 percent of nominees are confirmed and roll call votes, when 
they're taken are ordinarily not close. Nominees often are 
confirmed with large majority. Some have contended that this 
process has been just a rubber stamp for the President.
    But on the other hand, I think others would agree with me 
that the high pass rate is an indicator that the process is 
generally working properly.
    Either way, the work of the committee generally and of this 
committee, specifically, is crucial in the confirmation 
process. Among other things through the committee process the 
President and certainly nominees themselves, should expect a 
thorough vetting process. Thus it's good to be in that vetting 
process this morning, Mr. Chairman.
    I'd like to welcome each of our distinguished nominees to 
the committee. Thank you all for your willingness to serve.
    I'd like to first recognize a fellow Alaskan, Mr. Tommy 
Beaudreau.
    Some may not recognize that Mr. Beaudreau grew up in 
Alaska. He graduated from Service High School in Anchorage. His 
family moved to the State when his Dad got a job working on the 
North Slope which is a story that's very familiar to a lot of 
us in Alaska. I'm always pleased to see Alaskans holding 
positions with decisionmaking authority over activities in the 
State because no one understands the importance more of the 
blend of resource development and the protection of our lands 
and our waters like someone who's lived there and experienced 
it firsthand.
    Mr. Beaudreau, it was great to visit with you yesterday. As 
I mentioned in our conversation, I'm counting on you. I'm 
counting on you for a lot of different things, but to really 
complete the very important work, even as you conclude your 
service in the current position. I'm looking forward to 
continuing to work with you in your new role here.
    I've been assured by you and by others that your new 
position represents a promotion for you and is evidence of the 
value that the Secretary and the Administration assigned to 
your counsel. With your experience on Arctic issues and other 
issues that are very important to the State, I'm optimistic 
that wise counsel will be heard at the top echelons at the 
Department of the Interior.
    So I look forward to you in this new position.
    Ms. Suh, it was good to visit with you prior to the recess. 
As I mentioned at that time, the Department's role as Alaska's 
landlord is always front and center. I think Mr. Beaudreau saw 
that firsthand.
    I had kind of hoped that in your previous position you had 
become more familiar with the policy issues as they 
specifically related to Alaska which consume, will consume, so 
much of your time. I think you have a learning curve in front 
of you. I'm looking forward to, not only learning more about 
you today and through your answers to the questions on the 
record, but about your knowledge, your experience and your 
policy views on issues that are important to Alaska and to the 
nation.
    Dr. Orr, Mr. Elkind, welcome. I've been impressed with the 
team that Secretary Moniz is assembling at the Department of 
Energy. I think he's doing a good job over there.
    As I told Dr. Croley and Mr. Smith last month, I'm counting 
on DOE, specifically through its leaders to be a vigorous 
advocate for affordable and reliable energy, especially in the 
interagency process. I also want the Department to carry out 
its clear legal responsibilities according to settle law. So 
I'm going to be listening carefully this morning. I know it's 
going to be, kind of, up and down. I apologize to you all, but 
you know what the process is like around here.
    So with that, Mr. Chairman, to you.
    The Chairman. Senator Murkowski.
    We're going to call an audible here because we've got a 
vote coming on and Senator Feinstein is here on about, 
probably, 3 and a half hours sleep.
    Dr. Orr, you are very lucky to have her in her corner--in 
your corner. I think we have just enough time for Senator 
Feinstein's statement and we can all still make the vote.
    Welcome, Senator Feinstein.

       STATEMENT OF HON. DIANNE FEINSTEIN, U.S. SENATOR 
                        FROM CALIFORNIA

    Senator Feinstein. Thank you very much, Mr. Chairman. I'm 
very impressed that both of you are bright eyed and bushy 
tailed this morning.
    I'm really very honored to introduce to both you, Mr. 
Chairman and to your distinguished Ranking Member, Stanford 
University professor, Franklin M. Orr, who President Obama has 
nominated to serve as Under Secretary for Science in the 
Department of Energy.
    Dr. Orr currently directs the Precourt Institute for Energy 
at Stanford. He's led this Institute since it was created in 
2009. This is $100 million Institute. It is drawn upon deep 
expertise from across the Stanford campus and around the world 
to develop sustainable energy solutions and search for ways to 
reduce atmospheric levels of carbon.
    The research funded under Dr. Orr's leadership is ground 
breaking. Just this year the Institute has funded revolutionary 
new designs for fuel cells, studies focused on improving the 
performance of hybrid cars, natural ventilation systems in 
buildings and programs that financially motivate utility 
customers to use electricity more efficiently and experiments 
boosting the output of wind farms, testing a new kind of solar 
cell and using carbon dioxide as a way of storing electricity. 
Dr. Orr's work overseeing the Precourt Institute grant program 
prepares him to oversee DOE's programs including ARPA-E in the 
Office of Energy Efficiency and Renewable Energy. They award 
billions of dollars to promising energy technology research 
each year.
    Now what I've gotten from the Precourt program is how 
practical it is to real solutions. I think that's important.
    Prior to leading this Institute, Dr. Orr served as the 
Founding Director of the Global Climate and Energy Project at 
Stanford. He has been a professor in Stanford's Department of 
Energy Resources, Engineering since 1985, serving as Dean of 
the School of Earth Sciences from 1994 to 2002 and Chairman of 
his Department before that.
    If confirmed, he will be taking on a very important task. 
Secretary Moniz has expanded the Under Secretary for Science 
role so that it now oversees both basic science research and 
applied energy programs such as nuclear energy, fossil energy 
and the Office of Energy Efficiency and Renewable Energy.
    The Under Secretary now will oversee offices that had a 
combined budget of $7.7 billion in Fiscal Year 2013. These 
offices are the epicenter of our nation's effort to conduct 
basic physical science research in order to develop the cleaner 
technologies we need. They are charged with developing and 
demonstrating the emissions free power plants, affordable 
electric cars, fuel cells and low carbon transportation fuel 
that will allow our nation to slow global warming and grow our 
economy at the same time.
    Secretary Moniz has handpicked Dr. Orr to lead a much more 
integrated approach where basic science, applied research, 
technology demonstration and deployment programs work together 
to push clean energy toward a coordinated strategy. In other 
words, Dr. Orr is being given the job of leading our nation's 
charge to tackle climate change. I really recommend him to you 
for that role. He has the brains, the experience and the manner 
to get the job done.
    So thank you very much for giving me a few moments to say 
this and highly recommend him to your committee.
    The Chairman. Senator Feinstein, thank you for a very 
important statement, both in terms of the work that's going on 
at Stanford, Dr. Orr's qualifications.
    My sense is we've got about 90 seconds left to vote. So if 
our witnesses are agreed we'll let 3 Senators get out the door. 
I think it's very appropriate we break after Senator 
Feinstein's eloquent statement.
    We will be back here fairly shortly and thank you again. 
We'll be breaking for the vote.
    [RECESS]
    The Chairman. Thank all the nominees and Senators for their 
patience. It's going to be something of a juggling act.
    At this point let us have the oath. The rules of the 
committee which apply to all nominees require that they be 
sworn in connection with their testimony. So if you would, 
please rise and raise your right hand.
    Do you solemnly swear the testimony you're about to give to 
the Senate Committee on Energy and Natural Resources shall be 
the truth, the whole truth and nothing but the truth, so help 
you God?
    [A chorus of, I do]
    The Chairman. Please be seated.
    Before you begin your statement I'll ask 3 questions 
addressed to each nominee before this committee.
    Will you be available to appear before this committee and 
other Congressional Committees to represent Departmental 
positions and respond to issues of concern to the Congress?
    [A chorus of, I will.]
    The Chairman. Each of you have said, I will.
    Are you aware of any personal holdings, investments or 
interests that could constitute a conflict of interest or 
create the appearance of such a conflict should you be 
confirmed and assume the office to which you've been nominated 
by the President?
    [A chorus of no.]
    The Chairman. Each of you have said no.
    Are you involved or do you have any assets held in a blind 
trust?
    Alright. What we're going to do now we'd like each of you 
to introduce your family members. This has been a very good 
tradition. After we do that, we're going to welcome our 
colleague and friend, Senator Begich, to make an introductory 
statement. Then we'll recognize the nominees to make their 
opening statements.
    So let us ask each of the nominees to introduce their 
family members.
    Dr. Orr.
    Mr. Orr. It's a great pleasure to introduce my wife, Susan. 
We're in our 44th year and counting. One of the products of 
that partnership, my son, David, is also here.
    The Chairman. Will you all at least wave? If you're willing 
to stand up, we like that so everyone else can see you.
    [Laughter.]
    The Chairman. We welcome you and glad that you're here.
    Let's go with you, Mr. Elkind? Where is your family? 
There's some little characters floating around back there.
    Mr. Elkind. Thank you, Chairman.
    I'm delighted to introduce my wife, Susan Mintz. We're 
short timers in comparison to Dr. Orr, 25 years and our eldest 
son, Benjamin and our youngest, Noah and maybe on the other end 
of the webcast are our son, who is overseas at present.
    The Chairman. Very good.
    Mr. Elkind. Thank you very much.
    The Chairman. Could you all stand just real quickly so we 
can all see you? Great. Good. Glad the Elkind caucus is here. 
That's great.
    [Laughter.]
    The Chairman. Ms. Suh, welcome.
    Ms. Suh. Mr. Chairman, my 3 year old daughter, Yeumi, woke 
up today with a little bit of a cold. So unfortunately my 
husband and my daughter are not able to join us.
    The Chairman. Your 3 year old is excused, potential friend 
for Scarlett Willow Wyden, age one. So we like that.
    Mr. Beaudreau, your family?
    Mr. Beaudreau. Yes, I'm joined today by my wife, Carrie, my 
daughter, Nellie and my son, Auggie. They've missed some school 
this week because of the weather so I'd like to thank Grace 
Episcopal Day School for excusing them again this morning.
    The Chairman. How old are you guys? How old are you kids?
    Nellie Beaudreau, 10.
    Auggie Beaudreau, 8.
    The Chairman. Very good. Alright. Thank you. I see the 
family resemblance too.
    [Laughter.]
    The Chairman. We're glad you're here. Welcome.
    Let's now have Senator Begich's statement. He's been 
juggling a lot today. We knew you were going to parachute in at 
some point. We are very glad to have you and know of your long 
standing expertise and interest in energy issues.
    So, please proceed with your comments.

          STATEMENT OF HON. MARK BEGICH, U.S. SENATOR 
                          FROM ALASKA

    Senator Begich. Thank you, Chairman Wyden, Ranking Member 
Murkowski. I know you have a whole slate of nominees so I will 
keep my comments brief.
    It is my pleasure today to introduce an Alaskan known to 
many members of the committee, Tommy Beaudreau. As you know 
Tommy served as the first Director of the Bureau of Ocean 
Energy Management beginning in October 2011. Since January of 
this year he has also served as Acting Assistant Secretary for 
Land and Minerals Management.
    Beyond this impressive experience already, he has 
incredible degrees from Yale University as an undergraduate and 
Georgetown Law School.
    Tommy has experience and traits we Alaskans value highly.
    First, he and his family have first hand and lived 
firsthand with the economic ups and downs found in natural 
resource extraction industries. His family came to Alaska when 
his father got a job in the oil business and he lived with that 
job going away.
    As an Alaskan he can also understand how an economy and 
people depend on resource extraction at the same time treasure 
natural beauty and abundant wildlife. He knows how communities 
of subsistence dwellers rely on oil production for schools and 
healthcare facilities. While it makes me happy to have someone 
in power who knows how to pronounce Alaskan names, it's more 
important that he knows--is known as an honest broker.
    I haven't always agreed with every decision Tommy or the 
Department has made during his tenure. But he listens. He 
listened to me. He listened to the industry and he listened to 
the conservation community.
    In the end, by and large, we have a workable policy.
    As we move toward another season of offshore exploration in 
the Arctic Ocean, I'm sad to see him leave his current 
position. However, I know that he won't be far from it. His 
experience getting up to speed on offshore oil and gas and the 
host of scientific environmental work it depends on is too 
valuable to let go, particularly 5 years into an 8 year 
Presidential Administration.
    Tommy, congratulations and consider this truly fair 
warning, I'll continue to call you on many occasions. I know my 
colleagues, my colleague from Alaska will do the same on 
multiple times. We're anxious to see you move forward.
    Again, congratulations. I just wanted to introduce another 
Alaskan in the bureaucracy of Washington.
    The Chairman. Senator Begich, thank you very much. As you 
know, you are always welcome in this committee.
    Senator Murkowski, both of you, both of Alaska Senators, 
100 percent of the Alaskan Senate delegation has, I think, 
eloquently made the case. There's some unique challenges that 
are faced in your part of the world that are different than the 
lower 48. Both of you are very involved, obviously, in national 
energy policy issues.
    But you make some very important arguments with respect to 
the well being of your State that really does affect the whole 
country. So we thank you.
    Mr. Beaudreau, you are lucky to have Senator Begich in your 
corner.
    So we'll excuse you. I know you have a busy day, Senator 
Begich. Again, you're always welcome here at the committee.
    Senator Begich. Thank you.
    The Chairman. Alright. We're going to make your prepared 
remarks a part of the hearing record in their entirety. I want 
to make a plea that each of you set aside your prepared 
remarks. They're going to be part of the hearing record and 
just take 5 minutes or so and speak to us.
    I know that there is a compulsion to just put your head 
down and read every single word. If I can somehow persuade you 
to take the time, just kind of summarize your concerns. That'd 
be helpful.
    It's going to be a hectic morning. We would like to get to 
questions.
    Dr. Orr, welcome and you're nominated for a particularly 
important position. So, go ahead.

    TESTIMONY OF FRANKLIN M. ORR, JR., NOMINEE TO BE UNDER 
          SECRETARY FOR SCIENCE, DEPARTMENT OF ENERGY

    Mr. Orr. Chairman Wyden, Ranking Member Murkowski and 
members of the committee, thanks for the opportunity to appear 
before you today. It's certainly an honor.
    I'm grateful to the President for nominating me. I spent 
pretty much my whole career working on energy matters in one 
way or another. This is a chance for me to apply all of that to 
a position that I think is of critical importance to the future 
of energy in the Nation.
    I'm a chemical engineer by training. My early career was 
spent on working on enhanced oil recovery to try to recover oil 
that would be left behind by typical, conventional methods. A 
lot of that involved using high pressure CO<INF>2</INF>. So 
that led me into work on carbon capture and storage. That's 
been a big focus for my research group in the last 15 years.
    Along the way I also got involved in leading research 
enterprises. I was Dean at one of the schools--the School of 
Earth Sciences at Stanford and then stepped down from that to 
lead a big energy research project that worked on ways to 
reduce greenhouse gas emissions from energy use by much more 
efficient conversions of some primary energy resource into 
energy services.
    In recent years, as Senator Feinstein was kind enough to 
say, we formed an energy institute at Stanford. The idea was 
really to try to bring together people across the whole campus 
who were thinking about energy. They are distributed in 22 
different departments across the University and are trying to 
build a fully enriched conversation that goes from the 
fundamental science through lots of technology to the economics 
and policy and finance and regulatory issues and all the 
behavioral issues that all of us who make decisions in our 
daily lives about energy work on.
    So that experience has taught me the value of a portfolio, 
of looking at research that really has the potential to change 
the game, to make possible energy futures that are more 
efficient and emit fewer greenhouse gases. Those are things 
that I'm convinced that we can do.
    I'll just close by saying that, I think there is a huge 
opportunity to work on the question of how we integrate science 
and technology research at DOE. That's a challenge I look 
forward to taking on if I'm confirmed.
    So thank you for considering my nomination. I'm happy to 
answer questions when we get to that stage.
    [The prepared statement of Mr. Orr follows:]

    Prepared Statement of Franklin M. Orr, Jr., Nominee to be Under 
              Secretary for Science, Department of Energy

    Chairman Wyden, Ranking Member Murkowski, and Members of the 
Committee, thank you for the opportunity to appear before you today as 
you consider my nomination for the position of Under Secretary for 
Science at the Department of Energy (DOE). It is an honor to be here. I 
also very much appreciate the time Members of this Committee have taken 
to meet with me, and, if confirmed, I look forward to working with the 
Committee to address the challenges of maintaining the Department's 
critical efforts to ensure America's security and prosperity through 
vigorous and productive basic science and energy technology research 
programs.
    I am deeply grateful to the President for nominating me for this 
position. I have worked on energy research for my entire career, and if 
confirmed, this post will allow me to apply what I have learned to the 
management of the DOE science and energy research enterprise.
    I grew up in Texas: I was born in a small refinery town near 
Houston and then lived in Houston in high school. I studied chemical 
engineering as an undergraduate at Stanford and as a PhD student at the 
University of Minnesota. I interrupted my graduate studies to serve as 
a commissioned officer in the US Public Health Service, working 
initially at the National Air Pollution Control Administration and then 
at the Environmental Protection Agency when it was created. The 
experience in public service was extremely formative, and I returned to 
my graduate studies with helpful perspective. Those few years in 
Washington taught me that the government is full of talented people 
working hard on issues that matter, and I did a bit of growing up in 
the process.
    In the midst of that period, my wife Susan joined me in a 
partnership that is now in its 44th year and counting. I will be 
forever grateful to our respective roommates at Stanford, who organized 
the blind date that introduced us when we were undergraduate students.
    I worked briefly in Houston after my PhD for Shell Development 
Company, as a research engineer helping to develop enhanced oil 
recovery processes using high pressure carbon dioxide injection to 
produce oil that would otherwise be left behind in the subsurface. I 
then moved to the New Mexico Petroleum Recovery Research Center at New 
Mexico Tech to lead a research group working in the same area. After 
seven great years there, I moved to Stanford University, where I have 
benefited from a much broader range of energy experience. I have had 
the good fortune to teach and do research with very talented students 
on the fundamentals of how complicated fluids flow in the rocks of the 
Earth's crust. Those ideas turned out to apply directly to many aspects 
of geologic storage of carbon dioxide in porous rocks deep in the 
subsurface. That area has been an important area of focus for my 
research group for the last 15 years as we have worked to understand 
the subsurface portion of carbon capture and storage.
    I've also had a chance to learn about leading a wide-ranging 
research enterprise, first as dean of the Stanford School of Earth 
Sciences, working with geologists, geophysicists, petroleum engineers, 
and Earth system scientists. In 2002, I stepped down from my dean 
position to start the Global Climate and Energy Project (GCEP), a ten-
year, $225 million industry-supported project of fundamental, pre-
commercial research on technology options to reduce greenhouse gas 
emissions from energy use. That project has created a portfolio of 
breakthrough research on ways to convert primary energy resources (such 
as sun, wind, coal, oil, or natural gas) into energy services (such as 
electricity, light and heat, or transportation) with improved 
efficiency and lower emissions of carbon dioxide to the atmosphere. In 
addition to research, that effort has supported the graduate study of 
about 750 graduate students and postdocs at Stanford and at 39 
collaborating institutions around the world. Those students and many 
more at other universities will be needed to work on the energy 
transitions that lie ahead.
    The process of building the GCEP research portfolio taught me the 
value of working across disciplines, of attacking tough energy problems 
from differing science and engineering perspectives, of research teams 
working together to solve problems that go beyond those that could be 
attacked with the methods available within an individual research 
group.
    Energy use is woven throughout the fabric of modern life. But it is 
also clear that the technology of energy conversions is only part of 
the challenge we face, and in recognition of that fact, we created the 
Stanford Precourt Institute for Energy in 2009. Its goal is to make 
sure that students and faculty at Stanford are working on the full 
range of important energy issues: from the fundamental science, to the 
engineering and technology, to economics, policy, finance and 
regulatory issues, to the behavioral side of the energy choices all of 
us make in our daily lives.
    Our goal has been to harness the creativity and talent of 225 
faculty members in 22 academic departments and create a vibrant, 
comprehensive conversation about all the important aspects of energy 
use among the community of energy students and faculty at Stanford. I 
note that the student Energy Club at Stanford is the largest student 
club on campus, an indication that our students are very engaged in 
these issues, as they should be. And I'm teaching a course for 60 
Stanford freshmen this quarter on all the different ways of thinking 
about energy for the future. Interacting with those students gives me 
confidence that we can chart a productive energy path for the future.
    And finally, I have had the good fortune to participate in a 
variety of studies conducted by the National Academies' National 
Research Council that have broadened my energy background as well. The 
most recent one was entitled America's Energy Future. I know I have 
learned more from my fellow committee members than they learned from 
me, and I am grateful for the experience that effort provided.
    Let me close by saying that if I am confirmed, I very much look 
forward to working with all of you to continue to develop the wide-
ranging portfolio of fundamental science, energy science and 
engineering, and technology that will provide the foundation for the 
energy future of the United States.
    I thank you again for considering my nomination, and I will be 
happy to answer any questions you have.

    The Chairman. Dr. Orr, thank you. You managed to summarize 
very well, so extra points for that. We're going to make your 
prepared statement part of the record.
    Mr. Elkind.

TESTIMONY OF JONATHAN ELKIND, NOMINEE TO BE ASSISTANT SECRETARY 
    OF ENERGY (INTERNATIONAL AFFAIRS), DEPARTMENT OF ENERGY

    Mr. Elkind. Thank you very much, Chairman Wyden. Thank you, 
Senator Murkowski and members of the committee. I'm very 
pleased to be able to appear before you today.
    This is a particular honor for me to potentially, if I am 
confirmed, have this new association with the Department of 
Energy. As a matter of coincidence my family ties to the 
Department of Energy go back quite a ways. For the fact that my 
father was a researcher, who for a portion of his career in the 
1960s and 1970s, worked at Brookhaven National Laboratory and 
at Argonne National Laboratory in those days under the Atomic 
Energy Commission and ERDA.
    But the fact that I'm in front of you today probably has 
more to do with my dad's attitudes about career choices than 
anything else. When I was an undergraduate at the age of my 
oldest son, the advice that I got from my dad was to find a 
niche that I was interested in and to look at that opportunity 
as a chance, a life opportunity to work on issues that made me 
excited to spend time on every day. So his advice really was 
love what you do and do what you love, which indeed, was the 
case with him as well.
    For a little bit more than 25 years I have worked in 
relation to international energy issues, sometimes in 
government service. My first government role was in the 
Administration of President George H.W. Bush, then in the 
Clinton Administration. I've also been in think tank positions 
and in private sector consulting.
    From all these experiences I know how important it is that 
the United States has strong and constructive international 
energy partnerships. That sense of excitement about building 
those relationships and making them work for the benefit of the 
United States is the opportunity that I would be very, very 
pleased to focus on, if I am confirmed into this position.
    Thank you very much.
    [The prepared statement of Mr. Elkind follows:]

    Prepared Statement of Jonathan Elkind, Nominee to be Assistant 
   Secretary of Energy (International Affairs), Department of Energy

    Chairman Wyden, Ranking Member Murkowski, members of the Committee: 
I am grateful for the opportunity to appear today as you consider my 
candidacy to be the Assistant Secretary of Energy for International 
Affairs.
    I am honored to have been nominated for this post by President 
Obama. I also deeply appreciate the confidence that Secretary Moniz has 
expressed by asking me to serve in this capacity.
    I would like to introduce and thank my wife of twenty-five years, 
Suzanne Mintz, and two of our three sons who are here with me today, 
Benjamin and Noah. Our third son, Sam, is completing a college semester 
abroad.
    In 2009, I was appointed as the Department of Energy's (DOE) 
Principal Deputy Assistant Secretary for Policy and International 
Affairs. This was my second professional association with the 
Department, but by coincidence my family's prior ties to DOE go back to 
my childhood. My father was a researcher who worked on cancer treatment 
and carcinogenesis. He spent portions of the 1960s and 1970s at the 
Brookhaven and Argonne National Laboratories that are now operated by 
DOE--in those days by the Atomic Energy Commission and later the Energy 
Research and Development Agency.
    The fact that I am before you today, however, had more to do with 
my dad's attitudes about career choice than with the mere fact that I 
have known DOE and its precursors since childhood. When I was an 
undergraduate, my dad counseled me to find a professional niche that I 
felt passionate about, a place where I would want to make a 
contribution because of my own fascination with the issues at hand. 
Whether I made that contribution as a business person, an academic, or 
a government official wasn't central. His advice was essentially: Do 
what you love, and love what you do.
    For a little more than twenty-five years, I have focused on 
international energy issues with that backdrop. I first worked on 
energy and environment issues in the federal government when I served 
at the Council on Environmental Quality under President George H.W. 
Bush. I served subsequently through the 1990s at positions in the 
Department of Energy, the Office of the Vice President, and the 
National Security Council staff. Later, I worked as a private energy 
consultant and a senior fellow at the Brookings Institution.
    From these experiences, I know how important it is for the United 
States to work effectively with international partners on energy 
issues. We need strong international partnerships that allow us to 
understand where markets are heading, where there are opportunities for 
U.S. businesses, and where breakthroughs and flash points can emerge.
    I am proud of the progress we have made on many of these fronts 
during my current tenure at the Department, including establishing 
collaborations like the Clean Energy Ministerial and the International 
Partnership on Energy Efficiency Cooperation. These key partnerships 
have helped us to identify and share best practices in low-carbon 
energy technologies. Other bilateral engagements such as the U.S.-China 
Clean Energy Research Center and the U.S.-India Joint Clean Energy R&D 
Center are helping us forge new research partnerships and establish 
commercial ties on topics like carbon capture and sequestration, 
buildings energy efficiency, and next-generation biofuels.
    If I am fortunate enough to be confirmed by the Senate, these are 
some of the areas that will be my focus. I also look forward to working 
with this Committee to identify additional opportunities to advance our 
energy economy. I hope to secure your support so that I might have that 
opportunity.

    The Chairman. Well said.
    Ms. Suh.

  TESTIMONY OF RHEA SUH, NOMINEE TO BE ASSISTANT SECRETARY OF 
    FISH AND WILDLIFE AND PARKS, DEPARTMENT OF THE INTERIOR

    Ms. Suh. Mr. Chairman, ranking member and members of this 
committee, thank you for the opportunity to be here today. 
Thank you also for the chance to meet with you in person.
    I am a child of the West. I was born and raised in 
Colorado, raised by Korean immigrant parents who, like many, 
found their way to that great State with dreams of freedom and 
a better life for their family. While my parents could not be 
here today, I would like to acknowledge them as well. They came 
to America with nothing and in turn gave me and my sisters 
everything.
    Like so many other Westerners I grew up reaping the 
benefits of the lands and waters managed by our Federal 
Government. My earliest memories are memories of being outside, 
fishing with my father, of exploring for fossils up in the 
foothills of the Rocky Mountains and going to camp in Rocky 
Mountain National Park. This tapestry of lands, the backdrop of 
my childhood, has influenced me and my values throughout my 
life.
    For the past 4 years I have served as the Assistant 
Secretary for Policy, Management and Budget at the Department 
of the Interior. I have had the privilege of working with each 
of the 9 bureaus on a wide array of issues. I have led the 
efforts to secure the resources to enable each of those bureaus 
to uphold their missions, but I have focused a concerted effort 
on ensuring that we manage those resources in a way that is 
both effective and efficient.
    In these challenging fiscal times I have saved the 
Department over $500 million and untold millions in cost 
avoidance including $160 million in real estate consolidations 
and $200 million in smarter purchasing agreements.
    While my most recent experience at the Department has 
focused more on administrative and fiscal policy, I have nearly 
2 decades of experience in natural resource issues. I started 
out as a Senate staffer working for Senator Ben Nighthorse 
Campbell from Colorado where I worked on both energy and 
natural resource issues. I had the unusual opportunity during 
that time to work on both sides of the aisle spending 2 years 
on the Democratic side and a year on the Republican side. This 
unique circumstance profoundly shaped my views on policy and 
left me with the strong belief that collaboration, while not 
easy or straightforward, can result in the most creative and 
durable policy outcomes.
    These beliefs helped me in my tenure at both the Hewlett 
and the Packard Foundations where I continued to work on 
natural resource issues. In particular I supported the efforts 
to expand their array of voices and perspectives on 
conservation including those of hunters and anglers, indigenous 
communities and faith based organizations.
    I am now before you today as the President's nominee as the 
Assistant Secretary for Fish, Wildlife and Parks, a position 
that would allow me to focus more concertedly on the critical 
work of conservation. I come to this opportunity with great 
humility. It would afford me the chance to work with 2 of the 
most storied and venerated agencies at Interior, the Fish and 
Wildlife Service and the National Park Service.
    Americans love the outdoors. We love to hunt and fish. We 
love our parks.
    The National Refuge system is truly America's backyard. 
These are the places where millions of us go to hunt and fish 
and explore and are among our Nation's most popular pastimes. 
The Fish and Wildlife Service is uniquely positioned to welcome 
a new generation to be connected to this natural heritage that 
is our birthright as Americans.
    When the National Park Service celebrates its 100th 
anniversary in 2016 we will have an even greater opportunity to 
renew the bond that Americans have with their parks. The 
National Park Service's second century is a defining moment 
offering us an opportunity to celebrate America's natural and 
cultural history and to lay a strong sensible foundation for 
the next century of stewardship.
    From the time I hooked a rainbow trout with my dad I became 
the beneficiary of our Nation's rich natural heritage. If 
confirmed I hope to continue this bounty by strengthening the 
opportunities for Americans both to be connected to and to 
benefit from the outdoors and by pursuing pragmatic, balanced 
solutions that contribute to conservation of the Department's 
lands and waters for the benefit of all the great people of 
this country.
    Thank you again for the opportunity to be here today.
    [The prepared statement of Ms. Suh follows:]

 Prepared Statement of Rhea Suh, Nominee to be Assistant Secretary of 
        Fish and Wildlife and Parks, Department of the Interior

    Mr. Chairman, Ranking Member, and Members of the Committee, thank 
you for the opportunity to be here today. Thank you also for the 
opportunity to meet with many of you in person.
    I would like to acknowledge and thank my husband, Michael Carroll 
who agreed to come with me on this journey four years ago and my 
daughter Yeumi, who was a blessing for us nearly three years ago now. 
And while my parents-Chung Ha and Young Ja Suh-cannot be here today, I 
want to acknowledge them as well. They were young immigrants from Korea 
who came to this country in the early 60's with nothing and in turn 
gave me and my sisters everything. From my love of the outdoors to my 
commitment to public service, I am instilled with their love of this 
country and I owe everything to their sacrifices and courage.
    For the past four years, I have had the honor of serving as the 
Assistant Secretary for Policy, Management and Budget at the Department 
of the Interior. It is chiefly a management position that is focused on 
the financial and administrative policy for the Department. I have had 
the privilege of working with each of the nine bureaus on a broad array 
of issues, but I have primarily been responsible for leading efforts to 
secure the resources to enable each of the bureaus to uphold their 
missions but also to ensure that we manage those resources in a manner 
that is both effective and efficient. In these challenging fiscal 
times, I have led the enterprise to achieve more than $500 million in 
savings and untold millions in cost avoidance, including $160 million 
associated with real estate consolidations and $200 million in smarter 
purchasing agreements. I have also led the longer-term efforts around 
workforce and succession planning and the policy efforts on youth.
    I am now before you today as the President's nominee for the 
Assistant Secretary for Fish, Wildlife and Parks-a position that would 
allow me to focus more concertedly on the critical work of 
conservation.
    For the members of the Committee whom I have not had the chance to 
get to know, I'd like to tell you a little bit about myself. I was born 
on the edge of the Rocky Mountains in Boulder, Colorado, and raised by 
Korean immigrant parents who found their way to that great State like 
so many other pioneers with the dreams of freedom and of a better life 
for their family. Like so many other westerners, I grew up reaping the 
benefits of the lands and waters managed by our Federal Government. My 
dad first taught me how to fish in waters managed by the Bureau of 
Reclamation. As a Girl Scout, I camped out under the starry skies in 
Rocky Mountain National Park, and in high school, I helped build a 
section of the Continental Divide Trail, which is in part managed by 
the Bureau of Land Management. This tapestry of lands, the backdrop of 
my childhood, has influenced me and my values throughout my life.
    I come to this opportunity with great humility, as it would afford 
me the chance to work with two of the most storied and venerated 
agencies in the federal government: the Fish and Wildlife Service and 
the National Park Service. These agencies are the caretakers of some of 
our nation's most special places and most vulnerable species. And 
uniformly, I have never met a more passionate set of employees-
dedicated in the missions of their organization and in their commitment 
to public service. At the top of the list are the directors of these 
agencies Dan Ashe and Jon Jarvis-public servants who have dedicated 
their careers to these special missions and to the critical work their 
organizations do on behalf of the American public.
    Before I joined the government four and a half years ago, I spent 
my career focused on conservation issues. I started off as a senate 
staffer for Senator Ben Nighthorse Campbell, from my home state of 
Colorado, where I worked on energy and natural resource policy. I also 
had the unusual opportunity to work on both sides of the aisle during 
this time, spending two years on the Democratic side and a year on the 
Republican side. This unique circumstance profoundly shaped my views on 
policy and left me with the strong belief that collaboration, while 
often not easy or straightforward, can result in the most creative and 
durable policy outcomes.
    These beliefs helped me in my tenure as a program officer for both 
the Hewlett and the Packard foundations, where I continued to work on 
natural resource issues. Both institutions have a keen interest in 
building institutional capacity within the non-profit sector, and I 
focused much of my efforts on helping the variety of NGOs we worked 
with on strategic planning and on developing appropriate metrics to 
help evaluate progress towards their goals. I also supported a number 
of efforts designed to create opportunities that could not only balance 
economic development and conservation but also that saw those twin 
goals as inexorably linked. My foundation experience also uniquely 
equips me to be able to work on innovative public-private partnerships 
to advance successful models that leverage Federal resources with those 
provided by the philanthropic community, partners, and other interested 
entities.
    The opportunity to balance our economic needs with conservation is 
illustrated in fact that both the Fish and Wildlife Service and the 
National Park Service are significant contributors to local economies. 
According to the Department's FY2012 Economic Report, recreation alone 
drove an estimated 417 million visits to DOI managed sites, generating 
$45 billion to the American economy and supporting 372,000 jobs.
    The national wildlife refuge system is truly America's backyard-the 
places where millions of us go to hunt, fish, hike and explore the 
outdoors. Hunting and fishing are among our nation's most popular 
pastimes; more than 41 percent of the US population 16 and older 
participated in wildlife-related outdoor recreation in 2011 and in some 
states, more people have hunting and fishing licenses than vote. 
However, as more and more children become attuned to technology and the 
internet rather than the natural chorus of the outdoors, the Fish and 
Wildlife Service can work to ensure that the next generation is also 
connected to the natural heritage that is our birthright as Americans.
    The National Park Service manages Interior's most visited lands, 
and arguably the country's best known and loved sites. These 
destinations draw visitors from across the globe, and these visitors 
support over $30 billion in economic activity. When the National Park 
Service celebrates its 100th anniversary in 2016, we will have an even 
greater opportunity to renew the bond that Americans have with their 
parks. The beginning of the National Park Service's second century is a 
defining moment, offering us an opportunity to celebrate America's 
historical, cultural and natural heritage and to lay a strong, sensible 
foundation for the next century of stewardship.
    Although it is clear that there are many challenges facing the two 
agencies, and conservation as a whole, I believe we have enormous 
opportunities in the near term. My skills in constituency building can 
help guide the agencies to ensure that our work is meaningful to all 
Americans, regardless of where they live or what cultural background 
they represent. And my experience in the Department, working side by 
side with these bureaus and others toward effective financial 
management, equip me to assist them in a constrained budget environment 
to effectively utilize their resources. During my tenure at DOI and in 
my previous work, I have developed relationships across government and 
with diverse stakeholders that will assist me in fostering a pragmatic, 
collaborative approach to conservation that builds coalitions across 
all of our constituencies in the interests of the American public we 
serve.
    I am a child of the West. From the first time I hooked a rainbow 
trout with my Dad, I became the beneficiary of our nation's rich 
natural heritage. If confirmed, I hope to continue the legacy of this 
bounty by connecting the next generation of American's to their 
outdoors and of pursuing pragmatic, balanced conservation solutions 
that contribute to the sustainable use and management of the 
Department's lands and waters for the benefit of all the people of this 
great country.
    Thank you again for the opportunity to be here today and I would be 
happy to answer any questions you may have.

    The Chairman. Thank you very much.
    Mr. Beaudreau.

   TESTIMONY OF TOMMY P. BEAUDREAU, NOMINEE TO BE ASSISTANT 
   SECRETARY OF THE INTERIOR (POLICY, MANAGEMENT AND BUDGET)

    Mr. Beaudreau. Good morning. Thank you, Chairman Wyden and 
Ranking Member Murkowski.
    As Senator Murkowski and Senator Begich mentioned this 
morning, I am an Alaskan. We moved to Alaska in 1979 when my 
dad, a Vietnam veteran, was able to get a good job working in 
Prudhoe Bay on the North Slope and did the week on, week off 
routine up there. He also moved us to Alaska for the adventure 
of an outdoors life in the last frontier. He even considered 
moving us to Sitka at one point which the trajectory of my life 
probably would have been a lot different if he had done that.
    so on the one hand I saw firsthand what resource 
development means to the State of Alaska and to families like 
mine. On the other hand, for the same reasons many people live 
in Alaska, we enjoyed the outdoors, hunting, fishing, hiking 
and skiing. Everybody in Alaska appreciates the benefits of 
those blessings as well. So those are the values I carried with 
me when I joined the Interior Department in June 2010 to help 
the Administration's response to the Deepwater Horizon oil 
spill.
    Our charge from the President and from Secretary Salazar 
was to strengthen industry standards with respect to offshore 
oil and gas exploration and development and also to restore 
public confidence in regulatory oversight of that activity. 
Those were difficult times as we all remember. But you look at 
the Gulf of Mexico today and there are more rigs operating in 
the Gulf today then there were 3 years ago, prior to the spill.
    I talked to oil and gas executives about their plans for 
the Gulf of Mexico and they're extremely optimistic for the 
area and are looking to bring additional rigs in. They asked--I 
asked them, you know, what do you think about it? He said, 3 
years ago if you'd asked me would we be where we are today I 
would have said it was a long shot. But the investment is 
strong and the public's confidence and our oversight is strong 
as well and the activity is being done more safely and more 
responsibly than ever before.
    So it's that track record that I bring into the new 
position. It's based on hard work, listening intently to a 
broad spectrum of stakeholders, working collaboratively with 
States, tribes and local communities and thinking creatively 
and positively about solutions to seemingly intractable 
problems.
    Moving into Assistant Secretary for Policy, Management and 
Budget, if concerned--or if confirmed, would place me as the 
Chief Financial Officer for the Department. Secretary Jewell, 
who is as you know an experienced businessperson and Chief 
Executive in her own right, has challenged us to take a hard 
look at the way DOI does business with an eye toward cutting 
red tape, finding efficiencies, working across organizations 
rather than in silos and saving resources in light of 
increasingly constrained budgets. I'll be on point to build on 
some of the successes that Assistant Secretary Suh has made. 
It's a challenge I look forward to with enthusiasm and energy.
    If confirmed I'll carry all of those same core principles 
of hard work, active and genuine engagement, humility and 
creative problem solving with me into this new role.
    So, I look forward to answering your questions. Thank you.
    [The prepared statement of Mr. Beaudreau follows:]

   Prepared Statement of Tommy P. Beaudreau, Nominee to be Assistant 
        Secretary of the Interior (Policy, Management and Budget

    Chairman Wyden, Ranking Member Murkowski, and members of the 
Committee, I am honored to appear before you today as the President's 
nominee to be the Assistant Secretary of the Interior for Policy, 
Management and Budget. I am joined today by my wife, Carrie, and our 
children, Nellie and Auggie. I'd like to thank Grace Episcopal Day 
School for excusing their absences this morning. I have been with the 
Department of the Interior (DOI) for nearly three and a half years, and 
during this entire period of public service my family has been a 
constant source of support and inspiration, for which I am profoundly 
thankful.
    While I have appeared before this Committee previously in my 
capacity as the Director of the Bureau of Ocean Energy Management 
(BOEM) and acting as the Assistant Secretary for Land and Minerals 
Management (ASLM), I will take a moment to reintroduce myself.
    I was born in Colorado, where my mother is from, and was raised in 
Alaska. My father moved our family to Alaska for the outdoor adventure 
of a life in the Last Frontier and the opportunity for a Vietnam 
veteran to get a good job working in the Prudhoe Bay oil field on the 
North Slope. Because of my upbringing, I have a first-hand 
understanding of the importance of responsible resource development to 
the economic well-being of communities and families. Having grown up 
hunting, fishing, hiking and skiing in the vast Alaskan wilderness, I 
also have a deep appreciation for the special character of the American 
outdoors. We have a shared responsibility to conserve these wondrous 
spaces so that future generations have them to experience, enjoy and 
learn from.
    These are the values I brought to the Interior Department when I 
left my law practice in 2010 to join the Administration's response to 
the Deepwater Horizon blowout and oil spill. The Macondo well was still 
flowing at the time, and the direction from the President and Secretary 
Salazar was to reform offshore drilling standards and oversight so that 
the American people can be confident that oil and gas development on 
our oceans, which is vital to our economy, is safe for workers and for 
the environment, and is overseen by strong, independent and effective 
regulators.
    Three years later, offshore oil and gas in the Gulf has rebounded 
strongly. There are more rigs working there today than prior to the 
spill, and this growth is expected to continue. I am proud to say as 
well that the activity is being conducted more safely and more 
responsibly, and is subject to stronger oversight, than ever before.
    We also have made substantial progress standing up new, renewable 
sources of energy both onshore and offshore. We are already more than 
halfway to the President's goal of approving 20,000 megawatts of 
renewable energy on public lands by 2020, and earlier this year 
successfully held the first two competitive offshore wind lease sales 
in federal waters.
    I am proud of this track record, which has been premised on hard 
work, listening intently to a broad spectrum of stakeholders, working 
collaboratively with States, tribes and local communities, and thinking 
creatively and positively about developing solutions to seemingly 
intractable problems. I believe this track record, my values and my 
approach to the issues are my most important qualifications.
    I now look forward, if confirmed, to following my friend Rhea Suh 
as DOI's Assistant Secretary for Policy, Management and Budget and to 
continuing this collaborative, pragmatic and creative approach to 
tackling many of the most significant challenges, as well as seizing 
the substantial opportunities, that are before the country and the 
Interior Department.
    As the primary steward of our shared landscapes and resources, DOI 
has a special place and set of responsibilities on behalf of the 
American people. The activities we oversee are an enormous economic 
engine for the country. In 2012, DOI's programs contributed $371 
billion to the United States' economy and supported 2.3 million jobs 
across sectors including recreation and tourism, conventional and 
renewable energy development, grazing and timber harvests. 
Specifically, in 2012, there were 417 million visits to DOI-managed 
lands, and recreational visits alone contributed an estimated $45 
billion in economic activity, much of it benefitting local communities 
in rural areas. We also oversee the responsible development of 
approximately 23 percent of America's energy supplies, and DOI is the 
largest supplier and manager of water across 17 Western states. 
Interior is responsible for maintaining our special relationships with 
the 566 federally-recognized Tribes, and provides services to more than 
1.7 million American Indian and Alaska Native people.
    Secretary Jewell also has made it a major priority of the 
Department to strengthen connections between young people and the 
outdoors, so that new generations of Americans have the same formative 
experiences with the lands that are their shared birthright that I did 
growing up in Alaska. With tightening resources available for youth 
programs, it is imperative that we continue to aggressively leverage 
public investments as well as further develop partnerships with private 
institutions.
    Secretary Jewell, as an experienced business person and chief 
executive officer, also has challenged us to take a hard look at the 
way DOI does business, with an eye toward cutting red-tape, finding 
efficiencies, working across organizations rather than in silos, and 
saving resources in light of increasingly constrained budgets.
    As the Department's chief financial officer, I would be on point 
for building on DOI's successes in these areas, and it is a challenge 
that I look forward to with enthusiasm and energy. If confirmed, I will 
carry the same core principles of hard work, active and genuine 
engagement, humility and creative problem solving with me into this new 
role.
    Thank you very much for the opportunity to discuss my nomination 
with you this morning, and for your consideration. I look forward to 
answering your questions.

    The Chairman. Mr. Beaudreau, well summarized and I 
appreciate it.
    I do want to note that you have great experience, but I'm 
not yet clear whether you have taken the test that Senator 
Murkowski introduced me to when I went to Alaska. That is 
whether you have eaten a graham cracker treated with LNG. 
Because I have done that, lived to tell about it and Senator 
Murkowski and I kid that that is something of a special ritual, 
a bipartisan ritual, we have here.
    But you have a long history and look forward to questions.
    So let's begin quickly with that because of the hectic 
nature of the morning.
    I want to begin with you, you know, Dr. Orr, because, you 
know, right at the heart of what we need to do in this country 
is ground breaking research in the energy area. Focusing on 
innovation is what your position is all about. This is 
particularly important given the urgency of climate change.
    As you know, the NOAA report reflected 400 parts per 
million. If nothing serves as a wakeup call, that certainly, 
you know, ought to. So we see your position as the ideal spot 
to help us innovate and let me repeat that, innovate, out of 
our way of the climate challenge. This is right at the heart of 
how we, you know, get out of this.
    I'd like to just start by asking you in your view what are 
the biggest opportunities for transformational type innovation 
that's going to let us, you know, fight climate change?
    Mr. Orr. Senator, thank you for that question.
    I've really worked on this exact question for most of the 
last dozen years at Stanford. So I'll give you a couple of 
examples from that experience just to, sort of, frame the 
conversation.
    The Chairman. Give us a couple of examples of the past, but 
I don't want this question to go by without your giving us some 
insight onto what you want to do for the future----
    Mr. Orr. Yes.
    The Chairman. Or for the days ahead.
    Mr. Orr. Yes.
    So I'll give you 2 quick examples.
    One is batteries.
    The conventional lithium ion battery uses a carbon atom to 
hook up to a lithium ion. If you replace that with silicon you 
can put 4 lithium ions next to the silicon. But you have to be 
careful how you do this because if you do it in a bulk material 
it just expands and contracts and destroys itself. But if you 
use nano-structured materials, tiny little rods or tiny little 
particles, shielded in the right way, you can build a battery 
with higher energy density and nice long life.
    So the reason----
    The Chairman. Nano materials and batteries.
    mr. Orr. Yes.
    The Chairman. Would be an area.
    Mr. Orr. So the idea of nano materials, catalysts and using 
those small structures to control properties gives us a whole 
set of design opportunities for the future. That could change 
transportation dramatically.
    Another application of the same kinds of ideas is catalysts 
for taking electricity and converting it into a fuel by 
basically pulling off one of the oxygens off of CO<INF>2</INF> 
making CO<INF>2</INF>, CO and then you can transform that 
chemically.
    Now we have some very promising results from that so far. 
There is some ways yet to go. But it's an example of how taking 
the links between chemistry, material science and the ability 
to make small structures can give us a huge set of 
opportunities for the future.
    Now in terms of applying that in the Department of Energy, 
if confirmed, then the way we've tried to do this in the past 
is really to build teams that lay out research agendas that 
could really go after big problems with breakthrough potential. 
We should do that going forward. If confirmed I will work very 
hard to try to make that happen.
    The Chairman. You had me at hello when you mentioned nano 
materials because in, sort of, my previous Senate service, 
George Allen and I wrote the 21st Century Nano Technology 
legislation that still guides a big part of the research. So 
I'm very pleased that you're moving ahead on that.
    Let's shift to energy storage.
    Today the Department is releasing an R and D plan for 
energy storage which I first requested from one of your 
predecessors, Steve Koonin. I hope that the fact that it took 
so long to get this done doesn't indicate some sort of 
inability to think outside the box here because that's what 
it's really going to take.
    We've got 4 different DOE offices, ARPA-E, Office of Energy 
Efficiency, the Office of Electricity and the Office of 
Science. Part of the reason that your office is being 
reorganized is Secretary Moniz, correctly in my view, wants 
better coordination between basic research programs and 
technology development programs. Energy storage is exactly the 
kind of program that is going to take this kind of department 
wide approach.
    I want to make sure, as we talked about in the office, that 
this report that is being put out today does not just find its 
way to the gazillions of other kinds of reports stockpiled, you 
know, somewhere in the Forrestal, you know, Building. So I want 
to announce today that I am naming David Berick of the 
committee as the point person. He's going to be the person 
responsible in working with you to get this plan, you know, 
implemented.
    So tell us your thoughts with respect to how you're going 
to proceed. You're going to see a lot of Mr. Berick because he 
is going to be all over this to get this actually implemented. 
Give us your thoughts on that.
    Mr. Orr. Senator, thanks for that.
    I'm going to suppress my professorial urge to launch into a 
discussion of why the energy storage problem is so interesting 
from the short time scale to take the millisecond variations 
out of wind to hydro to longer time scales. But it's a very 
interesting area. It has applications across many parts of the 
energy space and the reason that there are multiple groups at 
the Department of Energy that are thinking about it is exactly 
that.
    Now I haven't seen the plan yet. But if I'm confirmed, you 
can bet that I'll be in there pitching it. It's a really 
interesting area. It gives us a vehicle for testing ideas about 
how to bring groups together, to lay out a research plan that 
really can lead to breakthroughs in a very important area.
    We have some experience in trying to do this at Stanford 
and we've have some tricks that have worked well for us. If 
confirmed, I'll do my best to get those working at the 
Department of Energy.
    The Chairman. Get up to speed quick because I've indicated 
and talked with the Secretary. I've talked to you. This is one 
of my top, top priorities. Energy storage is one of those 
transformational opportunities.
    I mean if we're serious, for example, about grid 
reliability one of the best ways to attack the grid reliability 
issue is to have a comprehensive energy storage plan. It is 
sure we've got plenty of energy stored if you have a Hurricane 
Sandy or a tragedy like that.
    So we're going to work very closely with you. Appreciate 
it.
    I'm over my time.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    I think I'll use this first round to stick with our DOE 
nominees.
    Let me go to you, Mr. Elkind.
    We're seeing a really encouraging situation on the ground 
in this country, certainly on private lands, with the dramatic 
oil and natural gas production that we're seeing taking place 
on, again, State and private lands primarily. But I would 
assume that what we're seeing with this increased production 
would influence your views as they relate to international 
responsibilities. We're going to be having here on the 
committee a hearing, probably in January now, on the 
geopolitics of oil, the geopolitics of natural gas and the fact 
that as a Nation we really move from a position of scarcity to 
one of greater abundance.
    Just very generally and you've got about a minute to do it. 
Can you describe some of the geopolitical impacts of our oil 
and natural gas boom? Do you think that this has helped 
strengthen our Nation's position and would potential exports of 
either oil or natural gas or other types of energy, for that 
matter, further enhance or diminish this impact?
    Just generally the geopolitical impact here of what we're 
seeing in our Nation now with increased production.
    Mr. Elkind. Senator, thank you very much for the question. 
It's a very, very important question. This has been such a 
dramatic development over the last several years to watch this 
very impressive and sustained growth in our domestic oil and 
natural gas production.
    I will just note very briefly that of course the domestic 
implications in terms of job creation, in terms of other 
benefits inside of our borders are not to be glanced past.
    With regard to the impacts in terms of the global scene 
they also have been very important. There are opportunities for 
countries that have had relationships with certain suppliers to 
now have competing supplies. That is a very positive 
development on the natural gas side.
    In terms of oil it is, after all, a very liquid, global 
market--truly a global oil market. But having additional 
supplies in the marketplace makes it easier to move through 
times when one sees, for example, production going offline from 
some of the traditional suppliers like Libya.
    So it's a very important issue. It is one that has my full 
attention in my current role. If I am confirmed, please rest 
assured that this is something that will be very, very, much a 
focus that I will be watching very closely.
    Senator Murkowski. Thank you for that.
    Let me ask you, Dr. Orr, when we talk about those 
transformational energy sources one of the things that I have 
been involved with over the years is trying to advance the 
research on methane hydrates. We reauthorized the Methane 
Hydrate Research Act of 2005. I've been pushing the 
Administration to make sure that we've got adequate funding out 
there for the program.
    I think we're seeing far less than we need. We had a test 
back in January 2012 up in Prudhoe that seemed to show that 
methane can be made to flow from these hydrates by replacing it 
with carbon dioxide. You know, when you're talking about how 
we're going to be able to utilize sequestered gas.
    I think these are some advances that are proving promising.
    Clearly Japan is recognizing that. They've been working 
with Alaska on some of this research. Earlier this year they 
conducted their own follow up test. They reported some 
substantial progress.
    Do you see methane hydrates as a priority area for the 
Department's research budget? Just, kind of, generally where 
are you on methane hydrates?
    Mr. Orr. Senator, thanks for the question.
    Methane hydrates are interesting structures. They're kind 
of cage-like structures which the gas molecules can be trapped.
    It's pretty clear that there's a very large resource out 
there and certainly Alaska is one of the places----
    Senator Murkowski. Gulf of Mexico.
    Mr. Orr. Yes.
    Alaska is one of the places that these things form and 
they're actually widespread on the ocean floor. So there's no 
question there's a bigger source.
    It's a tough one to get to economically because you need to 
work offshore or in places where sustaining production for the 
long time to pay out the costs can be a challenge.
    So obviously I'm not in office so I'm not as knowledgeable 
about the details of the DOE program as I should be. But it's 
clear that there are good science questions to be answered and 
then to move to the question of engineering to be able to take 
advantage of these things.
    It's an area that interests me personally. I'll look 
forward to working on it if I'm confirmed.
    Senator Murkowski. I appreciate that. Obviously it's always 
a question about budget and resources when we're looking toward 
additional research dollars. But I'd look forward to learning 
more about your views on this as you move into the job here.
    Thank you, Mr. Chairman. I'll move to the DOI nominees 
next.
    The Chairman. Excellent.
    Senator Murkowski and I work very closely with Senator 
Barrasso on all the issues that come before the committee. We 
welcome you today, Senator Barrasso.
    Senator Barrasso. Thank you, Mr. Chairman.
    Ms. Suh, thank you very much for taking time to come and 
visit with me and my staff on some of the issues. I want to 
talk a bit about your views on natural gas.
    A couple of years ago, actually 2007, you made a statement 
that natural gas development is and I'll quote, easily the 
single greatest threat to the ecological integrity of the 
West.''
    Now natural gas development is, as you said, ``easily the 
single greatest threat to the ecological integrity of the 
West.'' Now I find this viewpoint goes, kind of, beyond what is 
in the minds of the members of this committee. It's out of the 
mainstream.
    I mean, we've had issues of others who've come to talk to 
this committee about natural gas. Expanding responsible natural 
gas development is one of the biggest economic success stories 
in the country. Create thousands of jobs in places like 
Wyoming, Colorado, New Mexico, West Virginia, Louisiana and 
others.
    So if confirmed there are pending issues that you'll be in 
charge of and you'll have influence that will allow you to 
essentially stop natural gas production.
    You're going to be in charge of the Fish and Wildlife 
Service where you'll have influence and authority to set 
policy.
    You'll be able to influence decisions as to where to 
designate critical habitat which can lock up millions of acres 
of land from natural gas production.
    They'll be numerous decisions that will be made during your 
tenure as to whether to list or to designate either crucial, 
critical habitat for different species, whether it's sage 
grouse in 8 Western States, potential listings of the lesser 
prairie chicken in Oklahoma, the Gunnison sage grouse in 
Colorado, your home State and in Utah, to name only a few.
    You know, you'll also have influence over future species, 
the sue and settle agreements and to issue new rules that can 
restrict and lock up more land and ocean from natural gas 
production offshore and onshore.
    In addition the National Park Service, which you will also 
oversee in this position, has also begun commenting on BLM 
hydraulic fracturing rules.
    So, given the views stated by you in 2007 I want to know 
how members of the Senate that support natural gas could 
support your nomination.
    Ms. Suh. Senator Barrasso, thank you very much for the 
question and also for the time that you spent with me 
personally. I appreciate it.
    As a member of this Administration and personally I believe 
strongly in the President's all of the above energy strategy of 
which natural gas is a hugely important component. My work at 
the Hewlett Foundation and at the Packard Foundation was really 
focused on trying to enable conservation solutions that were 
balanced, balanced with development as well as preservation. We 
worked hard to ensure that that all of those efforts were 
efforts that ultimately were respected, I think, the economic 
needs and aspirations of local communities.
    So recognizing the importance of not only natural gas and 
the overall, kind of, energy needs of the country and 
opportunities of the country, but specifically natural gas' 
role in the economic development and livelihood of local 
communities throughout the country. I respect the role of it, 
understand the need for it and if confirmed in this new 
position, will work hard to ensure that the decisions that are 
made, specifically by the Fish and Wildlife Service, are made 
in such a way that recognize, again, that this larger question 
of balance.
    Senator Barrasso. You know, I support natural gas. I think 
saying natural gas is the single greatest threat to the ecology 
of the West really doesn't sound like the support is there 
fundamentally for natural gas. I've got concerns.
    I'd also like to read from an October 31st of this year Op 
Ed by the Washington Examiner on your nomination by Ron Arnold. 
It was entitled, ``Another Big Green Power Player moves up in 
Obama's Washington.''
    I'm sure you've seen the article. The article references 
your background being a program officer for the William and 
Flora Hewlett Foundation, you just mentioned that, your work 
with the David and Lucille Packard Foundation and your 
leadership roles of the Environmental Grant Makers Association. 
The article states that at Hewlett, Suh managed the 
multimillion dollar Western Grants portfolio doling out 
hundreds of thousands to green groups who sued the government 
to block productive ventures and usurp private property rights 
at the Federal, State and local levels from the Dakotas to 
Texas to the Pacific.
    So after years of you serving 2 big foundations and the 
Environmental Grant Makers Association you then joined the 
Interior Department. But even after you joined the Interior 
Department you stated before the Environmental Grant Makers 
25th anniversary that quote, ``I look forward to working with 
you, my colleagues.'' You're not there anymore. You're at the 
Department of Interior, but you're still saying, ``I look 
forward to working with you, my colleagues, mentors and friends 
to utilize the skills and talents of the EGA community to 
advance,'' you said, ``a more resilient world and a resilient 
movement.''
    So my question is given your lifetime of funding activist 
groups, opposing natural gas production, how can the members of 
this committee suddenly expect you to change your views if 
you're confirmed?
    Ms. Suh. Thank you again for that question.
    Perhaps I can take the opportunity to clarify my views.
    Once again, I think both as demonstrated in my personal 
experience working for this committee and a member of this 
committee as well as my experience in the Foundation world 
where I focused my grant making not on activities that were 
opposed to, again, the needs of local community and the 
participations of local communities and local stakeholders on 
conservation decisions. In fact, the vast majority of the work 
that I did both at the Hewlett Foundations and then the Packard 
Foundations were really designed about raising those voices.
    As I said in my opening statement I worked considerably on 
a suite of grant making at both institutions to enable a 
broader suite of voices to be heard in the conservation 
movement, voices of hunters and anglers, voices of communities 
of color, voices of native people. I can give you concrete 
examples throughout the West where I focused my efforts on 
ensuring that those voices of local communities were heard and 
balanced against the voices that were just coming from 
Washington, DC.
    So I believe that with each and every single grant that I 
recommended during my tenure at both the Hewlett and Packard 
Foundations, those grants were balanced in a way that, again, 
both enable the opportunity to think about conservation, think 
about the resilience, again, of our conservation opportunities 
with the needs, aspirations and desires of local communities.
    Senator Barrasso. Thank you.
    Mr. Chairman, I appreciate your patience because my time 
has expired. I would just say this is a statement given just 
less than, about a year ago, the fall of 2012. I just think 
that this is not a position to which you've been nominated, in 
my opinion, to promote any movement. So, you know, I question 
whether this is really the right position for you given your 
deeply held views.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Barrasso.
    Let me explain to our witnesses.
    I have to also be in the Finance Committee because we're 
getting ready to make some transformational changes as it 
relates to physician reimbursement and health care. I'm going 
to give each of you an additional question just to highlight an 
additional issue with each of you. We have the good fortune 
that Senator Murkowski will wrap up and that will be a big 
plus.
    I'm going to want to have in writing from you, Dr. Orr, and 
let's say a week from Friday, your views with respect to what 
to do about methane leakage. Senator Murkowski talked about, 
touched on the methane issue. But I feel very strongly that we 
ought to be pushing to get at less than 1 percent leakage from 
the well to the consumer.
    We do that, it's going to make a big difference. This is an 
opportunity for a balanced approach as it relates to natural 
gas.
    I talked about I've been a strong supporter of, you know, 
natural gas. I'd like to think I was for natural gas before it 
became cool, 50 percent cleaner than the other fossil fuels. 
We've got to get at some of these critical environmental 
issues. One of them is methane leakage.
    The Chairman. For you, Mr. Elkind, I'm particularly 
interested in your response to the question that we'll give you 
in writing about our relationship with China.
    China has become the world's largest importer of crude. 
It's a role the United States used to hold. There are a host of 
issues with respect to our relationship with China that we'll 
want your answers for.
    The Chairman. For you, Ms. Suh, what we need is what we 
talked about in the office. That is your thoughts about fresh 
ideas for funding the maintenance, you know, backlog.
    What I'll ask you in writing is particularly to give us 
your sense of some approaches that haven't been tried, you 
know, to date. Dr. Coburn has worked with Senator Murkowski and 
I. We want to make sure that we're looking at every 
opportunity, particularly to bring the private sector into the 
maintenance backlog.
    So we'll need your thoughts on that.
    The Chairman. For you, Mr. Beaudreau, as we indicated in 
the office because you're the policy management and budget 
person, what we're particularly interested in is having your 
thoughts, as Senator Murkowski, Senator Landrieu and I look to 
this whole question, you know, of revenue sharing, which is a 
jobs issue. It's an environmental issue. It's a taxpayer's, you 
know, issue.
    What I'm particularly interested in here is trying to find 
a way to make common cause between all the communities where 
there's Federal land and Federal water. The meetings in these 
communities all, pretty much, look the same. They're sensible 
people trying to figure out a way to have jobs and to protect 
our treasures.
    If we were starting over I don't think we'd come close to 
doing what we got today, this bizarre hodgepodge of different 
revenue structures and revenue sharing kinds of programs. But 
you never get to, sort of, start from scratch. So Senator 
Murkowski and Senator Landrieu, in my view, have been very 
constructive, you know, in terms of trying to think again on 
these kinds of issues. I'm committed to working with them. So 
we're going to ask you some questions about that in writing.
    The Chairman. So that's what you'll be getting. We're going 
to need it a week from Friday.
    With that, Senator Murkowski, I'm just so appreciative of 
all your help and happy to have you wrap up.
    Senator Murkowski. Thank you.
    The Chairman. Alright. Thank our nominees. I intend to 
support each of you here in the very near future when we're 
able to have a vote.
    Thank you.
    Senator Murkowski [presiding]. Thank you, Mr. Chairman. To 
our nominees again apologize for the, kind of, disruptive 
process. But it's kind of a weird week.
    Let me go to both you, Ms. Suh and Mr. Beaudreau. We're in, 
kind of an interesting situation. The hearing is a little bit 
interesting because you're basically kind of swapping places 
here, if you will.
    Mr. Beaudreau, your nomination to Assistant Secretary for 
Policy, Management and Budget where Ms. Suh has been. I don't 
think I'm making any news by saying that I have appreciated 
your leadership, Mr. Beaudreau, in so many of these issues that 
impact us, particularly up North, the leadership that you have 
clearly demonstrated on some policy issues that required, kind 
of, paving some new ground there as we look to explore and 
produce in the Arctic. The fact that you are moving to, what I 
would consider to be more of a desk job, in the sense that the 
focus in on more of the administrative and the budget end of 
it.
    I've expressed my concerns to you that I don't want this to 
be moving backward in any way. Not that I would suggest that 
focusing on the budget piece of it is not equally important. 
But I want that assurance that you still remain engaged in the 
policy level, the decisionmaking that goes on and recognizing 
that within the Department and under this new Secretary there 
are different management styles. You've indicated that you 
think that this is a more, kind of a kitchen cabinet type of an 
approach to management.
    But it is important to me to know that you will continue to 
be involved in so many of these initiatives where you have 
really led. The interagency working group on Alaska energy is a 
very specific example of that where you bring together the high 
level officials to advance energy developments, streamline the 
permitting process. You--the leadership that you've 
demonstrated as the Acting Chair, I think, has been very 
important.
    So I'd like the assurance that you will remain committed to 
not only being part of this group, but remaining the Chair of 
this group and continuing to lead on these policy initiatives 
that I think we all recognize are going to be very critical 
going forward.
    Mr. Beaudreau. Yes, thank you for that, Senator Murkowski 
and for the vote of confidence.
    As you know, and we've discussed, I'm heavily invested in 
all of these issues, resource issues, the interplay with 
resource development and responsible conservation at a 
landscape level. I believe from the Assistant Secretary of 
Policy, Management and Budget position I can actually take a 
broader perspective on all those issues and help us move 
forward and build on the gains we've made so far as both a 
naturally situated coordinating role across all the bureaus in 
the Department, but also to provide the benefit of my 
experience and my counsel to the Secretary and to the Deputy 
Secretary and the other members of the Department in their 
leadership roles.
    I wouldn't be interested in this position unless I was able 
to carry forward to all those issues. As you know, I'm pretty 
heavily invested in them, including the issues relating to 
Alaska. With respect to the interagency working group on 
permitting in Alaska, that is a tremendous innovation that 
we've made there. I actually think it has broader application 
elsewhere in the country as well, that type of approach, of 
bringing in the entire Federal family as well as other 
stakeholders, local communities, local tribes and other 
interests, bringing them to the table to try to work through 
the difficult issues that are involved in coming up with the 
right answers and right solutions on permitting major, major 
projects.
    So again, I'd bring that perspective into this role and 
I'll carry it forward. I also expect to be and to remain very 
visible, very involved on a host of issues related to Alaska 
including continuing in a leadership role with the working 
group.
    Senator Murkowski. I appreciate that. I will acknowledge 
that that does give me some comfort to know that not only your 
involvement on the Alaska oil and gas issues will be a 
prominent part of your responsibilities as Assistant Secretary 
for Policy, Management and Budget, that you'll continue with 
the working group and continue to work as these regs are 
developed for oil and gas exploration in Alaska.
    I think it's important to have your leadership there. I 
want it made very clear that I have that confidence in you. I 
think many do. I don't want us to be going backward at a time 
when we need to be making forward progress.
    Ms. Suh, when we met in my office and I appreciate the time 
that you gave me, I will admit I was a little bit surprised 
that given your tenure as Assistant Secretary for Policy, 
Management and Budget, that you were clear with me that you had 
really not been engaged in that much from a policy perspective, 
particularly as those issues related to the State of Alaska 
whether it was ANWR or more parochial things like Izembek or 
legacy wells. I was concerned after our meeting. I'll be very 
frank with you in this forum because the issues that are front 
and foremost for us as Alaskans are really key to our everyday 
opportunity to either have an economy of any sort or be able to 
access, just be able to access healthcare which is what the 
Izembek road is all about.
    So I think you've got a pretty steep learning curve here 
when it comes to those policy implications on a State like 
Alaska where the Federal landlord is so present there. So I'm 
curious to know in your current position as Policy, Management 
and Budget, how you describe the importance of what you have 
been doing verses what you will now be doing which is really 
taking over the reins of some very significant agencies whether 
it's Fish and Wildlife, whether it's BLM, whether it's Park 
Service? Moving from that more administrative focus, which is 
what I understand your focus was, to one now where it's really 
big picture policy initiatives.
    Can you give me the level of comfort that I'm seeking as 
you're presenting your credentials for this nomination?
    Ms. Suh. Ranking Member, thank you very much for that 
question and also for the opportunity to take so much time out 
of your schedule to meet with me. I found the meeting 
incredibly helpful. If I wasn't clear in articulating the role 
that I have at the Department, how it interacts with policy, 
let me take the opportunity now to talk a little bit more about 
that.
    As the Assistant Secretary for Policy, Management and 
Budget, again, you know I'm primarily responsible for budget 
formulation and execution. As you know as an appropriator often 
times the budget process is the tail that wags the dog. So I 
have been involved in every single one of the major policy 
priorities from Secretary Salazar to now Secretary Jewell. 
Ensuring, again, we have the resources and the resources are 
deployed in such a way that we can stand up those priorities, 
energy priorities, conservation priorities, youth priorities.
    So I have been engaged on policy at those levels, but I 
have certainly not played the kind of role that my colleague, 
Mr. Beaudreau, has played as kind of more the forward facing 
policy role as it relates to any of the segments of the 
Department.
    Let me also take an opportunity to talk a little bit about 
my Alaska experience. Now, again, while I've been at the 
Department it has--I have taken more of an administrative view 
of the role that I seek. But that has afforded me some 
opportunity to interact with issues related to Alaska.
    We've worked on local hire issues which I know has been a 
hugely important issue for you.
    We've also worked on trying to improve aviation 
contracting.
    So I am familiar with the kind of on the ground issues as 
they relate to, kind of, the appropriate management of our 
organizations.
    But beyond that I have had quite a bit of experience in 
working on natural resource issues, policy issues, as they 
relate to your great State of Alaska. I mean, I think I've been 
to Alaska probably a dozen times. The first time I ever salmon 
fished was out in the Togiak National Wildlife Refuge.
    Some of the grants I was referring to when I answered 
Senator Barrasso's question were grants that we made in Alaska. 
Let me point you to 2 in particular.
    We worked for 4 years, providing 4 years of support when I 
was at the Hewlett Foundation, to the Cup'ik community out in 
Chevak to actually map out their subsistence rights so they 
could work more, to improve their relationship with the Fish 
and Wildlife Service to assert their subsistence rights.
    We worked on a variety of different issues in Southeast 
Alaska as they related to the Tongass Roundtable, working with 
local timber owners as well as mayors to try to figure out a 
way to come together to preserve the opportunity of that 
industry while trying to create an opportunity for long term 
conservation.
    Those types of balanced approaches, not only I think 
represent the kind of policy vision I have for the role that I 
will take, but they also represent, I think, perhaps a little 
bit more knowledge about Alaska issues, about communities, 
about native people than I was able to convey during our 
meeting.
    You know, there's a ton of stuff to learn in Alaska. I want 
to be quite humble about the fact, I mean, it's the largest 
State in the country. As you said in your 2011 speech, you 
know, if you superimpose it on the map of the United States, it 
would span from Florida all the way to California.
    There's a ton I have left to learn about Alaska. I have 
left to learn about ANILCA and ANCSA. I'm eager to do so 
because I recognize the importance of Alaska, not only for 
Alaska, but for America.
    I am deeply interested in working with you and building a 
good relationship with your staff so that I can get up to speed 
on the issues that you care about and that I can spend more 
time on the ground in Alaska. I'm not just interested in going 
up to Alaska to take scenic view tours on bright, sunny days. 
Whenever you want me there, whether it's the spring, summer, 
fall, winter, I will be there and I very much look forward, if 
confirmed, to having a good working relationship with you and 
your staff.
    Senator Murkowski. I appreciate your willingness to 
recognize that you have some things to learn. We'd certainly 
would be working with you on that.
    What I was hoping to do with the questions of both of you, 
keep in mind we're kind of trading spaces here between the 2 of 
you. Mr. Beaudreau has assured me that even though that the 
title is Policy, Management and Budget, he's going to not only 
be focused on the budget/management part of it, but he's also 
going to have that policy role.
    Yet, Ms. Suh, you have confirmed with me that in your years 
in this position your focus has not been on that policy, but it 
has been on the budget/management side.
    I want to make sure that you, Mr. Beaudreau, are not going 
to be locked into the budget/management, as important as that 
is, I want to know that that policy piece continues. I think 
that you have the credibility and the support within the 
Administration to make sure that you do insert yourself that 
way. I just want to make it very clear, for the record, that 
that is my expectation here.
    My colleague is here from West Virginia. I will defer to 
him. I thank you.
    Senator Manchin. Thank you so much, Madame Chairman.
    To all of you, thank you for being here. I appreciate you 
all, your testimonies and your commitment to our great country.
    Dr. Orr, you do know the State I come from and we try to do 
everything. We're really, we're all in. We're doing it all.
    So, I guess my first question to you, sir, would be the EIA 
in the Department of Energy, Energy Information Agency, has 
stated the need for all of the above really. They're relying on 
coal and natural gas and so much nuclear mix and renewables 
coming on. Do you agree with their forecast in findings of how 
much and I will state coal, how much fossil will be needed for 
the next 2 to 3 decades for our energy mix?
    Mr. Orr. Senator, thanks for the question.
    I have to say I had not delved hugely, deeply into the 
process by which EIA constructs those estimates. I don't have 
reason to doubt them. But I'm not fully briefed on the details.
    But I will say that----
    Senator Manchin. I think it's 35 percent, you know, for the 
next 2, 3 decades.
    Mr. Orr. Yes, the diversified energy system is exactly what 
we do want. We need to have a variety of primary energy 
resources and a variety of ways to transform those into the 
energy services that we all use, electricity and transportation 
and all those kinds of things.
    So, I think that there's no question that there will be----
    Senator Manchin. We need all of the above. I mean----
    Mr. Orr. Yes, absolutely.
    Senator Manchin. Any reasonable person.
    But you understand we're running into some pretty strong 
headwinds as far as in the State that's produced most of the 
energy and exported a lot of energy and kept this country where 
it is today. But our people are very skeptical about having to 
work against our government rather than our government working 
for us.
    What we're saying to the Department of Energy, you all have 
been the ones recommended to the EPA what new technologies were 
feasible and doable and had come to fruition on a commercial 
scale? I think that you've recognized we have not had one 
commercial carbon capture sequestration, commercial. We've been 
able to show through demonstrations but we don't have anything 
commercial on operational for, let's say, a year.
    But yet everything we have is the new source performance 
standards, everything is moving to that direction before we can 
continue forward. The uncertainty is what I think, I'm 
concerned about, the uncertainty and the policies of the EPA. I 
don't know whether that you believe and you feel that you 
should have more oversight or more input to what direction 
they're going or tell them what's feasible.
    But I've always said if it's unattainable, it's 
unreasonable to put those benchmarks when we haven't been 
proven to meet them and don't have technology.
    I don't know what your feelings. I'm sorry, I don't mean to 
on the rest of you all, but this is so important to, I think, 
our Nation, the energy and definitely to the State of West 
Virginia.
    Mr. Orr. So, Senator, thanks.
    The role of the Department of Energy, as I understand it, 
has been to work on advanced coal technologies and clean coal 
technologies, in particular the idea of carbon capture and 
storage.
    Senator Manchin. Sure.
    Mr. Orr. Of course I'm not in office, but if confirmed, 
this is an area that of course I will have to pay a lot of 
attention to.
    I do have some experience looking back in my own career 
both with enhanced oil recovery and some with trying to 
understand the subsurface part of the carbon capture and 
sequestration.
    Senator Manchin. If I may, because I know we're going to be 
time constrained here. I want to make sure I can and I'm so 
sorry. I'm not interrupting you, sir, but I want to give you a 
little bit different perspective of this.
    The Department of Energy has had $8 billion for research 
and development. It's been laying there for since 2, 9, I 
think. I don't understand. Not one penny or one award or one 
grant has been approved for new fossil research or technology 
or anything driven toward that direction to find the new 
technologies, if you will.
    With 8 billion tons of coal being burnt in the world and 
everyone is identifying and trying to put the oneness and 
saying it's--and I'm looking at basically for answers. But if 
we burn less than one billion tons of coal and have some of the 
most reliable, affordable and dependable energy what are you 
going to do with the other 7 billion tons that's being burned 
in the world if we don't find the technology? How are you going 
to find the technology if you don't partner up with the private 
sector to spend some of that $8 billion to try to move the ball 
forward?
    Mr. Orr. Senator, that's clearly an important question. 
It's one that matters. I know only the broad outlines from the 
outside.
    But I do understand that there is work in progress to 
invest those dollars. If I'm confirmed then this will be an 
area where I'll be happy to work with you and communicate with 
you about what's going on.
    Senator Manchin. I sure look forward to that, too.
    I don't mean to skip over the 3 of you all. But as you 
can--and I've heard your testimonies and your backgrounds and 
everything seems, I believe that you're sitting there for the 
right reasons. I appreciate that.
    I think Doctor, you are too. We need help. We need help 
basically in getting it all in energy policy.
    West Virginia has been a heavy lifter for many, many years. 
We do coal. We do natural gas. We've been very blessed with all 
the resources.
    We have one of the largest wind farms east of the 
Mississippi, so we're all in. I've taken our Ranking Member 
here with me. She's seen West Virginia. We're willing to do 
everything and anything.
    But we just want people to recognize we're just trying to 
continue to provide the energy this country needs. We're 
getting the living crap beat out of us by our own government. 
That doesn't seem to look at what's feasible.
    When your EIA is saying you're going to be needing this 
resource and then I talk to all the utilities they're saying 
because of the EPA they're making us make decisions that's not 
good for our portfolio. It's definitely not good for the 
American public for us to get so lopsided in our portfolio that 
we can't get dependable, reliable and affordable energy. Coal 
is such a major mix of that.
    That's all I'm asking for is a realistic, sympathetic look 
to what we can do and what we need to do for our country. So I 
do look forward to working with you, sir. I would hope that you 
would be very accessible for that.
    Mr. Orr. I will look forward to it.
    Senator Manchin. Thank you, sir.
    Senator Murkowski. Senator Flake.
    Senator Flake. Thank you.
    Ms. Suh, during the recent government shut down the State 
of Arizona provided about $465 thousand to temporarily open the 
Grand Canyon, the National Park. Likewise, in 1995, the State 
of Arizona provided $370 thousand to temporarily reopen the 
park during the shutdown that occurred that year. In both 
instances Congress retroactively appropriated funding for the 
Park Service that covered the shutdown period. In 1995 the Park 
Service subsequently refunded the amount that was spent by the 
State of Arizona.
    This year the Park Service has retained this funding 
creating, kind of a shutdown windfall for the Department, if 
you will. Can you explain why? Why the Department has chosen to 
act differently this time?
    Ms. Suh. Senator, thank you for that question.
    It is my understanding that we require Congressional 
authorization in order to repay the States. If Congress so 
chooses to provide us that authorization, we would be happy to 
pay the States back.
    Senator Flake. Was that authorization received in 1995?
    Ms. Suh. I'm not aware of the specifics of the legislation 
that was passed when it reopened the government. But, yes, I 
believe we had the authority with that appropriations or with 
that continuing resolution to do so.
    Senator Flake. My understanding was that Congressional 
reauthorization or the kind of legislation you're seeking was 
not provided in 1995. So if additional legislation or 
authorization was not provided in 1995 and the Department or 
the Park Service refunded the State, will you do the same this 
time?
    Ms. Suh. I assure you it is not by a simple matter of 
choice that we are not refunding the funding that we received 
from the States during that period of time. We believe that we 
lack the authorization to actually transfer that money back to 
the States.
    I'm happy to work with you and your staff to, as well as 
with our Solicitor's office to look into that matter in more 
detail to try to come to some clarity about the way we can 
resolve this.
    Senator Flake. That--can you just assure me that you won't 
require anything this time that you didn't acquire last time?
    Ms. Suh. Again, not having been here in 1995 and not being 
familiar with what was actually required at that time, I can 
only speak for what I believe is required now. I understand 
that we need Congressional authorization in order to pay the 
States back. If we receive that from Congress, we would be 
happy to pay them back.
    Senator Flake. You mentioned that you're happy to work with 
us in that regard. We sent a letter or the Arizona delegation, 
all of us, Republicans and Democrats, to the Department on 
November 13th. We've not heard anything back.
    What are we to believe if you say you want to work with us, 
but we wrote more than a month ago and haven't heard anything 
back?
    Ms. Suh. I apologize for the tardiness of that reply. 
Again, I'm happy to immediately go back and try to get 
clarification from the folks within Interior and reach out to 
your office and have a conversation about it.
    Senator Flake. I would appreciate that certainly. When you 
do, please, if there is any justification for providing the 
funding in 1995 and not providing the funding now, we'd like to 
know what that is. Why you feel it's appropriate to keep the 
windfall this time, shutdown windfall, and not last time.
    That's what we're concerned about.
    So, anyway, look forward to hearing from you on that. Just 
want to say that, yeah, it's been over a month and we've not 
heard a thing back.
    Ms. Suh. Yes, sir.
    Senator Flake. So we do need to consult on this or if we 
need to find out what action has been taken.
    Ms. Suh. Yes, sir. Thank you.
    Senator Flake. Thank you. Appreciate it.
    Senator Murkowski. Thank you, Senator Flake.
    Ms. Suh, I have just probably a couple more quick questions 
for you and then I believe we've got yet another vote coming up 
at 11. This relates to a policy issue that for us in Alaska is 
pretty important, some would say all consuming and that's the 
issue of ANWR.
    The Fish and Wildlife Service's draft conservation plan and 
EIS for ANWR did not include a development alternative for oil 
and gas in the coastal plain. The Department stated in 
testimony previously that the reason they did this was because 
that development requires an act of Congress. But the draft 
plan included alternatives for additional wilderness and wild 
and scenic rivers. Those require an act of Congress.
    So on the one hand they're saying well, we can't do an 
alternate plan for development because that would require an 
act of Congress.
    Yet they also turn around and say, well, wilderness, scenic 
rivers, which requires an act of Congress is OK. We're going to 
put this in the plan.
    I think it's very inconsistent, highly inconsistent.
    So the general, broader question to you is whether or not 
you believe the 1002 area of the coastal plain which was set 
aside for oil and gas development in ANWR, as part of this 
compromise reaching under ANILCA, whether or not you believe 
that it should be developed?
    Ms. Suh. Senator Murkowski, the President has made it clear 
that he does not believe that development in the Arctic 
National Wildlife Refuge is warranted at this time. The 
Secretary of Interior, Sally Jewell, agrees with the President. 
I agree with both the Secretary and the President.
    That is not to say that the balance of energy needs and the 
energy opportunities in the North Slope of Alaska are 
unimportant to this Administration or to the Department of 
Interior. Again, in the all of the above energy strategy, I 
think we are working very concertedly and I know that you've 
been working very closely with my colleague, Mr. Beaudreau, on 
opportunities to expand the opportunity for responsible energy 
development in both onshore and offshore in Alaska.
    Senator Murkowski. I didn't really anticipate that you were 
going to tell me that you supported development in ANWR. It 
would have been a great surprise this morning. But that was not 
what I expected.
    But you have mentioned in your response to me previously 
that you look forward to understanding and learning more about 
the Federal laws that have such impact on us in Alaska, ANCSA 
and ANILCA.
    ANILCA specifically, specifically, provides that there will 
be no more wilderness designations within the State of Alaska. 
How do you reconcile this proposal then coming out of Fish and 
Wildlife for additional wilderness and wild and scenic rivers 
when ANILCA has specifically stated no more?
    When those designations were made several decades ago it 
was recognized that the amount of wilderness that we have in 
Alaska, which is more than the entire wilderness in the rest of 
the country, that basically Alaska had contributed. Yet, this 
Administration is continuing to push on this in direct 
violation and contradiction to what ANILCA spells out.
    How do you reconcile the terms of ANILCA with this latest 
effort coming out of Fish and Wildlife?
    Ms. Suh. Thank you, Senator.
    First, again thank you for forwarding this speech that you 
gave on Alaska Day in 2011 and the background that that 
provided of the kind of origins of intents of primarily ANILCA 
were quite helpful to me.
    My understanding is that the Fish and Wildlife Service has 
a variety of different alternatives. There is not a preferred 
alternative. I recognize your concern associated with 
wilderness, but I also recognize that wilderness, wherever it's 
designated is an act of Congress and will require an act of 
Congress. To that we are ultimately and always deferential to 
this body.
    Senator Murkowski. Do you expect or do you know when the 
final plan is expected to be released?
    Ms. Suh. I am not aware of the timeframe.
    Senator Murkowski. One of the real concerns from folks back 
home is that despite the statements coming from the 
Administration that local residents should be involved in the 
land management decisions. Secretary Jewell has articulated 
this as well. But it seems that that only happens to favor 
conservation, unfortunately, not production.
    In Alaska there's a clear, clear majority of folks 
including every State wide elected official, both Republican 
and Democrat, that strongly support responsible oil and gas 
administration. The concern back home is that the 
Administration is going to unilaterally act on ANWR.
    Would you support such unilateral action without, again, 
the involvement of the people that live and work and raise 
their families there?
    Ms. Suh. Again, I believe every public process that we have 
around important policy decisions requires and demands the need 
for strong public engagement, particularly for engagement of 
the local communities and local stakeholders.
    As I stated earlier I don't believe the Department has the 
authority to unilaterally decide anything on wilderness. That 
is an authority that, again, rests within this body that we 
will ultimately and always be deferential to.
    Senator Murkowski. Thank you.
    Let me ask one last question and then I'll let you all go. 
You've been very patient this morning.
    I raised this briefly, but this, again, is an important 
issue in the State of Alaska. Some might say it is so 
extraordinarily parochial we can't believe we spend so much 
time talking about the Izembek road, a ten mile, one lane, 
gravel road that would be used for non-commercial purposes to 
connect the small community of King Cove with the State's 
second longest runway there at Cold Bay.
    I have taken the position that as significant as that 
refuge area is and I appreciate the bird populations that move 
through, but that we should be working every day to give equal 
protection to the residents, who live in this small, Alaska, 
Aleut village provide them access to life saving healthcare 
which is only available if you can get out of the village to an 
airport that can take you to Anchorage or to other medical 
facilities.
    So I have been trying to work this initiative. Secretary 
Jewell has been out to King Cove. The Assistant Secretary for 
Indian Affairs, Mr. Washburn, has been out.
    What I would ask from you is that if you are confirmed, 
your commitment to work for a suitable solution that will 
ensure the protection of the residents of King Cove that, as 
important as wildlife is, that we not ignore the health and 
safety needs of the local residents who are out there.
    Ms. Suh. Senator, as you know, Secretary Jewell had an 
opportunity to visit the community. Secretary Washburn is 
completing or has recently completed his report to her on the 
situation.
    I recognize that this is Secretary Jewell's ultimate 
decision, but I absolutely commit to you that I will be looking 
at the critical issues, the issues of safety, health associated 
with whatever decisions we might make in the future, but 
certainly with the decision that the Secretary is going to be 
making associated with Izembek. So you do have my commitment. I 
am very interested in engaging with you further on this issue.
    Senator Murkowski.I appreciate that.
    I think it should be noted that certainly within Alaska and 
many who are looking at this issue back here, there appears to 
be, again, an inconsistency with the position that the Fish and 
Wildlife Service has taken with regards to its ongoing 
opposition to the King Cove road.
    Yet, just the recent decision to grant permits to that will 
allow for the taking of eagles at wind farms around the 
country. People are looking at that and saying well, wait a 
minute. It's going to be OK given that permits can be issued, 
that our national bird would be killed and yet, we've got a 
situation where human lives are at risk and we're saying we 
cannot provide for a road because we need to protect the 
migratory water fowl.
    It seems to me you're talking about balance. I think we 
need to work to try to find that balance here. Your assistance 
in that would be appreciated.
    I have many questions for the record that I will submit to 
all of you.
    Senator Murkowski. I know that I can speak, probably speak, 
hopefully speak for the chairman on this, that others on the 
committee will as well given that most were not able to attend 
and based on the conversations I've had with others. I know 
that they were all very interested in your nominations and the 
perspectives that you hold. So I think you can expect 
additional questions.
    Senator Murkowski. But I appreciate the time that you have 
given us and again, your willingness to serve.
    With that we'll stand adjourned.
    [Whereupon, at 11:09 a.m., the hearing was adjourned.]


                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

      Responses of Jonathan Elkind to Questions From Senator Wyden

    Question 1a. China.--As many predicted, China has become the 
world's largest importer of crude, a role the U.S. used to hold. The 
U.S. has a long history of working with our partners internationally in 
times of crisis to ensure an adequate supply of energy for our allies.
    I know China also maintains strategic petroleum reserves, but are 
we considering discussions or entering into cooperative efforts with 
them to ensure a stable energy market in the future?
    Answer. Over the last few years, DOE has actively engaged the 
Chinese National Energy Administration, both bilaterally and 
multilaterally, on issues related to reserves. DOE is currently 
negotiating a cooperative agreement with China on issues related to the 
Chinese Strategic Petroleum Reserve in order to allow us to better 
understand the country's planning and policies related to reserve 
management. If confirmed, I will work to conclude these negotiations 
expeditiously, the outcome of which will support U.S. energy security 
goals through sharing best practices and encouraging China to increase 
transparency and improve the quality of its oil data.
    Question 1b. Keeping this in mind, can you elaborate further on 
what efforts if any the Administration is pursing in terms of 
addressing possible future international supply shortages?
    Answer. DOE is engaged with a wide range of producer and consumer 
countries on planning and policies for supply disruption and shortages. 
Promoting international cooperation on data transparency, policy reform 
and technology innovation with countries such as China is critical to 
addressing potential future energy shortages. Better understanding 
supplies and reserves, and how they are managed allows for early 
warning of potential problems, better informed policies and more 
effective coordination to address disruptions and shortages as they 
arise.
    Question 2. Strategic influence.--Domestic consumption is dropping 
and production is increasing. While this is a positive development-
specifically the U.S. being less reliant on politically tumultuous 
states for energy-it could also result in a shift of the U.S.' 
strategic influence overseas. I believe the U.S. needs to begin 
contemplating what comes after energy independence, and how we can 
change roles internationally but maintain our influence abroad.
    In your opinion how should U.S. energy policy evolve with the U.S. 
transition from highly dependent on imported oil to becoming a global 
energy player?
    Answer. Even as U.S. energy imports decline, the U.S. market will 
remain integrated with international energy markets. I believe our 
energy policies should be designed to enhance U.S. energy security by 
advocating for transparent international energy markets and being 
prepared to respond to domestic and international energy supply 
disruptions with actions that mitigate the adverse affects of those 
disruptions on U.S. consumers. Our policies should also focus on 
maintaining U.S. technological leadership in energy, both domestically 
and internationally, and reducing global emissions of greenhouse gases.

    Responses of Jonathan Elkind to Questions From Senator Murkowski

    Question 1. As part of your Opportunity08 project for the Brookings 
Institution, you wrote that, ``Without doubt, the United States needs 
higher energy prices.''

    a. Do you continue to hold that view?
    b. In your opinion, how high should energy prices be? What should 
be the average national price for electricity and gasoline, as compared 
to where we are today?

    Answer. The mission of the Department of Energy is to drive down 
the costs of energy technologies and to facilitate the smooth 
functioning of energy markets through effective policy. This has been 
my focus through my tenure at DOE, and it would continue to be my focus 
if I am confirmed as Assistant Secretary for International Affairs. We 
need to keep prices for energy services as low as possible while still 
maintaining a reliable, robust and clean energy system; to do otherwise 
would inflict serious impacts on families.
    Question 2. As part of your Opportunity08 project for the Brookings 
Institution, you noted that ``worldwide, 1.6 billion people still lack 
energy services in their homes.'' That's an astounding number and a 
reminder not only that energy is fundamentally good, but also that we 
are blessed to have it in relative abundance.

    a. If you are confirmed as Assistant Secretary for International 
Affairs, how would you advise Secretary Moniz to seek to increase 
energy access around the world?
    b. Would you advise the Secretary to seek to deny those living in 
energy poverty access to fossil fuels, whether through international 
financial institutions or greater energy exports from the U.S.?
    c. Will you work with this Committee to identify sensible policies, 
such as greater energy exports, that would help improve energy access 
throughout the world?

    Answer. If I am confirmed as Assistant Secretary for International 
Affairs, I will advise Secretary Moniz to work on energy access issues 
by seeking to work with key international partners on the policies, 
technologies, and business models that can help to alleviate this 
important challenge. If I am confirmed, I would certainly be prepared 
to work with the Committee to identify policies that improve energy 
access throughout the world.
    We know that people will use whatever fuels and whatever 
technologies they feel to be most advantageous, and that those energy 
resources will be largely made up of what is geographically available. 
If I am confirmed, I will advise Secretary Moniz to work with our 
international partners to increase knowledge and encourage host 
countries to create the right policy environments, to focus on 
renewables-based systems, efficient fossil-fuel-based systems, fossil-
renewables hybrid systems, or others.
    The Administration does not support denying energy access to 
anyone--least of all the poor. Recognizing the very real and increasing 
threat of climate change, the Administration does not intend to use 
taxpayer funds to finance conventional coal plants that lack carbon 
capture, although exceptions may be made in some cases for the poorest 
countries. As an alternative, and in order to promote global access to 
energy services, we are supporting programs and projects using a 
variety of clean energy options.
    Question 3. How do you believe the United States can better engage 
on energy policy with the rest of the world? What does that mean to 
you, with regard to specific policies that should be pursued? What 
would be your top priorities if you are confirmed to this position?
    Answer. If confirmed as Assistant Secretary for International 
Affairs, I will focus efforts on several Secretarial and Administration 
priorities, such as multilateral forums like the Africa Energy 
Ministerial and the Clean Energy Ministerial, as well as critical 
bilateral efforts like those with China, which would include oil market 
transparency, promote jobs in the export of technologies and energy, 
dialogue on oil market disruptions, buildings efficiency, and clean 
coal to name a few areas.
    Question 4. Please describe how you view the relationship between 
the Department of Energy, the Department of the Interior, and the 
Department of State, in terms of international activities related to 
energy development. Do any official documents, such as memoranda of 
understanding, govern this relationship?
    Answer. The Departments of Energy, Interior, and State all bring 
different capabilities to the table in connection with international 
energy issues. The Department's obligation is to identify the most 
effective ways to collaborate, under the coordination of the National 
Security Council structure, in order to secure maximum benefit for the 
American taxpayer from our varied institutional strengths. DOE's 
strengths lie in the areas of energy policies, energy technologies, and 
energy markets. DOI plays distinct, vital roles in connection with 
energy regulation, offshore development, and related issues. The State 
Department is, of course, the political representative of the U.S. 
Government, and it has permanent presence through its diplomatic 
missions all around the world. At present, there are no formal, 
overarching agreements that govern these relationships as far as I am 
aware. Instead, interagency coordination is managed through the 
National Security Council process.
    Question 5. Can you commit to working with me and this Committee to 
improve interagency coordination between DOE, State, Commerce, and 
other relevant federal entities on the overseas energy-related work 
that American taxpayers support?
    Answer. If I am confirmed, I would be happy to work closely with 
you and other members of the Committee to help ensure good interagency 
coordination.
    Question 6. Other DOE programs outside the Office of International 
Affairs have internal sections, offices, or task forces that deal with 
international implications specific to their work and missions. Do you 
think there is some duplication of activities across the Department 
that needs to be addresses and better managed?
    Answer. Certain DOE program elements do focus on international 
aspects of their work. This enables the Department to tailor its 
engagement with foreign partners by ensuring a high degree of knowledge 
about individual technology groups. Through internal coordination 
mechanisms, we work to ensure that this does not result in duplication.
    Question 7. As part of your Opportunity08 project for the Brookings 
Institution, you advocated for the next President to set a ``goal of an 
annual increase of 2.5 percent in energy efficiency.''
    a. How does this compare to efficiency gains made in the years 
since 2008?
    Answer. The Energy Information Administration's Annual Energy 
Outlook 2014 (Early Release) shows that the energy intensity of the 
U.S. economy (energy use per dollar of GDP) has decreased by 1.5 
percent per year between 2008 and 2013. The rate of decrease goes up to 
around 2 percent per year in projections for subsequent years as a 
result of new appliance and CAFE standards: ``U.S. energy use per 
capita was fairly constant from 1990 to 2007 but began to fall after 
2007. In the AEO2014 Reference case, energy use per capita continues to 
decline as a result of improvements in energy efficiency (e.g., new 
appliance and CAFE standards) and changes in the ways energy is used in 
the U.S. economy.'' (http://www.eia.gov/forecasts/aeo/er/
early_intensity.cfm)
    b. How do you believe our current federal energy efficiency 
policies could be improved?
    Answer. The President has outlined his strategy for improving 
energy efficiency policies in the Climate Action Plan, with the goal of 
doubling energy productivity by 2030 relative to 2010 levels. In 
particular, the Department of Energy is focused on moving more quickly 
on appliance standards, as well as expanding our efforts on the Better 
Buildings Challenge, with the goal of helping residential and 
commercial buildings be 20 percent more efficient by 2020. These 
actions, coupled with the historic increase of fuel economy standards 
for light-duty vehicles, represent a dramatic improvement in Federal 
efficiency policies.
    Question 8. To what extent, if any, has the Department of Energy's 
International Affairs office been involved in the formulation of the 
President's forthcoming National Security Strategy?
    Answer. The Department of Energy's Office of International Affairs 
has supported the participation of senior DOE leadership in the 
formulation of the forthcoming National Security Strategy.

    Responses of Jonathan Elkind to Questions From Senator Barrasso

    Question 1. In Opportunity 08, you wrote that: ``Without doubt, the 
United States needs higher energy prices'' (emphasis in the original). 
Please explain why those of us who support lower energy prices should 
vote in favor of your nomination.
    Answer. The mission of the Department of Energy is to drive down 
the costs of energy technologies and to facilitate the smooth 
functioning of energy markets through effective policy. This has been 
my focus through my tenure since 2009 at DOE, and it would continue to 
be my focus if I am confirmed as Assistant Secretary for International 
Affairs. It is clear that higher energy prices inflict serious impacts 
on families.
    Question 2. In Opportunity 08, you listed a number of ``[p]otential 
[t]hreats'' to our nation's energy security. Among these threats, you 
included ``support for increased use of coal before carbon capture and 
storage are commercialized.''
    A. Has carbon capture and storage been commercialized?
    Answer. Carbon capture and storage (CCS) technology has been and 
continues to be deployed on a range of projects, and have demonstrated 
the viability of CCS technology. World-wide, twelve large-scale CCS 
projects are operating. In the US, one large-scale project is operating 
and seven more are on track to enter commercial operation by 2018. 
These include a mix of projects, including fully integrated power and 
industrial applications; pre, post, and oxy-combustion efforts, and 
both enhanced oil recovery (EOR) and deep saline formation storage. 
Some projects that use available carbon capture technology have been 
operational for years, and these have direct applicability to the power 
sector. If confirmed, I plan to be involved in DOE's continuous work to 
advance CCS and other important technologies in this area.
    Question 2B. If so, do you support the increased use of coal, 
including but not limited to coal-to-liquids technology?
    Answer. Coal is a part of the President's domestic ``All of the 
Above'' strategy, and can be part of a future where its effects on the 
environment are minimal. For coal, CCS is a critical part of the 
achieving those environmental benefits in any application, in the U.S. 
or abroad. DOE's goal is to continue to enhance the technology so that 
coal continues to have a competitive role in a future domestic energy 
mix.
    Question 3. In Opportunity 08, you listed coal-to-liquids 
technology with carbon capture as an energy option with ``[n]egative 
climate characteristics.'' Please explain why you believe this to be 
the case.
    Answer. I appreciate the opportunity to clarify my Opportunity 08 
essay. I do believe that coal-to-liquids technologies with CCS can 
result in lower greenhouse gas emissions. According to life-cycle 
analyses and commercial operations conducted to date, coal-to-liquids 
with CCS can have positive climate characteristics if a zero-emission 
energy source powers the plant's entire operation. Under such 
circumstances, coal-to-liquids fuels could contribute to greenhouse gas 
emission reduction over gasoline or diesel in the transportation 
sector.
    Question 4. You have written extensively on the dependency that 
eastern European countries, such as Ukraine, have on natural gas from 
Russia.
    A. Do you believe exports of liquefied natural gas (LNG) from the 
United States would help eastern European countries reduce their 
dependency on natural gas from Russia? If so, how?
    Answer. Eastern European countries can reduce their energy 
dependency through strategies that focus on both the diversification of 
energy supply as well as the reduction of energy demand. These 
countries can diversify supply by exploring domestic resources, 
renewable energy potential, and new import opportunities including 
liquefied natural gas (LNG). Infrastructure interconnections can also 
help them to manage crises and have diversification options. These 
countries can reduce energy demand by pursuing significant energy 
efficiency opportunities in buildings, the industrial sector, and the 
public sector.
    Question 4B. If confirmed, what steps, if any, would you take to 
convey the importance of U.S. LNG exports to the energy security of our 
allies and our own national interests to Secretary Moniz, the Assistant 
Secretary of Energy for Fossil Energy, and other relevant policy makers 
within the Department of Energy and the Administration?
    Answer. If confirmed, I will work with the Secretary, the Office of 
Fossil Energy, and all other relevant decision makers in Department and 
elsewhere across the Administration to stress the importance of global 
energy security and our own national interests. The Department can work 
with our allies to develop strategies to diversify energy supply by 
exploring their domestic resources, renewable energy potential, and new 
import opportunities including liquefied natural gas (LNG). At the same 
time, the Department can work with these countries on strategies to 
reduce energy demand through increased energy efficiency.
    Question 5. Do you support exporting coal from the United States?
    Answer. For the past ten years, the United States has exported 
between 5 percent and 10 percent of its coal production; our 2013 
levels are at their highest share since the mid-1990s. While we must be 
cognizant of the implications of substantial increases in our coal 
exports, in terms of global environmental consequences to climate 
change as well as to domestic coal prices and local environmental 
concerns, any changes would need to be taken as a result of careful 
consideration of all the costs and benefits, including to jobs, 
economic welfare, energy security and the environment.
    Question 6. Do you support the Department of Treasury's Guidance 
for U.S. Positions on [Multilateral Development Banks] Engaging with 
Developing Countries on Coal-Fired Power Generation issued on October 
29, 2013?
    Answer. Yes. This guidance was developed in an interagency process 
and has concurrence throughout the Administration.
    Question 7. Do you agree with the Export-Import Bank's new policy 
to significantly limit financing for coal-fired power plants?
    Answer. Yes. While there are some exceptions (in particular for the 
least-developed countries with no other options), the Administration 
has taken a position that it does not make sense to provide financial 
support to build coal-fired power plants without carbon capture and 
storage given their impact on the global climate--and hence their 
impact in the U.S.
    Question 8. Do you believe coal provides a low-cost and reliable 
energy source to countries looking for assistance in poverty 
alleviation and economic development?
    Answer. The federal government is committed to working with the 
poorest countries to build a sustainable, robust and accessible energy 
system in support of economic growth and poverty alleviation. We do 
not, as a rule, believe that coal will necessarily provide that service 
at least cost--particularly when taking into account the climate 
damages that accrue from coal use without carbon capture and storage. 
We believe that in most cases, alternatives exist that can meet the 
same needs. However, the Administration has made an exception to its 
policy so that in cases of certain least-developed countries, we can 
deploy coal, and in these cases we propose to consider the most 
efficient technology available in coal fired power plants.
    Question 9. How much funding did the Office of Policy and 
International Affairs receive in fiscal year 2013?
    Answer. The Office of Policy & International Affairs received 
$25,991,000 in funding for fiscal year 2013.
    Question 10. What is the number of staff positions at the Office of 
Policy and International Affairs? Did the number of staff positions 
increase from fiscal year 2012 and 2013?
    Answer. The number of staff positions from FY12 to FY13 decreased. 
In FY15, as a result of reorganization, the Office of Policy & 
International will be split into two entities: the Office of 
International Affairs and the Energy Policy & Systems Analysis Office. 
If confirmed, I will head the former with a current number of 74 staff 
positions.
    Question 11. Are you committed to ending duplication and to 
preventing redundancies in the U.S. government?
    Answer. Yes.
    Question 12. What measures and practices are in place at the Office 
of Policy and International Affairs to avoid duplicating efforts of 
other parts of the government?
    Answer. The Office of International Affairs coordinates with 
interagency partners through the National Security Council's policy 
process and directly with the State Department and other U.S. 
Government stakeholders on relevant issues and initiatives to avoid 
duplicating efforts.
    Question 13. How is the Department of State's Bureau of Energy 
Resources different from the Department of Energy's Office of Policy 
and International Affairs? Please outline the different roles and lines 
of authority between the U.S. Department of Energy's Office of Policy 
and International Affairs and the new Bureau of Energy Resources at the 
U.S. Department of State.
    Answer. The Department of Energy's Assistant Secretary for 
International Affairs (IA) is the primary policy advisor to the 
Secretary of Energy on international policy analysis, development, 
evaluation, and implementation. IA represents the Department and the 
U.S. Government in interagency processes, intergovernmental forums, and 
bilateral and multilateral proceedings that address matters relating to 
the development and implementation of international energy policies, 
strategies and objectives.
    IA has primary responsibility for coordinating the efforts of 
diverse elements in the Department to ensure a unified voice in DOE's 
international affairs. IA's chief strengths lie in the areas of energy 
policies, energy technologies, and energy markets. IA represents the 
Department and the Secretary in all international engagements. The 
State Department is the political representative of the U.S. Government 
overseas and it has a permanent presence through its diplomatic 
missions all around the world; the Bureau of Energy Resources is the 
State Department's main energy unit and consolidated any of the energy 
capabilities that long existed in different parts of that department 
before the Bureau's formation.
    Question 14. As Assistant Secretary, what major international 
energy projects would be your primary focus?
    Answer. If confirmed as Assistant Secretary for International 
Affairs, I will focus efforts on several Secretarial and Administration 
priorities, such as multilateral forums like the Africa Energy 
Ministerial and the Clean Energy Ministerial, as well as critical 
bilateral efforts like those with China, which would include oil market 
transparency, promote jobs in the export of technologies and energy, 
dialogue on oil market disruptions, buildings efficiency, and clean 
coal to name a few areas.
    Question 15. What work is being done by the Office of Policy and 
International Affairs on Iran's energy sector and the implementation of 
sanctions on Iran?
    Answer. The Office of International Affairs plays a key role in the 
Administration's interagency efforts to pursue a dual track policy with 
Iran to persuade the government of Iran to abide by its international 
obligations with respect to its nuclear program. The Office of 
International Affairs monitors and analyzes the effects of economic 
sanctions on Iran's energy sector, in particular, and international 
energy markets, in general.
                                 ______
                                 
       Response of Franklin M. Orr to Question From Senator Wyden

    Question 1. Methane leakage. One of the key aspects of making sure 
natural gas development is a climate benefit is that there aren't 
methane leaks throughout the production, gathering, transport, and 
delivery of natural gas to consumers. The goal that I've been saying we 
should be pushing for is less than 1 percent leakage from the well to 
the consumer. The President mentioned methane leakage as an important 
concern when he announced his climate action plan, but I've seen no 
real activity out of the Administration on it since. What is your level 
of concern over methane leakage, and what do you view the role of DOE 
to be with regards to addressing methane leakage?
    Answer. I agree that methane leakage is an important issue, one in 
which I am personally interested based on work done in my own research 
and that of colleagues at Stanford and elsewhere. While I am not 
intimately familiar with what the Department is doing in this area, I 
am aware that the Department is engaged in an interagency effort to 
comprehensively look at the research on hydraulic fracturing and I have 
been told DOE is working with other agencies to reduce methane leakage. 
If confirmed I will review DOE activities in this area, and I will work 
to support those efforts, including involving methane leakage.

    Responses of Franklin M. Orr to Questions From Senator Murkowski

    At least two recent reports have called for the reform of the 
Department of Energy, or parts of it. One report was by the Clean Air 
Task Force, and the other is an effort from the Heritage Foundation, 
ITIF, and the Center for American Progress.
    Question 1a. Do you believe any of the recommendations within those 
reports have merit?
    Answer. I am aware of these reports. I understand that Secretary 
Moniz is committed to improving performance and management at the 
Department, and I know he is very supportive of the national 
laboratories. I share that support, and I believe the national 
laboratories are truly a national treasure.
    I understand that the Department is in the process of constituting 
the National Laboratory Operations Board and the National Laboratory 
Policy Council to look at lab issues, including those raised in various 
reports. If confirmed, I plan to work with the Secretary and my 
counterparts across the Department on these important issues. I look 
forward to working with you and your fellow Committee Members, on this 
and other issues regarding the Department and our national labs.
    Question 1b. Do you believe that the Department of Energy--and 
particularly its research functions--are in need of structural reform?
    Answer. As a professor and a scientist, I believe it is important 
that we continue to look at new ways to innovate as well as continue 
with basic and applied programs. It is important to review ongoing 
programs, and it is also important to evaluate new efforts. And I know 
from my university experience that there are many benefits to linking 
research across disciplines in a way that produces creative solutions 
to challenging problems. Toward that end it is my understanding that 
Secretary Moniz recently charged his federal advisory committee, the 
Secretary of Energy Advisory Board, to study multiple new approaches to 
R&D that the Department has undertaken over the past several years. 
Secretary Moniz has created the National Laboratory Operations Board 
and the National Laboratory Policy Council to provide additional 
scrutiny on an ongoing basis.
    Question 2. What have you learned at Stanford that you believe the 
federal government could or should do better to help spur innovation?
    Answer. The most important elements of Stanford's success in 
innovation are hiring first-rate researchers, encouraging them to 
pursue a creative path that they determine, expecting them to compete 
successfully for funding based on their creativity, and rewarding them 
(with recognition, promotion, tenure, and a share of patent income, for 
example) when they are successful. One important element of promotion 
and tenure deliberations is whether a faculty member's research changes 
the way the world thinks about a certain problem. Creating innovations 
that make their way into the marketplace is one way to demonstrate 
that.
    Stanford has an effective Office of Technology Licensing that 
handles the process for faculty to pursue patents and for entities 
outside Stanford to license Stanford patents. If a patent produces 
income it is shared among the university, the faculty member, and the 
department of the faculty member. Stanford has surely benefited from 
the Silicon Valley culture of investing in new ideas, so there is an 
audience for innovation that occurs on campus. Stanford is also 
experimenting now with a modest program of support to bridge at least 
part of the gap between demonstrating a technology in the lab and 
passing it to a commercial entity to develop and market the technology.
    If confirmed, I will look for opportunities to take what I have 
learned during my tenure at Stanford to determine what may fit within 
the Federal government framework. This will require careful analysis of 
incentives and barriers that exist now to develop pathways to encourage 
innovation going forward. If confirmed I look forward to exploring this 
area further.
    Question 3. Some of the new responsibilities of the Undersecretary 
for Science now include oversight over all of the Department's energy 
offices, such as the Office of Energy Efficiency and Renewable Energy, 
the Office of Fossil Energy, and the Office of Nuclear Energy. a. If 
confirmed, you would also be overseeing 13 of DOE's national labs now 
that energy is part of the Undersecretary for Science's portfolio. Many 
have recently been calling for reforming and revitalizing our national 
labs to better align with the needs of the DOE and our nation. Given 
this expanded portfolio of the Undersecretary's office, how would you 
view the future of the national labs and their work in supporting DOE's 
basic and applied research missions?
    Answer. I strongly support our national labs and believe that the 
underlying structure is a great benefit to our nation. The national 
labs are critical to the basic and applied work of the Department, but 
also to newer efforts such as innovation hubs and other targeted 
research efforts. If confirmed, I look forward to working with the 
National Laboratory Policy Council, the National Laboratory Operations 
Board, the National Lab Directors Council and my counterparts across 
the Department to engage on how the national labs and DOE can continue 
to improve outcomes that better our country.
    Question 3b. Would you say that there are existing duplicative 
research and development efforts across the DOE science and energy 
offices? If so, what do you think needs to be done to minimize these?
    Answer. I appreciate your comments on making sure we are spending 
our taxpayer dollars wisely, particularly in this era of fiscal 
constraint. It is my understanding that programs throughout the 
Department address the multiple stages of research, development and 
deployment across integrated topics. If confirmed, I will work to 
ensure that those efforts are coordinated.
    Question 4. Do you believe that nuclear power should and could have 
a prominent role as baseload power generation that also supports future 
drastic reduction in Green House Gas emissions and overall clean energy 
production?
    Answer. Yes, I believe in an all-of-the-above approach to energy, 
which includes nuclear power generation. Baseload power generation with 
low greenhouse gas emissions is an essential element of a diversified 
portfolio of energy supply to the nation.
    Question 5. How do you view the role of government in the support 
of design, licensing and potential deployment (for domestic and 
international) of small modular nuclear reactors, and what future 
market opportunities do you see for this type of power plants?
    Answer. I'm familiar with the SMR concept and understand that the 
Department has already awarded two grants under its SMR program. I 
agree with Secretary Moniz that this is a promising direction that we 
need to pursue, and if confirmed I look forward to learning more about 
this important program.
    Question 6. In your opinion, is carbon capture and storage (CCS) 
currently commercially available for power plant applications? Please 
explain.
    Answer. CCS technology has been and continues to be deployed on a 
range of projects. A number of full-scale, conventional coal-fired 
projects that will use CCS are moving forward today. IGCC projects 
using CCS are also moving forward, and projects that use available 
carbon capture technology have been operational for years, and these 
projects have direct applicability to the power sector. In my own 
research career over the last thirty-eight years, my students and I 
have developed a detailed understanding of how carbon dioxide flows in 
geologic settings associated with large-scale enhanced oil recovery 
projects. And there is considerable experience in the processes for 
separating carbon dioxide from other gases in refining, gas processing, 
and fertilizer manufacturing. If confirmed, I plan to be involved in 
DOE's continuing work to advance CCS and other important technologies 
in this area.
    Question 7. At one of our recent nominations hearings, the 
President's nominee to head the Office of Fossil Energy, Mr. Chris 
Smith, noted that ``there are 12 large-scale CCS projects in operation 
worldwide today.'' For each of the 12 projects, please identify the 
project location, project type/purpose (e.g., power plant or 
industrial), the project's initial operation date, and its estimated 
costs.
    Answer. There are currently 12 large scale CCS projects in 
operation world-wide today, 7 of them are in the United States. Please 
note that due to the multiple factors included in determining estimated 
cost, it is difficult to provide meaningful cost numbers across these 
projects. If confirmed, I look forward to discussing these projects 
with you or your staff. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
    Question 8. At what stage of development (e.g., demonstration) are 
the CCS projects being financed by the Office of Fossil Energy?
    Answer. There are currently eight major carbon capture and storage 
demonstrations being supported through the Office of Fossil Energy's 
(FE) Clean Coal Power Initiative (CCPI), Industrial Carbon Capture and 
Storage Initiative (ICCS) and FutureGen Programs. These projects 
represent an investment of over $3 billion US dollars from the Federal 
side, leveraging roughly $13 billion from industry, for a total 
investment of approximately $16 billion dollars. Each of these projects 
is at a different stage of development listed below: 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
    Question 9. Do you believe CCS has been adequately proven at 
commercial scale or at a level required for baseload generating 
capacity?
    Answer. From my own experience, I can tell you that all components 
of CCS, including large-scale CO<INF>2</INF> capture, transportation, 
and multi-million ton per year injection, have been demonstrated world-
wide and in the U.S. for many years, and some are in the commercial 
phase. I also understand that there are twelve large-scale CCS projects 
currently in operation worldwide today. If confirmed at DOE, part of my 
mission will be to continue to pursue research to drive down the cost 
of CCS technology.
    Question 10. What do you see as the major constraints preventing 
the commercial adoption of CCS (e.g, technological, financial, 
regulatory)? What do you believe is necessary to overcome those 
restraints?
    Answer. The 2010 Interagency Task Force Report on Carbon Capture 
and Storage (CCS) identified certain policy, legal, regulatory, and 
technical barriers to CCS deployment. Notably, however, while the Task 
Force Report stated that early projects face certain challenges, it 
also stated, ``there are no insurmountable technological, legal, 
institutional, regulatory or other barriers that prevent CCS from 
playing a role in reducing GHG emissions.'' The report identifies 
specific constraints such as lack of a clear market signal, pore space 
ownership, long-term liabilities, and cost relative to other technology 
options as barriers to commercial deployment of CCS.
    Since the release of the task force report, DOE is addressing the 
barriers by implementing its RD&D portfolio that is focused on a suite 
of first generation and second generation technologies to gain 
experience through early CCS demonstration projects and coupling this 
learning with advancements in R&D to further reduce costs and improve 
the technology. The large-scale demonstration projects are also helping 
to provide information and input on addressing the financial and 
regulatory barriers associated with commercial deployment. In general, 
existing Federal, State, and local regulatory programs will apply 
equally to CCS-equipped plants as they would to plants without CCS. 
However, there will be additional requirements because of the need to 
select an appropriate geological reservoir for CO<INF>2</INF> storage 
and the need to obtain proper permits for constructing the offsite 
CO<INF>2</INF> pipeline and CO2 injection wells for the new CCS-
equipped plant.
    While challenges remain, and the legal and regulatory issues vary 
from site to site depending upon State and local law, the advancements 
being made in development and demonstration of CCS technologies are 
driving legal and regulatory measures that will ensure wider-scale 
deployment in future years.

     Response of Franklin M. Orr to Question From Senator Cantwell

    Question 1. Dr. Orr, as director of the Precourt Institute at 
Stanford University, you have demonstrated an ability to draw together 
experts across a wide range of disciplines in an effort to craft 
integrated science and technology solutions to complex societal 
problems, among them climate change. I think you and I are in agreement 
with the President and Secretary Moniz, that climate change is one of 
the defining challenges of this century, and one that must be addressed 
urgently. I also know from my conversations with researchers at the 
Pacific Northwest National Laboratory in my home state of Washington 
that DOE's national laboratories have a lot of depth of expertise and 
capabilities across the science and engineering disciplines that could 
be very powerful in addressing climate change, particularly if they 
were brought to bear on the problem in an integrated, coordinated way. 
As Under Secretary for Science and Energy, how would you go about 
integrating the Department's basic climate science research programs 
with the resources of DOE's applied program offices to address climate 
change? What is your vision for climate science under DOE's new 
organization?
    Answer. Secretary Moniz's reorganization brings the Department's 
basic research and applied energy programs under one Under Secretary, 
creating opportunities for improved coordination of the Department's 
efforts to address climate change and achieve the goals of the 
President's Climate Action Plan. If confirmed, I plan to look closely 
at this issue and ensure DOE is taking full advantage of the new 
organizational structure and resources, such as the Pacific Northwest 
National Laboratory.

     Responses of Franklin M. Orr to Questions From Senator Baldwin

    UW Madison is the proud home of one of the three Bioenergy Research 
Centers run by the DOE, the Great Lakes Bioenergy Research Center. I 
had the opportunity to tour the research labs earlier this year and saw 
firsthand how this innovative research model is accelerating the 
transition between basic research and technologies that can be 
transferred into the private sector.
    Question 1a. What impacts do you see the Bioenergy Research Centers 
having in developing the next generation of advanced biofuels?
    Answer. While I am not intimately familiar with the Bioenergy 
Research Centers, I understand that they have been very successful, as 
evidenced by their recent review and renewal for another 5 years, 
subject to appropriations. It is my understanding the Centers have 
carved out a complementary set of research areas in order to tackle the 
scientific challenges of producing advanced biofuels. If confirmed, I 
look forward to learning more about the Centers and how we can continue 
to enable their success.
    Question 1b. One of the exciting parts of playing host to the Great 
Lakes BRC is seeing research collaboration across many disciplines. Can 
you discuss the importance of the Bioenergy Research Center model, 
which helps break down research silos to accelerate innovation?
    Answer. I agree that collaboration across disciplines is critical 
to accelerating innovation. These Centers seem in many ways to be 
precursors to the Energy Innovations Hubs. My understanding is that the 
goals of both are to assemble diverse and collaborative teams of 
scientists from many disciplines to tackle a single grand challenge. I 
believe scientists are drawn to these complex challenges and enjoy 
working together toward a common, well-understood, goal that is related 
to clean energy. If confirmed, I look forward to learning more about 
the Great Lakes BRC.
    Question 2. I've heard of foreign universities offering attractive 
research positions to US scientists, pulling them away from critical 
research projects we have invested in and poaching the talent we have 
developed. This fall I introduced the Next Generation Research Act to 
jumpstart investments in the next generation of biomedical researchers.
    a) Are you concerned about our ability to attract and retain the 
next generation of researchers who will tackle one of the most pressing 
issues of our time-energy research?
    Answer. Yes, I am concerned about the future of our scientific 
workforce. It is extremely important that we find ways to attract 
talented scientists and engineers into energy research. Workforce 
issues in science, energy and especially the biomedical field are 
challenging, and I understand how important it is that we find ways 
improve how we attract and train the next generation of scientists.
    Question 2b. How will you work to ensure DOE addresses this 
potential innovation deficit so that we continue to host the best and 
the brightest researchers in US labs?
    Answer. One way to bring talent to our labs is to expose students 
and young researchers to our labs early in their career, for example 
through opportunities for undergraduate and graduate students to do 
research at the DOE national labs. If confirmed, I look forward to 
learning more about the needs of the DOE workforce, existing workforce 
programs, and to working to find ways to attracting the best scientists 
into our mission.
                                 ______
                                 
         Responses of Rhea Suh to Questions From Senator Wyden

    Question 1. Maintenance backlog.--As you are aware, the National 
Park Service's deferred maintenance backlog is estimated to be over $11 
billion. The backlog issue has become a major issue raised in 
opposition to almost any new park-related legislation.
    Do you have any fresh ideas for funding the maintenance backlog?
    Answer. This is one of the more significant issues facing the 
National Park Service and it is a difficult and longstanding issue that 
several Administrations have faced. In my role as Assistant Secretary 
for Policy, Management and Budget, I am aware that the facilities and 
roads in the parks are an essential part of meeting the mission of the 
National Park Service. In our constrained fiscal environment, we must 
find a way to embrace new opportunities to address this need.
    The Energy and Natural Resources Committee has taken innovative 
steps to address the maintenance backlog, most recently by allocating 
additional funds to be leveraged with non-federal funds for this 
purpose. Taking a lesson from your work on the Helium legislation, we 
know that we cannot look solely to appropriations to address this 
challenge; we need to look to other funding models in the both the 
government and private sectors. Currently, the National Park Service is 
working on expanding public-private partnerships, and is developing a 
strategy to expand the potential universe of philanthropic interest and 
support, with maintenance as a key area for this effort.
    I believe that we also have the opportunity to expand innovative 
solutions like Energy Savings Performance Contracts across the country 
to be as efficient as we can be with the resources that we have, and 
focus them on the most critical facilities. Currently, we are 
developing a contract to assess energy use at sites in the National 
Park Service's National Capital Region with potential for energy and 
water savings. I believe there is capacity to do more of these across 
the country.
    I also believe that the National Park Service must focus on key 
assets that are mission essential and key to operations. Evaluating 
each and every building, utility, and other facility in the system, and 
actively managing the facilities footprint, will allow us to eliminate 
unneeded facilities and those that have outlived their useful life. 
This will also help to reduce the backlog.
    Lastly, it is important to note that about one-half of the 
maintenance backlog is transportation related--about 49 percent of the 
infrastructure backlog needs in national parks are roads, bridges, and 
alternative transportation systems. These needs are broader than those 
currently funded by MAP-21, and a significant opportunity exists for 
addressing a portion of these needs with the Federal Lands Highways 
Administration. I look forward to working with you and other Members of 
the Committee to resolve this difficult issue, if confirmed.
    Question 2. Recreation fees.--The Federal Land Recreation 
Enhancement Act provides fee authority for the National Park Service 
and other Federal land management agencies. The law was recently 
extended for an additional year, but the committee still needs to 
consider comprehensive fee legislation, including a longer-term 
authorization.
    In your opinion, has the fee law been successful, and what changes, 
if any, would you recommend be made when the law is reauthorized?
    Answer. Yes, I believe the law has been successful. In 2012, there 
were almost 500 million visits to lands and waters managed by the 
Department generating billions of dollars in economic benefits to local 
communities and hundreds of thousands of jobs. These visitors come to 
our national parks, public lands, and refuges to hike, camp, hunt and 
fish, bike, and enjoy other recreational activities. The Department 
currently collects over $200 million in recreation fees annually under 
this authority from sites that can charge fees and uses them to enhance 
the visitor experience through maintenance of recreation sites, 
educational experiences, interpretive programs, engaging youth, and 
leveraging other programs. Surveys have shown that most visitors to our 
lands believe that the fees they pay are reasonable for the services 
that are provided at these sites.
    Regarding changes to the law, the Department supports permanent 
authorization of this law. Our land managing bureaus with on-the-ground 
experience have identified areas where changes to the program could 
result in more effective service to recreation visitors and the public 
at large. These areas include possible expansion of the program beyond 
the current agencies, reviewing interagency pass benefits, and 
utilization of existing and new technologies to improve visitor 
services and agency operations. The recent one-year extension granted 
in the fiscal year 2014 Continuing Resolution signed on October 16, 
2013, has provided the additional time necessary to complete this task. 
If confirmed for this position, I look forward to continuing to work to 
assure the continued success of this program.

       Responses of Rhea Suh to Questions From Senator Murkowski

    Question 3. As I am sure you know, we have a nearly $13 billion 
parks maintenance backlog. The Land and Water Conservation Fund budget 
request is for a funding level of $600 million, which represents a 
nearly $300 million increase above the current level for DOI agencies 
and the Forest Service, and the Department has indicated its intention 
to request full funding of $900 million in the coming budget cycle. 
Most Americans wonder why the Federal Government is buying more land 
when it cannot afford to properly maintain and safeguard what it 
currently owns. This ongoing practice does not appear logical to me.

    a. Do you agree that we should address the maintenance backlog 
before we acquire additional lands? If not, can you please explain why, 
with such an enormous maintenance backlog, DOI would focus such a large 
amount of money on acquiring more federal land?
    b. More generally, how do you reconcile additional federal land 
acquisition, adding to the federal burden at this time of staggering 
national debt and maintenance backlogs?

    Answer. I understand and have seen first-hand the difficult 
challenges facing agencies that must maintain facilities and 
infrastructure in these constrained fiscal times. However, like 
President Obama and Secretary Jewell, I support the Land and Water 
Conservation Fund, and do not believe that land acquisition is 
inconsistent with our maintenance responsibilities.
    The Land and Water Conservation Fund was envisioned as a program 
that would use a portion of the proceeds from the development of our 
public lands and waters for investments in conservation and recreation 
for the benefit of all Americans. The Administration's proposal would 
ensure continued funding for this program designed to balance 
investments in conservation and recreation with the development of oil 
and gas resources. Protecting this balance through mandatory LWCF 
funding would reduce landscape fragmentation, making it more efficient 
to protect wildlife habitat, respond to wildfires and other natural 
disasters, and increase recreational access on the lands and waters 
that belong to every American. This funding will also provide stability 
needed for agencies and states to make strategic, long-term investments 
in our natural infrastructure and outdoor economy to support jobs, 
preserve natural and cultural resources, bolster outdoor recreation 
opportunities, and protect wildlife.
    It is also important to note that more than half of the Land and 
Water Conservation Fund is comprised of grant programs for states and 
local partners and does not entail federal acquisition. For example, 
the State and Local Assistance Program has provided tens of thousands 
of grants to local, state and tribal governments for planning, 
acquisition and development of outdoor recreation lands and facilities 
throughout the country. Seventy-five percent of the total funds 
obligated have gone to locally sponsored projects to provide close-to-
home recreation opportunities that are readily accessible to America's 
youth, adults, senior citizens and the physically or mentally 
challenged.
    The American Battlefield Protection Program provides grants to 
states and other partners to protect Civil War battlefields. These 
grants are often leveraged 3:1, and the long term conservation of these 
sites drives significant tourism development. Similarly, the 
Cooperative Endangered Species Conservation Fund (section 6 of the ESA) 
provides grants to States and Territories to participate in a wide 
array of voluntary conservation projects for candidate, proposed, and 
listed species. These competitive grants enable states to work with 
private landowners, conservation groups and other government agencies 
to initiate conservation planning efforts and acquire and protect 
habitat that benefits threatened and endangered fish, wildlife and 
plants.
    The Department takes seriously its responsibility to maintain 
facilities and infrastructure at the sites that it manages, and has 
proposed budget increases for this maintenance in the Administration's 
budget request. If confirmed, I am committed to working with the 
Committee to explore available opportunities for a long-term solution 
to these funding issues.
    Question 4. Recently, the National Park Service has closed a number 
of preserves in Alaska to certain methods of bear and wolf hunting or 
shortened the hunting seasons as defined by the Alaska Board of Game. 
When instituting the closures, the NPS has cited ``Park Values'' in 
those closures.
    a. Don't you believe that Alaskans should be able to conduct their 
traditional and customary hunting techniques in Alaska?
    Answer. From my work with the Cup'ik community in Chevak, I know 
that Alaska Natives have relied on traditional harvest of wild foods 
for centuries. I also know that subsistence practices have also become 
important to many non-Native Alaskans, particularly in rural Alaska. 
While I understand that the management of subsistence harvests of 
natural resources can be difficult, I believe we have an obligation to 
provide rural Alaskans on federal lands the opportunity for customary 
and traditional harvest and use of natural resources while maintaining 
healthy fish and wildlife populations.
    Question 4b. Can you provide me with a definition of ``Park 
Values''?
    Answer. I understand the general definitions of park resources and 
values are found in Section 1.4.6. of the National Park Service's 
Management Policies. Specifically relating to this issue, the National 
Park Service has informed me that section 101 of the Alaska National 
Interest Lands Conservation Act cites ``values'' among the purposes for 
establishing conservation areas. Section 1313 of the Act authorizes the 
NPS to designate where and when to close or restrict hunting in 
preserves for reasons of public safety, administration, floral and 
faunal protection, or public use and enjoyment.
    Question 4c. Do you believe that the State of Alaska has the right 
to manage wildlife within the borders of the State? When is it proper 
for the federal government to reverse State Board of Game decisions?
    Answer. The State of Alaska has the right to manage wildlife within 
the State. Non-conflicting State general hunting and trapping 
regulations are adopted on lands within the National Wildlife Refuge 
System and on National Parks and Preserves. However, if State 
regulations conflict with federal statutes and policy that govern 
management of federal lands, then it is appropriate for the federal 
government to act to ensure that State measures do not compromise 
wildlife conservation and management actions mandated by federal law.
    Question 5. On September 19, 2013 the Energy Committee held the 
first subsistence oversight hearing since the creation of Alaska 
National Interest Lands Conservation Act (ANILCA) and the Alaska Native 
Claims Settlement Act (ANCSA). One area where everyone can agree is 
that the dual management framework in Alaska is not working for our 
rural residents. There are two areas where we are focusing our initial 
reform efforts.
    a. The first is the Federal Subsistence Board. We would like to add 
additional subsistence users to the Board, in order to have an equal 
split between Alaska users and the FSB which makes the decisions that 
impact their livelihood. Additionally, we would like to reform the 
Rural Determination Process, which currently reconsiders the rural 
status of Alaska's communities every decade, leaving many Alaskans 
constantly worrying about their rural preference or lack thereof. Will 
you commit to working on this pressing reform effort? If so, when could 
I expect to hear from DOI in response to my letter dated October 25, 
2013?
    Answer. Yes, I commit to working on this effort with you and your 
staff, if I am confirmed. In Alaska, the Department has a special 
responsibility is to ensure fish and wildlife resources are available 
now and in the future for rural Alaskans who rely on subsistence 
harvest. I understand that the management of subsistence harvests of 
natural resources is complicated. There are a number of laws that 
provide many mandates related to management; there are multiple 
management entities with subsistence management responsibilities; and 
there are many different subsistence users who are affected by 
management of harvest. Opportunities to streamline, clarify and 
simplify these efforts should be pursued. If confirmed, I would look 
forward to learning more about the issues and working with you on ways 
to improve subsistence management for users that ensure natural 
resources are available for subsistence harvest in the long-term.
    With respect to the October 25, 2013, letter you reference, I 
understand that the Department has been coordinating with the U.S. 
Department of Agriculture on a response, which you will receive 
shortly.
    Question 5b. The second area of our subsistence reform focus is 
with Self-Governance Agreements. Current law allows each National Park 
Unit and National Wildlife Refuge in Alaska to enter into a self-
governance agreement with a local tribe to allow the tribe to conduct a 
range of work and activities on those federal lands, including 
subsistence management work. If confirmed, would you commit to 
expanding the use of self-governance agreements in Alaska?
    Answer. If confirmed, I commit to working with you to improve the 
opportunities for Native Alaskans to work more collaboratively and 
concertedly with both the Fish and Wildlife Service and the National 
Park Service.
    Question 6. Recently, the USFWS put out their final guidance on the 
significantly altered definition relating to the Alaska Native harvest 
of sea otters. While I am thankful for the agency's efforts on this so 
far, I have been somewhat frustrated by the length of time it took to 
reach this positive outcome and very much hope that it will work in 
good faith to ensure that this new definition is understood by Alaska 
Natives in Southeast Alaska. Will the USFWS commit to me that it will 
hold briefings throughout the villages of Southeast Alaska to ensure 
that all interested residents truly understand the new definition?
    Answer. If confirmed, I commit to working with the Service to 
ensure that the new definition is understood by affected Alaska Native 
communities and to finding the most effective and efficient means to 
conduct outreach to interested residents of Southeast Alaska to that 
end.
    Question 7. For decades now the federal government has been engaged 
in a proposal to establish an international park spanning the Bering 
Straits in Alaska and Russia. On September 30, 2013 the National Park 
Service indicated that the latest draft Memorandum of Understanding 
between the U.S. and Russia for Berinigia will be released shortly. 
Alaskans are increasingly concerned about the prospects that this 
agreement will be finalized in the near future and the impacts that 
this will have on the region and Alaskan stakeholder concerns remain 
largely unaddressed. It is very troubling that the federal government 
is looking to impose this without articulating any type of benefits for 
the local population. What are your views on the idea of an 
international park? Would you support the Beringia proposal even though 
local and state government entities continue to have unanswered 
concerns and many tribal groups have expressed their desire not to move 
forward?
    Answer. I understand that international cooperation has been in 
place in the Bering Strait area for over 20 years, and that the Shared 
Beringian Heritage Program has enabled cultural and scientific 
exchanges between Alaskans and Russians and grants to Alaska Native 
corporations, tribal groups, the University of Alaska and many Alaska-
based scientists. I also understand that the State Department has 
proposed a non-binding memorandum of understanding that would recognize 
the recent addition of a national park in Russia and add a degree of 
formality to the international cooperation. However, this MOU would not 
establish an international park nor would it change regulations, 
access, or subsistence uses. I also understand that there is currently 
no proposal before Congress to establish such a park.
    I agree that local, state and tribal stakeholders should be engaged 
in the discussion of this MOU. If confirmed, I will work closely with 
the NPS to ensure that they fully engage the local, state and tribal 
stakeholders and work to address any concerns that they may have 
concerning the MOU.
    Question 8. Please describe the extent to which USFWS has responded 
to the President's July 1, 2013 Executive Order on combating wildlife 
trafficking.
    Answer. Illegal trafficking of wildlife and their derivative parts 
and products and the poaching of protected species is estimated to be a 
multibillion-dollar international enterprise. It is an underpinning of 
transnational organized crime that fosters instability and undermines 
national security. Across the United States Government, we are working 
to identify new approaches to crack down on poaching and wildlife 
trafficking. I know that the Fish and Wildlife Service has been working 
for decades with partners in countries across the globe to conserve 
imperiled wildlife.
    The President's Executive Order is bringing together agencies from 
across the federal government to develop a comprehensive strategy to 
combat wildlife trafficking. The Service is providing key leadership 
and capacity in this effort, and has supported the Secretary in 
establishing the Advisory Council on Wildlife Trafficking which will 
make recommendations to the Presidential Task Force led by the Attorney 
General and the Secretaries of State and Interior, as established by 
the E.O. The Service is also engaging the Council's expertise in law 
enforcement and criminal justice, wildlife biology and conservation, 
finance and trade, and international relations and diplomacy to develop 
and implement a national strategy. The Council recently held its first 
meeting here at the Department on December 16, 2013.
    Question 9. The USFWS recently extended the duration of its 
programmatic permits for non-purposeful take of bald and golden eagles 
by wind facilities from 5 years to 30 years.
    a. Please explain how the USFWS arrived at the 30 year figure. What 
is the rationale for 30 years instead of 10, 15, 20, or 25?
    b. How do you reconcile the Service's ongoing opposition to the 
King Cove gravel road in Alaska with this recent decision to grant 
permits that allow for the taking of eagles at wind farms around the 
country? What is your personal opinion of the King Cove road?
    c. The new rulemaking notes the Service's intention to incorporate 
mitigation measures into the permit. Please explain these mitigation 
requirements and provide specific examples.
    d. Are there any other programmatic, non-purposeful taking 
activities relevant to golden eagles and bald eagles known to the 
Service besides wind energy projects, and have you discussed mitigation 
efforts with any applicant that is not a wind energy project?
    Answer. My understanding is that the Fish and Wildlife Service, 
working with stakeholders in the course of developing the rulemaking to 
grant permits for industry for the incidental taking of eagles under 
the Bald and Golden Eagle Protection Act, sought to extend the maximum 
permit term from five years to 30 years to reflect the actual 
operational life of renewable energy and other long-term project 
operations. These permits are subject to a recurring five-year review 
process for the duration of the permit.
    I also understand that the development of the Final Environmental 
Impact Statement for Izembek National Wildlife Refuge and the Service's 
eagle permitting rulemaking were each prepared in accordance with all 
applicable statutes, and that the Service is working with industry to 
develop Advanced Conservation Practices and mitigation practices for 
energy projects as part of the programmatic take permit process. 
Examples of compensatory mitigation measures the Service and industry 
are working on as part of the current permit process include 
retrofitting power lines that currently pose a risk of electrocution to 
eagles, clearing roadways of animal carcasses which can threaten 
scavenging eagles, and increasing the availability of eagle prey.
    There are also projects and operations of industries other than 
wind energy that can result in incidental take of bald eagles and 
golden eagles. An example is the electric power line industry. The 
Service has worked with this industry for many years to develop best 
management practices to avoid and minimize the taking of eagles. If 
confirmed, I will work to ensure this constructive working relationship 
with this industry and others continues as effective conservation and 
mitigation practices are developed.
    Regarding the King Cove road proposal, I believe that we should do 
everything we can to accommodate the critical human health and safety 
needs of the people of King Cove while providing adequate protections 
for the refuge.
    Question 10. On December 5, 2013, President Obama issued a 
directive calling for the executive branch's departments and agencies 
to acquire 20 percent of their electric energy from renewable resources 
by Fiscal Year 2020.
    a. Please explain how the executive branch arrived at the 20 
percent figure.
    b. In his last two State of the Union addresses, the President 
called for an 80 percent Clean Energy Standard mandate by 2035 for the 
utility sector. Why isn't the federal government attempting to achieve 
the President's own 80 percent goal?
    c. In the 2005 Energy Policy Act, Congress required that federal 
agencies purchase at least 7.5 percent of their electrical power from 
renewable resources by FY 2013. Has the federal government met this 
statutory requirement?
    Answer. The 20 percent figure was first announced by the President 
in June in his Climate Action Plan. The figure was developed by the 
White House, in coordination with a number of agencies. Implementing 
sustainability actions like this are consistent with the Department's 
overarching mission.
    My understanding of the President's proposal for a Clean Energy 
Standard of 80 percent by 2035 is that it is a long-term goal targeted 
at energy production, as opposed to the shorter-term goals focused on 
sustainable performance, similar to the provisions of the Energy Policy 
Act of 2005 referenced in your question. Those provisions of the Energy 
Policy Act are tracked for the Administration through the Department of 
Energy's Federal Energy Management Program. The Department's 
performance with regard to that statutory requirement is highlighted in 
the Department's Strategic Sustainability Performance Plan, which can 
be found at: http://www.doi.gov/greening/sustainability__plan/upload/
2013_DOI_SSPP__website.pdf. Last year the Department exceeded the 
Energy Policy Act goal with 8.6 percent of its electrical use coming 
from renewable sources.
         Responses of Rhea Suh to Questions From Senator Scott
Wilderness
    Question 11. In a June 2007 ``Q&A'' with ``Foundations'' you made a 
number of very concerning statements regarding land and resources 
management, particularly to those who understand the importance of 
energy production for job creation and economic growth. In reference to 
Wilderness protection you said, ``It's the crown jewel of what 
environmentalists work for in public land.'' Please expand upon what 
you mean by that statement.
    If confirmed, how much direct involvement will you have in 
advocating for or working on potential Wilderness designations?
    Answer. Wilderness areas are great places to hunt and fish and 
include some of the best representation of our natural heritage in the 
country. It is but one of many designations, but one that only Congress 
can make. I have demonstrated in my current job that I support our 
obligations associated with multiple-use and if confirmed, will work 
with Congress to continue to pursue balanced approaches to conservation 
and development.
    Question 12. Secretary Jewell has complained about the lack of 
activity in Congress in regards to Wilderness designations and has said 
that if Congress doesn't act, the administration will act by using the 
Antiquities Act to unilaterally designate areas as National Monuments.
    In your current role, specifically what has your involvement been 
in developing any lists of potential areas to be designated as National 
Monuments under the Antiquities Act?
    If confirmed, how much direct involvement will have in Antiquities 
Act designations?
    Did you have any involvement in the Department's creation of the 
``Wild Lands'' policy? If so, specifically what was your level of 
involvement and what work did you perform?
    Answer. In my role as Assistant Secretary for Policy, Management 
and Budget, I was not and have not been involved in developing any 
lists of potential areas to be designated as National Monuments, nor am 
I aware that any such lists exist. I also was not involved in the 
creation of the Wild Lands Policy.
    If confirmed as Assistant Secretary for Fish and Wildlife and 
Parks, I would be involved in policy discussions regarding potential 
monument designations with respect to NPS and FWS lands. Any activities 
by the Department would be guided by the Secretary's belief that 
efforts should focus on areas where there is a groundswell of public 
support; that there will be a commitment to public engagement and the 
involvement of local communities; and that decisions will not be driven 
by lists made in Washington but by the input of citizens on the ground 
and Members of Congress.
Energy Production
    Question 13. In the same ``Foundations'' Q&A, you called natural 
gas development, ``Easily the single greatest threat to the ecological 
integrity of the West.'' Even President Obama has recognized the 
importance of natural gas production to America's economy, job creation 
and energy security. Do you still believe natural gas production is the 
single greatest threat to the ecological integrity of the West? If so, 
why? If not, what do you consider the single greatest threat to 
ecological integrity of the West?
    Answer. As I stated at my confirmation hearing, I strongly support 
the President's all-of-the-above energy strategy, which focuses on 
development of our resources in a responsible fashion and in the right 
places, and specifically the role that natural gas plays in that 
strategy. The public lands managed by the Department account for about 
20 percent of the natural gas production in the country. As Assistant 
Secretary for Policy, Management and Budget, I promoted robust budgets 
for safe and responsible oil and gas development, and I believe that 
these budgets demonstrate that natural gas is a priority and that 
development of these resources can take place in a balanced, 
responsible way.
    Question 14. Specifically, what are your critiques or concerns of 
how individual States have regulated hydraulic fracturing?
    Answer. The Department of the Interior does not regulate hydraulic 
fracturing on state lands. The proposed regulations address hydraulic 
fracturing on lands under the jurisdiction of the Bureau of Land 
Management and on Indian lands. As I noted in my response to the 
previous question, natural gas has played and will continue to play a 
crucial role in America's economy.
    Question 15. Have you had any involvement in the development of the 
largely duplicative hydraulic fracturing regulations proposed by BLM? 
If so, please explain to what degree and specifically what work you 
performed.
    Answer. In my role as Assistant Secretary for Policy, Management 
and Budget I am aware of the ongoing rulemaking; however I have not 
been involved in the substantive development of the proposed 
regulations.
    Question 16. If confirmed, what will be your involvement in your 
new capacity in the implementation of the BLM fracking regulations?
    Answer. The position for which I have been nominated does not 
oversee the Bureau of Land Management, the principal agency within the 
Department of the Interior that manages development of oil and gas 
resources on public lands. Consequently, if confirmed I would have 
little, if, any involvement in implementation of the BLM's regulations.
    Question 17. Do you believe the federal government should regulate 
hydraulic fracturing on state and private lands as well as federal 
lands?
    Answer. The Department's jurisdiction for regulating hydraulic 
fracturing through the Bureau of Land Management applies only to the 
federal and Indian mineral estates. The position for which I have been 
nominated does not oversee the development of natural gas resources on 
public lands.

National Ocean Policy
    Question 18. Recommendations adopted in the National Ocean Policy 
Executive Order state that Coastal and Marine Spatial Planning will 
require ``significant initial investment of both human and financial 
resources,'' and in early 2012 the National Ocean Council noted that 
federal agencies had been asked to provide information about how 
``existing resources [can] be repurposed for greater efficiency and 
effectiveness'' in furtherance of the National Ocean Policy. 
Furthermore, according to the Interior Department, U.S. Fish & Wildlife 
and National Park Services officials in the Alaska, Caribbean, Great 
Lakes, Gulf of Mexico, Mid-Atlantic, Northeast, Pacific Islands, South 
Atlantic, and West Coast regions have been involved in Coastal and 
Marine Spatial Planning activities.
    If confirmed, your responsibilities would include oversight of 
entities including the U.S. Fish & Wildlife and National Park Services. 
In your capacity as Assistant Secretary of Policy, Management and 
Budget, please describe how many USFWS and NPS resources and personnel 
have been directed toward activities specifically in support of the 
National Ocean Policy to date, and how many resources and personnel are 
being requested to support such activities in the FY 2014 budget 
request.
    Please describe the USFWS and NPS responses if any to the National 
Ocean Council inquiry about the repurposing of existing resources, and 
any actions that USFWS and NPS have taken or plan to take in this 
regard.
    Answer. The Department tracks funding for programmatic activities 
related to ocean and coastal areas including the Great Lakes but not 
for work related to the National Ocean Policy. The Department's cross 
cut of mandatory and discretionary funding related to these ocean and 
coastal areas includes such activities as funding to support the 
offshore oil and gas development program. The cross cut indicates 
$245.8 million in related ocean and coastal activities in FY 2014, 
including Sport Fish Restoration grant estimates and $93.5 million for 
similar National Park Service activities, which include Everglades 
Restoration and Research. I am not aware of FWS or NPS funding or 
personnel information related to the National Ocean Policy or of any 
FWS or NPS responses regarding the inquiry to which you refer.
    Question 19. According to the USFWS FY2014 Budget Justification, 
the Coastal Program is the Service's ``lead for implementing the 
National Ocean Policy'' and USFWS is ``helping lead DOI's role in 
developing the National Ocean Policy.'' Under this request, USFWS notes 
that ``[t]here is no separate budget line item for the National Ocean 
Policy or National Ocean Council in the President's Fiscal Year 2014 
budget as the National Policy uses existing authorities and resources 
to strengthen ocean, coastal, and Great Lakes stewardship.''
    Of the $14.948 million for the Service's Coastal Program in FY2014, 
how many resources would be allocated in support of the National Ocean 
Policy, and what specific activities would those resources support?
    Answer. The Department maintains a crosscut of funding that 
supports oceans and coastal related resource management. The cross cut 
does not identify any resources that support the National Ocean Policy.
    Question 20. Section 6(b) of Executive Order 135474 that 
established the National Ocean Policy in July 2010 requires ``[e]ach 
executive department, agency, and office that is required to take 
actions under this order shall prepare and make publicly available an 
annual report including a concise description of actions taken by the 
agency in the previous calendar year to implement the order, a 
description of written comments by persons or organizations regarding 
the agency's compliance with this order, and the agency's response to 
such comments.''
    Pursuant to this requirement, have USFWS or NPS been asked to 
prepare and/or actually prepared a summary of such activities for 
calendar years 2010, 2011, or 2012?
    Answer. I have been advised that neither bureau prepared their own 
reports, as the requirement to take action under this Executive Order 
lies with the Department. Staff from both bureaus submitted material 
for the Department's Ocean Policy accomplishment reports in 2010 and 
2011. Due to the focus on completing the Ocean Policy Implementation 
Plan, no accomplishments report was requested by the National Ocean 
Council for 2012.
    Question 21. The recommendations adopted by the National Ocean 
Policy Executive Order state that effective implementation will require 
``clear and easily understood requirements and regulations, where 
appropriate, that include enforcement as a critical component.'' In 
addition, the Executive Order requires federal entities including the 
Interior Department to implement the policy to the fullest extent 
possible. At the same time, the National Ocean Council has stated that 
the National Policy ``does not establish any new regulations or 
restrict any ocean uses or activities.''
    If confirmed, what if any commitment can you make that USFWS and 
NPS will not issue any regulations or take any actions having a 
regulatory impact pursuant to the National Ocean Policy, including 
Coastal and Marine Spatial Planning?
    Answer. I am advised that none of the National Ocean Policy 
Implementation Plan actions in which the Department is involved, 
including specifically those involving the Fish and Wildlife Service 
and the National Park Service, have any elements that require or 
contemplate new regulations. The implementation actions should, through 
increased interagency and federal-state cooperation, generate better 
and more timely information that can help inform our decisions. New 
regulations from the Department, or these two bureaus, are not part of 
the plan to implement the Policy.

          Response of Rhea Suh to Question From Senator Risch

    Question 22. Public Data--The Endangered Species Act requires the 
use of ``the best scientific and commercial data available''. The Fish 
and Wildlife Service (FWS) has yet to release this data from the 2010 
``warranted but precluded'' determination for sage grouse. I would 
respectfully request the data be release prior to the confirmation of 
Ms. Suh. Will you do so?
    Answer. The Endangered Species Act directs the Fish and Wildlife 
Service to make its determinations under the Act using the best 
scientific and commercial data available. I fully support this critical 
aspect of the Act, as does this Administration. I understand that there 
are instances when the best available data is peer reviewed scientific 
studies published in scientific journals or monographs, where access to 
the underlying raw data is proprietary and therefore under the control 
of the author and/or the journal. I am not familiar with the specifics 
of the circumstance your question references, but if confirmed I would 
be happy to look into the matter and report back to you.

        Responses of Rhea Suh to Questions From Senator Portman

    Question 23. There is need for reform of the federal permitting 
process. The United States ranks 17th in the world in the time it takes 
to get a government green-light to actually build something--one of the 
ten International Monetary Fund metrics for the ``ease of doing 
business.'' Under the current system, businesses seeking approval for 
major capital projects often must run the bureaucratic gauntlet of a 
dozen separate agencies, and the threat of litigation looms as long as 
6 years after securing all required approvals. U.S. Fish and Wildlife 
Service (FWS) permits are required for many domestic energy projects. 
Do you think there is room for the FWS to improve how efficiently those 
permits are processed? If so, are there specific measures you would 
take to improve the process?
    Answer. Over the past two years, the Department and its agencies 
have worked closely with OMB and CEQ in responding to the President's 
Executive Order on Improving Performance of Federal Permitting and 
Review of Infrastructure Projects, a government-wide initiative to 
improve Federal decision-making processes, while producing measurably 
better outcomes for communities and the environment. To date, agencies 
have expedited the review and permitting of 51 selected major 
infrastructure projects and have identified a set of best practices for 
infrastructure permitting and review, including expanding the use of IT 
tools and improving early coordination across agencies. The Department 
is working closely with OMB and CEQ in developing a plan that 
institutionalizes these best practices and modernizes procedures for 
the review and permitting of major infrastructure projects.
    FWS is also collaborating with the BLM and other bureaus and 
agencies, as well as state and local partners, to improve planning 
early and at the landscape scale. Collaborative efforts such as the 
Desert Renewable Energy Conservation Plan and multi-stakeholder efforts 
to ensure the viability of sage grouse populations are setting a new 
standard for planning that will allow project proponents to avert 
conflict in advance, contribute to landscape-scale outcomes, and 
ultimately expedite permitting. Another important element is to 
integrate various environmental reviews into a unified process, with 
clear timelines and accountability.
    If confirmed, I would continue to work on these critical issues, 
and I would welcome the opportunity to discuss with you the Service's 
role and track record in permitting and review of energy projects. Sen
    Question 24. The FWS has proposed declaring the northern long-eared 
bat an endangered species and is expected to make a final decision on 
this in January. I understand that this species of bat is found in 39 
states and Canada, including: Michigan, Minnesota, Ohio, South Dakota, 
West Virginia, and Wisconsin. Can you provide my office data on what 
FWS estimates the economic impact would be of listing the long-eared 
bat as an endangered species, both nationally and for Ohio?
    Answer. I have been advised that the Fish and Wildlife Service 
proposed to list the northern long-eared bat as an endangered species 
on October 2, 2013, and recently extended the comment period for the 
listing proposal for an additional 30 days, until January 2, 2014. The 
Service anticipates making a final listing determination, after 
consideration of public comments and an independent scientific peer 
review, before October 2, 2014. The Service is precluded by the 
Endangered Species Act from considering economic impacts during the 
listing determination process. All other aspects of the ESA, however, 
including consultation among agencies on federal actions, incidental 
take permitting, designation of critical habitat, and designing and 
implementing recovery actions, consider economic impacts in decision-
making.
    Question 25. I have been told that the proposed listing involved 
only three species-specific investigations and that this is 
inconsistent with prior listings that involve dozens of studies prior 
to a decision, such as the listing of the Indiana Bat. If confirmed, 
will you agree to conduct a review of the FWS proposal for the long-
eared bat to be federally listed as an endangered species and ensure 
that FWS did not relax its standards on scientific investigation and 
species-specific study for this proposal?
    Answer. The Endangered Species Act requires the Fish and Wildlife 
Service to use the best available scientific information in making 
determinations under the Act. I have been informed that the Service 
solicits independent scientific peer review of its proposed listing 
determinations, and that one of the reasons for doing so is to validate 
that it identified and appropriately considered the best available 
scientific information in its proposal. The public comment period 
provided by the ESA and the independent scientific peer review of all 
listing proposals are designed to ensure meaningful opportunities for 
any additional relevant scientific information to be provided to the 
Service, or for deficiencies to be identified. If confirmed, I would be 
happy to discuss this issue with you and further understand your 
concerns.
    Question 26. When I was OMB director, I worked with both parties in 
Congress to secure support for a partnership program that provided 
needed financial support for the parks. Finding a fiscally sustainable 
path forward for our national parks continues to be one of my top 
priorities. As you may know, the deferred maintenance backlog has grown 
to $11.5 billion. Do you have ideas for reducing the backlog?
    Answer. This is one of the more significant issues facing the 
National Park Service and it is a difficult and longstanding issue that 
several Administrations have faced. In my role as Assistant Secretary 
for Policy, Management and Budget, I am aware that the facilities and 
roads in the parks are an essential part of meeting the mission of the 
National Park Service. In our constrained fiscal environment, we must 
find a way to embrace new opportunities to address this need.
    I know that you care deeply about this issue and took steps to 
address it while the Director of OMB. Likewise, the Energy and Natural 
Resources Committee has taken innovative steps to address the 
maintenance backlog, most recently by allocating additional funds to be 
leveraged with non-federal funds for this purpose. We know that we 
cannot look solely to appropriations to address this challenge, we need 
to look to other funding models in the both the government and 
commercial sectors. Currently, the National Park Service is working on 
expanding public-private partnerships, and is developing a strategy to 
expand the potential universe of philanthropic interest and support, 
with maintenance as a key area for this effort.
    In addition to these strategies, we also have the opportunity to 
expand innovative solutions like Energy Savings Performance Contracts 
across the country to be as efficient as we can be with the resources 
that we have, and focus them on the most critical facilities. 
Currently, we are developing a contract to assess energy use at sites 
in the National Park Service's National Capital Region with potential 
for energy and water savings. I believe there is capacity to do more of 
these across the country.
    I also believe that the National Park Service must focus on key 
assets that are mission essential and key to operations. Evaluating 
each and every building, utility, and other facility in the system, and 
actively managing the facilities footprint, will allow us to eliminate 
unneeded facilities and those that have outlived their useful life. 
This will also help to reduce the backlog.
    Lastly, it is important to note that about one-half of the 
maintenance backlog is transportation related--about 49 percent of the 
infrastructure backlog needs in national parks are roads, bridges, and 
alternative transportation systems. These needs are broader than those 
currently funded by MAP- 21, and a significant opportunity exists for 
addressing a portion of these needs with the Federal Lands Highways 
Administration. I look forward to working with you and other Members of 
the Committee to resolve this difficult issue, if confirmed.
    Question 27. Do you consider historic leases in parks to be a 
viable way to help parks mitigate the operation and maintenance 
backlog?
    Answer. Leasing authority is a valuable tool for NPS to use in 
managing its assets; however, it is limited by market forces. The NPS 
roughly estimates that only between 1 and 3 percent of the deferred 
maintenance could be resolved by leases. Leasing generally works well 
in urban areas where favorable market fundamentals and business 
opportunities exist, such as at Golden Gate National Recreation Area. 
However, any prospective lessee must be able to afford the upfront 
investment many structures require, including costs to address deferred 
maintenance. This initial cost often results in no private-sector 
interest in the building. The NPS is working to improve the use of 
leasing by developing a more active leasing program and leasing-
specific training, and encouraging parks to assess buildings for 
leasing opportunities.
    Question 28. Cuyahoga Valley National Park in Ohio has grown its 
volunteer program, co-managed by the park and the Conservancy, to 5,900 
volunteers and over 200,000 hours annually. Their volunteers include 
youth, families, corporations and individuals from diverse backgrounds. 
Do you see volunteer programs as a key supporting our parks? Do you 
think the National Park Service policies adequately support 
philanthropy and the park mission?
    Answer. Volunteer contributions are vital in supporting the park 
mission. NPS policies strongly support volunteer programs as well as 
other means of contributing to the NPS mission. Not only do volunteers 
provide cost-effective support for high-priority programs and projects, 
they engage members of the community in accomplishing the NPS mission 
while fostering an understanding and appreciation of park resources. In 
FY 2013, the NPS engaged 246,000 volunteers who contributed 6,700,000 
hours valued at over $148 million.
    I know that one of Secretary Jewell's highest priorities is 
engaging a new generation in the mission of the Department, and one of 
the ways we plan on doing that is by expanding the number of volunteers 
on our lands to 1 million annually, which represents a nearly threefold 
expansion. This goal is further leveraged by the approach of the NPS 
Centennial in 2016, and I expect that there will be renewed interest in 
volunteering with the NPS and a heightened opportunity to expand 
volunteer engagement and management.
    The National Park Foundation is the National Park Service's key 
partner in leveraging philanthropy for parks across the country and in 
preparation for the 100th anniversary, the Foundation is expanding its 
efforts to solicit contributions to support the Parks. In addition, 
there are more than one hundred friends groups associated with 
individual park units working to support the efforts of those parks. I 
believe there is an opportunity to strengthen and expand these groups 
to engage with local communities and private interests in support of 
the national parks.

         Responses of Rhea Suh to Questions From Senator Flake

    Question 29. During the recent government shutdown, the State of 
Arizona provided $465,000 to temporarily reopen the Grand Canyon 
National Park. Likewise, in 1995, the State of Arizona provided 
$370,125 to temporarily reopen the Park during the shutdown that 
occurred that year. In both instances, Congress retroactively 
appropriated funds to the Park Service that covered the shutdown 
period. In 1995, the Park Service subsequently refunded the full amount 
to the State of Arizona. This time, however, the Park Service has 
retained a ``shutdown windfall'' refusing to refund money to the State, 
even though it also received retroactive appropriations. Can you 
explain the difference in policy between 1995 and 2013?
    Question 30. Would you support a full refund to the State of 
Arizona for the amount it provided in 2013 to temporarily reopen the 
Grand Canyon National Park, so as to avoid a shutdown windfall for the 
Park Service?
    Question 31. If you believe congressional action is required to 
fully refund the State, why was congressional action not required in 
1995?
    Question 32. If you believe congressional authority was provided 
following the 1995 shutdown to refund the State of Arizona, please 
provide a citation to that congressional authority.
    Question 33. Do you believe there is a distinction between 
``refunding'' a state following a retroactive appropriation and 
``reimbursing'' a state, when Congress does not provide a retroactive 
appropriation?
    Question 34. On November 13, 2013, I joined eight members of the 
Arizona delegation (Republicans and Democrats), in sending a letter to 
National Park Service Director Jarvis urging him to follow past 
practice and provide a full refund to the State of Arizona for 
temporarily reopening the Grand Canyon during the government shutdown 
or to explain why the Park Service was choosing to retain a ``shutdown 
windfall.'' When can we expect a response to that letter?
    Answer. Response to Questions 29-34: I understand that Director 
Jarvis signed a response to you on January 6, 2014.
    As a result of the recent lapse of appropriations, the National 
Park Service was required to close all 401 national parks across the 
country and furlough more than 20,000 National Park Service employees 
who ensure the safety of visitors and the security of the resources. 
Responding to the economic impacts that these park closures were having 
on many communities and local businesses, Secretary Jewell announced 
that the National Park Service would consider agreements with Governors 
who indicated an interest and ability to fully fund National Park 
Service personnel to re-open national parks in their states.
    The National Park Service entered into such a donation agreement 
with Governor Brewer. Under this agreement, the State of Arizona 
donated to the National Park Service a total of $651,000, equivalent to 
funding for seven days of operations at Grand Canyon National Park (at 
the rate of $93,000 per day). When Congress enacted appropriations to 
end the government shutdown, the Park had been open for five days. The 
National Park Service promptly returned the unobligated, unexpended 
balance of $186,000 to the State. However, the National Park Service 
does not have the authority to return those funds that had already been 
obligated or expended.
    During the lapse in appropriations in 1995, the National Park 
Service also entered into a donation agreement with the State of 
Arizona to provide for operations at Grand Canyon National Park. 
However, before any moneys were expended or obligated under that 1995 
agreement, Congress enacted appropriations to end the government 
shutdown. Consequently, the National Park Service returned to the State 
the unobligated, unexpended balance, which was the full amount donated 
to the National Park Service.
    As I noted in response to your question at the hearing, I 
understand that an act of Congress is needed to provide the National 
Park Service with the authority to reimburse the State for that portion 
of the donated funding that was expended or obligated to operate Grand 
Canyon National Park in 2013.
    Question 35. You previously supported grants for water projects 
that analyzed ``how much water can safely be taken from the Colorado 
River.'' Do you believe water managers and policy makers in the 
Colorado River Basin are best suited to address projected Colorado 
River water imbalances?
    Answer. Yes. The Colorado River Basin is one of the most critical 
sources of water in the West, and it is currently facing record 
drought. In December 2012, the Bureau of Reclamation released the 
Colorado River Basin Water Supply and Demand Study, which was conducted 
with participation and input from a broad range of stakeholders 
throughout the Colorado River Basin. The Study was to define future 
imbalances in water supply and demand in the Basin through the year 
2060, and develop and analyze options and strategies to resolve those 
imbalances. Engaging with water managers and policy makers in the 
Colorado River Basin, through the next steps of the Study and 
otherwise, will be critical to addressing Colorado River water 
imbalances.
    Question 36. Given that your role with regard to the Fish and 
Wildlife Service, as well as the National Park Service will involve 
watershed issues generally and the Colorado River more specifically do 
you believe water augmentation, as well as water conservation should be 
used to address water imbalances, including those projected along the 
Colorado River?
    Answer. Aside from the Colorado River and its tributaries providing 
water to nearly 40 million people for municipal use and for irrigation 
of nearly 5.5 million acres of land, it also represents the lifeblood 
for at least 22 federally recognized Indian tribes, seven National 
Wildlife Refuges, four National Recreation Areas, and 11 National 
Parks. In order to address ongoing concerns regarding the reliability 
of the Colorado River system, the Bureau of Reclamation completed the 
Colorado River Basin Water Supply and Demand Study in December 2012. 
This Study projects water supply and demand imbalances throughout the 
Colorado River Basin and adjacent areas over the next 50 years and 
identifies a wide range of potential options to resolve supply and 
demand imbalances in the Basin. A process has begun to move beyond the 
Study, which involves multi-stakeholder workgroups and representatives 
of the Department's National Park Service, Fish and Wildlife Service, 
Bureau of Reclamation and U.S. Geological Survey. These work groups are 
actively exploring additional efforts that could reduce supply-demand 
imbalances, including agriculture and municipal water conservation 
programs as well as augmentation.
    Question 37. Do you support the Colorado River Compact and 
subsequent Law of the River statutes, decisions, and agreements that 
have led to the equitable apportionment of the Colorado River among the 
Basin States and Mexico?
    Answer. Yes. The Colorado River Compact, along with the Mexican 
Water Treaty, the Upper Colorado River Basin Compact, and the Arizona 
v. California litigation, form the foundation of the Law of the River, 
and I support upholding this framework in regard to the management of 
the Colorado River.

        Responses of Rhea Suh to Questions From Senator Barrasso

    Question 38. Please provide a list of all policy positions, legal 
actions or threats of legal action, press releases, policy analysis, 
grants or public statements made by the Hewlett Foundation, the David 
and Lucile Packard Foundation, or Environmental Grantmakers Association 
or officials with those organizations during the time you served and 
were associated with those organizations, with which you disagreed or 
took an opposing view.
    Question 39. Please provide a short explanation of what action you 
took, if any, to articulate your disagreement with the policy 
positions, legal actions, press releases, policy analysis, grants, or 
public statements by the Hewlett Foundation, the David and Lucile 
Packard Foundation, or Environmental Grantmakers Association or 
officials with those organizations.
    Question 40. Please provide a list of all policy positions, legal 
actions or threats of legal action, press releases, policy analysis, 
grants or public statements made by the Hewlett Foundation, the David 
and Lucile Packard Foundation, or Environmental Grantmakers Association 
or officials with those organizations during the time you served or 
were associated with those organizations with which you now disagree or 
oppose.
    Answer. Response to Questions 38-40. The mission of the Hewlett 
Foundation is to solve social and environmental problems in the US and 
around the world. The Foundation's programs have ambitious goals that 
include: helping to reduce global poverty, improving education for 
students in California and elsewhere, improving reproductive health and 
rights worldwide, supporting vibrant performing arts in the community, 
advancing the field of philanthropy, and supporting disadvantaged 
communities in the San Francisco Bay Area. Similarly, the Packard 
Foundation works on the issues its founders cared about most: improving 
the lives of children, enabling the creative pursuit of science, 
advancing reproductive health, and conserving and restoring the earth's 
natural systems. The Environmental Grantmakers Association is a 
professional association of over 200 philanthropic organizations, 
including institutions such as the Ford Foundation and the Kellogg 
Foundation. The association's mission was to foster knowledge sharing 
and collaboration among institutions.
    Both the Hewlett Foundation and the Packard Foundation conducted 
grantmaking that was designed to build institutional capacity for their 
grantees, helping them identify goals and indicators of their progress, 
as well as evaluating their success. The guiding principles they 
followed included making positive contributions to society; a belief in 
collaboration with others; and support for independent, non-partisan 
approaches. These are important attributes and ones that I plan to 
carry forward to this new position, if I am confirmed. Neither 
institution, to my knowledge, is involved directly in any policy debate 
or legal action associated with policy debates. The Environmental 
Grantmakers Association is not a grantmaking institution but rather a 
professional association. To my knowledge, it does not have policy or 
legal capacity, take positions on policy or legal debates or issue 
press releases.
    Question 41. I am sure you are well aware of the agreement between 
the Fish and Wildlife Service (FWS), WildEarth Guardians and the Center 
for Biological Diversity regarding the potential listing of 750 new 
species across the country. One of these species of particular concern 
is the sage grouse.
    If a majority of such designations were to occur, economic 
development for rural communities would be severely impacted and 
thousands of people would lose their jobs. If confirmed, how would you 
work to ensure that millions of acres of habitat are not designated 
over the next four years potentially hurting these communities?
    Answer. I know that this is an issue of great importance to you and 
other members who represent states that could be impacted by potential 
designation of sage grouse habitat. Secretary Jewell in her remarks to 
the Western Governors Association has said that collaboration is the 
key to effectively addressing the threats to sage grouse populations, 
and I agree with her. If confirmed for this position, one of my highest 
priorities will be to ensure that FWS continues to work collaboratively 
and proactively with the Bureau of Land Management, as well as state 
and local governments and private landowners, to take measures aimed at 
avoiding the need to list the species.
    Question 42. With regard to the sage grouse, if confirmed, how will 
you work to ensure that federal authority does not adversely impact 
those states that are already proactively working to conserve the sage 
grouse at a state level?
    Answer. As I noted in my response to the previous question, 
Secretary Jewell is committed to the principle that collaboration is 
key to addressing complex issues such as this. I know that the 
Department has been engaging states and working to ensure a coordinated 
effort to address the issue. I am aware that much has been accomplished 
through these partnerships, and I commit to continuing this proactive 
approach, if I am confirmed.
    Question 43. Do you believe sue and settle agreements are an open 
and transparent way to make public policy that significantly impacts 
Americans?
    Question 44. Do you believe states and communities impacted by sue 
and settle agreements should have a say in court agreements that might 
severely impact them?
    Question 45. If confirmed, would you agree not to enter into 
closed-door settlements where the public and affected states are not a 
party to these agreements?
    Question 46. If confirmed, would you open up litigation to local 
stakeholders and give impacted states and communities a seat at the 
table before any final agreements are signed?
    Answer. Response to Questions 43-46. While I was not a party to any 
of the discussions or decisions regarding the development of these 
settlements, I am aware that the FWS has recently finalized its plan to 
address the backlog of species that have been found to warrant 
protection under the ESA. Although it is not always possible to avoid 
litigation, if confirmed, I will ensure that the Department actively 
engages state and local governments and the public in the search for 
improved and innovative ways to conserve and recover imperiled species.
    Question 47. Governor Mead of Wyoming sent a letter to FWS 
Director, Dan Ashe, dated November 27, 2013, requesting that the FWS 
delay its proposed listing on the wolverine for 6 months to allow an 
independent panel to review the science used to justify the FWS's 
assessment.
    a. Do you know if the FWS will allow, or would you allow, for this 
time?
    b. Do you think it is important that states impacted by these 
listings be allowed to submit their own independent evidence from 
biologists and scientists living and working in the state?
    Answer. Yes, the FWS has agreed to extend the timeframe for its 
listing decision by six months. I know that the Fish and Wildlife 
Service welcomes and solicits the input from scientists in affected 
states prior to listing and during the public comment period. I believe 
this is an indispensable component of the rulemaking process.
                                 ______
                                 
     Response of Tommy P. Beaudreau to Question From Senator Wyden

    Question 1. Virtually everywhere there are Federal lands and 
Federal waters there are practical community leaders working together 
to find ways for their citizens to have good paying jobs while they 
enjoy and preserve their scenic treasures. For example, in visiting 
Louisiana and Alaska to meet with the constituents of Senator Landrieu 
and Senator Murkowski, I came away convinced that but for the wonderful 
Cajun accents of Senator Landrieu's constituents, the meeting resembled 
those we have in Southern Oregon where timber industry leaders seek a 
sustainable harvest on Federal lands and environmentalists work to 
preserve old growth. Of course, it takes revenue to pay for the roads, 
parks and schools that spark private investment in their communities-- 
and of course, additional revenue is needed for programs that conserve 
treasured land and waters.
    What I have been exploring is how to make common cause among the 
communities that provide natural resources the rest of the county 
enjoys. I've been looking for ways to ensure that those communities are 
protected from the boom-bust cycle that can occur and that they can 
have the necessary funding to restore their natural landscape. The 
office of Policy Management and Budget would seem to be uniquely 
situated to help look for these solutions.
    Can we work together to see if there's a way to bring all these 
communities together and end this hodgepodge of programs?
    Answer. If confirmed, I look forward to the opportunity to work 
with you to identify ways that the federal government can fulfill its 
role of being a good neighbor to local communities and providing them 
the opportunity to have their voices heard. The Payment in Lieu of 
Taxes, Secure Rural Schools, and Land and Water Conservation Fund are 
examples of programs that provide tremendous benefits to communities 
throughout the country that help provide our nation with critical 
natural resources. If confirmed, I look forward to working with you to 
identify collaborative, pragmatic, and creative approaches to providing 
sustainable, efficient support to these local communities.

  Responses of Tommy P. Beaudreau to Questions From Senator Murkowski

    Question 2. I understand that the position you have been nominated 
for provides policy leadership on the Arctic. In your current role, 
your efforts have been critical to the Department's efforts to develop 
regulations for the exploration of oil and gas resources on Alaska's 
Outer Continental Shelf. As you know, the lack of regulatory certainty 
makes it difficult to do business in Alaska and provide the public with 
information on how exploration may move forward.
    a. Would your involvement in Alaska oil and gas issues change as 
Assistant Secretary for PMB? If so, please describe how your role may 
change.
    b. What is the status of the effort to develop regulations for oil 
and gas exploration in Alaska?
    Answer. During my time at the Interior Department I have worked on 
a broad range of issues that are important to the State of Alaska, 
including permitting and oversight of safe and responsible offshore oil 
and gas exploration. As I discussed at the hearing, I am personally 
committed to these issues and, if confirmed as the Assistant Secretary 
for PMB, I will be in a position to continue to provide leadership and 
support on these matters. For example, I currently act as the chair of 
the Interagency Working Group on Coordination of Domestic Energy 
Development and Permitting in Alaska and have been involved in 
developing a more integrated approach to managing the dynamic Arctic 
landscape, which includes building on relationships not only among the 
relevant federal agencies but with the State, industry, North Slope 
communities, and other key partners. Although the position of Assistant 
Secretary for PMB brings with it an additional set of responsibilities, 
as a principal policy advisor to the Secretary I can assure you that if 
confirmed for this new position I will continue to provide my support 
and experience on the many issues affecting Alaska, including 
responsible energy development.
    The development of regulations relating to oil and gas exploration 
offshore Alaska is a high priority for the Department, and as a result 
of a very intensive and focused effort over the past nine months 
substantial progress has been made in preparing the draft regulations. 
The draft regulations are being finalized and undergoing review, and we 
hope to publish the draft rulemaking for comment in early 2014.
    Question 3. The federal government both directly and under contract 
drilled some 136 oil and gas and exploratory wells in the National 
Petroleum Reserve-Alaska in the 1940s and again in the early 1980s. 
Many of those wells have not been properly capped and were instead 
abandoned. The State of Alaska has been seeking for years for Interior 
to do a better job of cleaning up its messes, just as the government 
would fine private developers who had not properly abandoned 
exploratory wells. Earlier this year the Administration proposed to use 
Alaska's share of mineral leasing revenues to pay to remedy the federal 
messes--something I found totally unacceptable and unjust. While we 
approved $50 million in the recent helium legislation that may fund 16 
more well cleanups over the next five years, as budget director, do you 
believe it is the federal government's responsibility to clean up all 
remaining wells at its own expense--not Alaska's--in the future?
    Answer. I believe that the federal government has a responsibility 
to remediate and clean up the legacy NPR-A wells, and the Department 
and the Bureau of Land Management are committed to that effort. Earlier 
this year, BLM published its strategy to address these legacy wells, 
which includes establishing priorities with respect to the individual 
well sites to be remediated. I look forward to continuing to work with 
the Committee to ensure that BLM has the resources necessary to 
complete this important effort without diminishing our ability to 
address current and emerging issues, and appreciate very much the 
recent inclusion of funding in the Helium Reauthorization Act that will 
allow the BLM to accelerate progress on legacy well cleanup.
    Question 4. As you know from your current work at the Bureau of 
Ocean Energy Management, both exploration and production of oil and gas 
from federal lands requires federal agencies to process environmental 
and other regulatory permits in a timely manner. In Alaska, delays in 
the permit processing cost years of time, given the short seasons for 
exploration. A prime example is what's happening on our Kenai 
Peninsula, where several entities are having trouble gaining permits 
for seismic exploration and oil production from the U.S. Fish and 
Wildlife Service and other Interior agencies. As budget director, will 
you support allocating more money for permitting so that energy 
developers can have more comfort that needed permits will be issued on 
a timely basis?
    Answer. The Administration and Interior Department are committed to 
having a well-coordinated and efficient permitting process for energy-
related projects in Alaska, so that permitting decisions are made in a 
timely fashion based on sound scientific information and with 
appropriate safeguards and environmental protections. This is the 
purpose of the Interagency Working Group on Coordination of Domestic 
Energy Development and Permitting in Alaska, established by Executive 
Order, for which I act as the chair. If confirmed, I will continue to 
be focused on these issues and will work with our bureaus and partners 
to identify where the Department's budget and staff resources can be 
used effectively to ensure safe and responsible energy exploration and 
development.
    Question 5. The U.S. Geological Survey has a host of important 
roles nationwide and especially in a state like Alaska. One of them is 
funding seismic research and data gathering to help detect both 
volcanic eruptions and earthquakes, both of which are major geophysical 
hazards for Americans and also real hazards to international aviation.
    a. Do you believe Interior should fully fund hazards work?
    b. Interior's FY 2014 budget calls for sharp cuts to the Alaska 
Volcano Observatory, which monitors a couple dozen Aleutian Chain 
volcanoes threatening international aviation. Without $7 million of 
additional funding many of these seismic monitoring systems may fail by 
late next year or by 2015, threatening the reliability of the nation's 
entire seismic monitoring program. What priority will you give USGS 
hazards programs in building Department budgets for future years?
    Answer. I agree that the U.S. Geological Survey's work in natural 
hazards has direct benefits to communities across the country, is 
vitally important, and must to continue. If confirmed, I will work 
closely with the Bureau Directors and Assistant Secretaries to develop 
balanced funding recommendations for the Secretary's consideration and 
presentation to the President. The USGS hazards programs serve a vital 
mission which will be fully considered along with all of Interior's 
programs, within the context of significant budget constraints.
    Question 6. The federal government's conveyance program of land 
owed to Alaska and Alaska Natives is mandated under the over 42-year-
old Alaska Native Claims Settlement Act (ANCSA). The BLM has repeatedly 
proposed to cut the funding and personnel for the Alaska Conveyance 
Program and perhaps more egregiously, BLM proposes to take the State of 
Alaska's 50-percent share of revenue from oil and natural gas activity 
in the NPR-A to pay for the land conveyance program and the Legacy Well 
Cleanup. I believe the BLM should fund conveyance and surveying closer 
to the $29 million that BLM provided in FY 12--without making Alaska 
pay for it. The Alaska Land Conveyance Program is very important both 
to the State of Alaska and Alaska Native Corporations who are eagerly 
awaiting their long promised lands to which they are entitled.
    a. If confirmed, can you commit to me that you will ensure that the 
Alaska Land Conveyance Program receives the necessary funding to 
complete the conveyances as expeditiously as possible?
    b. Do you believe that it is proper for the BLM to reduce the 
funding of a legislatively mandated program, and one which it is 40 
years delinquent on fulfilling, while spending funds on non-
legislatively mandated programs, like climate change monitoring and 
adaptation?
    Answer. In light of my role as Acting Assistant Secretary for Land 
and Minerals Management, I am aware of the importance of completing the 
Alaska Conveyance work and of recent innovative efforts by the Bureau 
of Land Management to identify ways to reduce the costs of surveys and 
expedite the program while maintaining the quality of the information 
upon which we base our recommendations and decisions. Recognizing the 
current constrained budget environment, I fully support BLM's efforts 
to complete this work more quickly and less expensively. If confirmed, 
I will work closely with the Bureau Directors and Assistant Secretaries 
to develop balanced funding recommendations for the Secretary's 
consideration and presentation to the President. Factored into this 
balance are statutory and contractual requirements, mission directed 
requirements, investments needed to perform Departmental missions more 
effectively, and deficit reduction considerations.
    Question 7. Please describe how you view the relationship between 
the Department of the Interior, the Department of Energy, and the 
Department of State, in terms of international activities related to 
energy development. Do any official documents, such as memoranda of 
understanding, govern this relationship?
    Answer. The Department of the Interior, through its natural 
resource, wildlife, and science agencies, conducts a broad array of 
international activities to accomplish its mission and in support of 
U.S. foreign policy priorities. The Department collaborates on these 
types of activities with the Department of State and Department of 
Energy where appropriate. On energy issues, key technical expertise 
resides within several Departmental bureaus, including the Bureau of 
Ocean Energy Management, the Bureau of Safety and Environmental 
Enforcement, the Bureau of Land Management, and the United States 
Geological Survey.
    As Director of BOEM and Acting Assistant Secretary for Land and 
Minerals Management, my interactions with these key partners have 
revolved primarily around the safe and responsible development of 
conventional and renewable energy resources. For example, I worked with 
personnel from BSEE and our key partner, the Department of State, 
during the negotiation of the U.S.-Mexico Transboundary Hydrocarbons 
Agreement. Negotiation of this Agreement was based on a formal 
interagency document.
    The Department also worked closely with the Departments of State 
and Energy on the Ministerial Forum on Offshore Drilling Containment in 
Washington, DC, in 2012. The Department and its bureaus also regularly 
provide critical support to the Department of State as it represents 
the U.S. in the Arctic Council on offshore oil and gas cooperation. 
Finally, the Departments of State and Energy often request and fund 
technical assistance provided by the Department and its bureaus, and 
the Department regularly makes technical experts available for meetings 
with visiting foreign officials, provides technical advice to the 
Departments of State and Energy, and coordinates with the relevant 
State and U.S. Embassy personnel when sending technical personnel to 
carry out activities in foreign countries.
    Question 8. To what extent, if any, has the Department of the 
Interior been involved in the formulation of the President's 
forthcoming National Security Strategy?
    Answer. I understand that the Department participates in several 
interagency committees and subcommittees of the National Security 
Staff, and that the work of these committees informs the National 
Security Strategy, but that the Department has not been asked to 
participate directly in preparation of a forthcoming National Security 
Strategy document.

   Responses of Tommy P. Beaudreau to Questions From Senator Cantwell

    Question 9. The Yakima River basin supports over a billion dollars 
of agricultural production and thousands of jobs. It has suffered two 
severe droughts since 2001 resulting in $335 million of economic 
damage, as well as damage to fish and wildlife. To address future 
droughts, concerns over the Endangered Species Act, groundwater 
availability and treaty fishing rights, the Yakama Tribe, irrigators, 
Washington State, local governments and environmentalists have worked 
together to develop the Yakima River Basin Water Enhancement Integrated 
Plan. That Plan was endorsed by the Bureau of Reclamation in 2012 when 
they issued a Record of Decision on a Programmatic Environmental Impact 
Statement and former Secretary of Interior Salazar toured the project 
to hear about the plan in 2011. This year the State of Washington 
committed $137 million to get the first elements of the Plan going and 
the Department of Interior has already invested over $10 million in 
studying the options for improving the project.
    Can you commit to me that as the Assistant Secretary for Policy, 
Management and Budget you will continue the Department's Commitment to 
this the Yakima River Basin Water Enhancement Project?
    Answer. My understanding is that the President's FY14 budget 
includes a request of $8 million for the Yakima River Basin Water 
Enhancement Project, of which $1 million is targeted towards the 
Integrated Plan. To advance many of the Integrated Plan activities, my 
understanding is that legislation is needed to provide authority and/or 
additional cost ceiling. If confirmed, I will support the needs of the 
Bureau of Reclamation and the Assistant Secretary for Water and Science 
to continue the cooperative relationship with the State to further the 
goals of the Integrated Plan.
    Question 10. I also hope that we can work with you, if confirmed, 
to translate that commitment into increased funding in the President's 
FY15 budget request. The State of Washington has shown its commitment 
with a $137 million investment over the next two years, and it is my 
hope that the federal government can make a strong contribution as 
well. Will you commit to work with my office in support of funding for 
the Yakima River Basin Water Enhancement Project?
    Answer. The Department is currently working to develop funding 
recommendations for FY 2015. Recognizing the current Federal budget 
climate is very difficult, if confirmed, I would support the 
Department's commitment to work collaboratively and creatively to 
further the goals of the Integrated Plan, including working with the 
Assistant Secretary for Water and Science and the Commissioner of the 
Bureau of Reclamation to identify funding for the project.
    Question 11. I am sure you know that the Indian Self-Determination 
and Education Assistance Act authorizes tribes to enter into contracts 
with the Department of the Interior and Indian Health Service to 
operate federal programs at the tribal level. The Act also provides the 
tribe with contract support costs which are the essential for the 
proper administration of federal contracts. Federal budgets have rarely 
provided enough resources to fully compensate tribes for their contract 
support costs.
    The Supreme Court ruled last year in Salazar v. Ramah that the 
Government must pay each tribe's contract support costs in full. 
However, in the Fiscal Year 2014 budget, the Department of the Interior 
did not request enough funding to cover all contract support costs. 
Further, Interior's budget request seeks to cap each tribe's contract 
support costs by statute to limit the Department's liability.
    The Administration has stated that part of the reason it has not 
requested full funding for contract support costs is that doing so 
would necessarily force the Administration to cut into other program 
dollars.
    But, by not providing sufficient funds for contract support costs, 
aren't the agencies forcing tribes that carry out federal programs to 
reduce the amounts that they would otherwise spend on carrying out 
their programs?
    How will you as director of Interior's Budget Office ensure that 
the Agency accurately reports the need to Congress as required by 
current federal law?
    Answer. Full funding for contract support costs has been among the 
Tribes' highest funding priorities and a key component of the success 
of Self-Determination programs. I also understand that contract support 
costs allow Tribes to manage the Federal programs for which they 
contract, and eliminate the need for Tribes to use program funds to 
fulfill administrative requirements. Funding for contract support costs 
remains a priority for Secretary Jewell and the Administration and, if 
confirmed, I will work with the Assistant Secretary for Indian Affairs 
and this Committee to pursue longer-term solutions in consultation with 
the Tribes to streamline and simplify the contract support cost 
process.

   Responses of Tommy P. Beaudreau to Questions From Senator Barrasso

    Question 12. Under 43 CFR 2806.14 (a)(2)(ii), rural electric 
cooperatives are exempt from rental payments to the Bureau of Land 
Management (BLM) when requesting or renewing rights-of-way (ROW) on 
public land managed by BLM.
    It is my understanding that, prior to granting a rental exemption, 
BLM requires the Rural Utilities Service (RUS) within the Department of 
Agriculture to certify that a rural electric cooperative is an eligible 
RUS borrower. Historically, BLM required rural electric cooperatives to 
obtain a letter from RUS for each rental exemption.
    However, in March of this year, RUS issued a letter to BLM 
certifying that all rural electric cooperatives in Wyoming are RUS 
eligible borrowers and therefore exempt from having to pay rent either 
on an existing ROW or a new ROW.
    I understand that BLM, to date, has refused to rely on this letter 
for the purposes of granting rental exemptions.
    Please explain in detail why BLM refuses to rely on the RUS letter 
certifying that all rural electric cooperatives in Wyoming are RUS 
eligible borrowers.
    Answer. Although I have not yet been formally briefed on the 
details of this issue, I have been advised that the Rural Utilities 
Service submitted a list of its current borrowers to the BLM with no 
statement specific to Wyoming. My understanding is that the information 
contained in the list does not satisfy statutory requirements for 
rental exemptions under the Federal Land Policy and Management Act. It 
is my understanding, however, that the BLM and RUS have been working 
together to resolve this issue, and that both agencies recently agreed 
on an interim process to ensure the proper certification of these 
facilities.
    Question 13a. Grand Teton National Park recently began scoping an 
Environmental Impact Statement to study 10,000 acres for the 8 mile 
long Moose-Wilson Road. It appears the park is starting from scratch on 
the same road that was studied in 2007.
    At a time with significant park maintenance backlogs and budget 
cuts, do you believe it is in the best interest of taxpayers and park 
visitors to spend millions of dollars to restudy this road?
    Answer. My understanding from the National Park Service is that the 
2007 transportation plan did not fully evaluate the Moose-Wilson Road 
corridor and that there are issues that have emerged since 2007, 
including increased presence and frequency of grizzly bears within the 
corridor. Filling in the gaps and ensuring the use of current, 
relevant, information is critical for developing an informed and useful 
plan that builds on the work done back in 2007. Regarding the costs 
associated with this evaluation, I have been assured that NPS is 
working hard to reduce the cost of the plan and the time required to 
complete it, including the costs of the associated visitor experience 
studies necessary to support the plan.
    Question 13b. In this case, do you believe an environmental 
assessment is more appropriate to study the road corridor?
    Answer. The National Environmental Policy Act provides that an EA 
may be prepared by an agency when it is not clear whether an EIS is 
required. It is my understanding that the NPS evaluated the level of 
NEPA compliance that would be necessary and determined that the likely 
outcome of an EA would be that it must prepare an EIS. Consequently, in 
the interest of expedience and cost, the NPS moved forward with an EIS. 
I know this issue is important to you and, if confirmed, I will work 
closely with the NPS to ensure that the plan is completed in a timely 
and cost effective manner.

    Responses of Tommy P. Beaudreau to Questions From Senator Scott

    Question 14. As Assistant Secretary of the Interior for Policy, 
Management and Budget, how much involvement will you have in the 
development of the next five year offshore leasing plan?
    Answer. If confirmed as the Assistant Secretary for Policy, 
Management and Budget, I will continue to support the Secretary in the 
development of the five year offshore leasing plan for 2017-2022. As 
the Director of the Bureau of Ocean Energy Management since October 
2011, I have substantial experience with offshore oil and gas leasing 
and, if confirmed, I will continue to provide the Secretary my support 
based on that experience. Moreover, the Assistant Secretary for Policy, 
Management and Budget serves as one of the principal policy advisors to 
the Secretary, and discharges the authority of the Secretary for 
Departmental management, budget and coordination activities that also 
are relevant to the offshore planning process.
    Question 15. Are you actively working on the five year plan right 
now?
    Answer. The 2017-2022 Five Year Program planning process will begin 
in 2014. The development of the Five Year Program typically takes two 
and a half years.
    Question 16. You have said previously that the delays in the 
Programmatic Environmental Impact Statement for Atlantic seismic will 
not hinder the ability for the Department to include the Atlantic in 
the next five year plan. Is that still the case and if so is the 
Atlantic being considered during the current work on the next five year 
plan?
    Answer. Finalizing the PEIS is a high priority for the Department 
and BOEM. As discussed in the current Five Year Program for 2012-2017, 
responsible acquisition of modern seismic information about the size 
and location of potential oil and gas resources is key to informing 
future decisions about possible leasing in the Mid and South Atlantic. 
However, it is not necessary to have such data in hand at this stage in 
determining whether to include these areas for scoping as an initial 
step in the process for preparing the next Five Year Program, which 
will begin in 2014. We will use the scoping process to identify issues 
that should be analyzed as we prepare the program.
    Question 17. As you know the PEIS has suffered from many delays. 
Can you commit that the Department will finalize the PEIS in January 
2014 as scheduled?
    Answer. BOEM was on track to complete the PEIS in early January, 
but the October government shutdown occurred during a critical period 
for reviewing and finalizing the PEIS and required the issuance of a 
stop work order to the contractor involved in assisting BOEM in 
completing the PEIS analysis. While this set the process back, BOEM is 
now working toward the goal of publishing the final PEIS by the end of 
February 2014.

National Ocean Policy
    Question 18. In December 2010, the Interior Department announced 
that it was revising the Outer Continental Shelf Oil & Gas Leasing 
Program to preclude through at least 2017 the possibility of 
development in any areas that did not already have leases. In 
foreclosing even the possibility of leasing in the Mid and South 
Atlantic and vast majority of the Eastern Gulf of Mexico, the 
announcement cited the National Ocean Policy Executive Order in part as 
justification.
    What precise role did the Administration's new National Ocean 
Policy play in the decision to so significantly restrict the 
possibility of offshore development through 2017?
    Answer. Although the current Five Year Program does not schedule 
any lease sales in the Mid or South Atlantic, it sets forth a clear 
strategy for consideration of potential future leasing in those areas 
based on (1) the responsible acquisition of modern seismic data 
concerning the size and location of potential oil and gas resources, 
and (2) work to resolve conflicts with existing important uses in these 
areas, including military operations and training. The intersection 
with the National Ocean Policy (NOP) is a recognition that the 
principles of the NOP complement the requirements set forth in the 
Outer Continental Shelf Lands Act, including encouraging effective 
information dissemination and active engagement with other Federal 
agencies, such as the U.S. Navy, as well as state, tribal, industry, 
environmental, and other stakeholders, all within the scope of existing 
authorities.
    Question 19. The National Ocean Policy Executive Order, by 
incorporating Final Recommendations of the Interagency Ocean Policy 
Task Force, requires the establishment of nine ``Regional Planning 
Bodies'' in every coastal region of the United States, tasking these 
new bodies with the development of ``Coastal and Marine Spatial Plans'' 
in each of these regions. An Interior Department document from 2012 
states that the Bureau of Ocean Energy Management is ``DOI's lead'' for 
Coastal and Marine Spatial Planning, and that Interior Department leads 
and Bureau members from BOEM, the Fish and Wildlife Service, U.S. 
Geological Survey, and National Park Service have been assigned to 
engage in Coastal and Marine Spatial Planning activities in all nine 
regions.
    What specific activities have BOEM officials been engaging in? How 
many individuals within BOEM are involved in implementation of the new 
National Ocean Policy, including Coastal and Marine Spatial Planning?
    Answer. The Ocean-related activities in which BOEM engages are core 
functions in carrying out the mission of the OCS Lands Act and other 
statutes, including environmental studies; digital mapping of physical, 
ecological, and cultural information on the OCS; and coordination with 
other federal agencies, states, tribes, and other stakeholders. BOEM-
sponsored research is needed for management of the OCS and also 
contributes to a balanced understanding of key issues across all major 
sectors, and also provides critical input to National Ocean Policy 
implementation.
    As the Final Implementation Plan makes clear, the Plan specifies 
that regional stakeholders will determine the scope, scale and content 
of collaborative marine planning, that participation is voluntary, and 
that regional planning bodies will be established only in regions that 
want them.
    BOEM also is the federal co-lead for the Mid-Atlantic Regional 
Planning Body (RPB) and co-chairs the Coordinate and Support 
implementation group. In addition, BOEM is supporting Regional Planning 
Bodies in regions where there is interest in marine planning.
    Approximately six BOEM employees conduct mission-related work under 
existing authorities and their work contributes directly to NOP 
implementation, and other subject experts provide assistance as needed.
    Question 20. The Interior Department has noted that Coastal and 
Marine Spatial Planning ``has emerged as a new paradigm and planning 
strategy for coordinating all marine and coastal activities and 
facility constructions within the context of a national zoning plan.''
    The Outer Continental Shelf Oil and Gas Leasing Program Final 
Programmatic Environmental Impact Statement stated that the Bureau of 
Ocean Energy Management ``has incorporated the requirements of the 
National Ocean Policy EO 13547 into its 5-year Program, which includes 
CMSP.'' It also noted that ``[i]t is anticipated that the [coastal and 
marine spatial] plans will serve as an overlay for decisions made under 
existing regulatory mandates,'' with National Ocean Council-approved 
plans ``assist[ing] the BOEM programmatic EIS process in making 
informed decisions.''
    How will institution of a national zoning plan and a new Coastal 
and Marine Spatial Planning overlay impact permitting timelines and 
opportunities to develop offshore oil and gas resources?
    Answer. The intent of the marine planning effort is to help guide 
resource conservation, security interests, navigation, and economic 
development by facilitating information sharing, fostering 
collaboration, and improving decision-making about accommodating a 
growing number of uses of ocean resources and space, including, among 
other things, energy development. The products and guidance produced 
through this process will be advisory in nature only, and will not 
supersede or modify the statutes, policies, and regulations used by 
BOEM in its programs. They will be a part of the information that BOEM 
considers in its decision-making related to offshore leasing and 
development.
    Question 21. Please explain specifically how BOEM ``has 
incorporated the requirements of the National Ocean Policy EO 13547 
into its 5-year Program, which includes CMSP.''
    Answer. As discussed above, the principles of the National Ocean 
Policy are consistent with BOEM's planning processes under OCSLA. The 
Regional Planning Bodies (RPB) described in National Ocean Policy EO 
13547 did not exist at the time that the current Five Year Program was 
developed. All four RPBs (Northeast, Mid-Atlantic, Caribbean, and the 
Pacific Island) were established earlier this year, and these entities 
are building capacity to support marine planning. Initial discussions 
indicate that marine planning in each region will be informed by 
regional and local drivers and concerns. State, tribal, and federal 
representatives on the RPB are currently discussing the scope of the 
marine planning exercise, and are seeking stakeholder input to inform 
the future course. For future Five Year Programs, the RPBs will be 
given the opportunity to comment on the Program during the stakeholder 
review process.
    Question 22. The recommendations adopted by the National Ocean 
Policy Executive Order state that effective implementation will require 
``clear and easily understood requirements and regulations, where 
appropriate, that include enforcement as a critical component.'' In 
addition, the Executive Order requires federal entities including the 
Interior Department to implement the policy to the fullest extent 
possible. At the same time, repeating previous assurances that 
contradict language incorporated in the Executive Order, the 
Administration's recently-released National Ocean Policy Final 
Implementation Plan states that it ``does not create new regulations.''
    If confirmed, what if any commitment can you make that the Interior 
Department and its affiliate agencies will not issue any regulations or 
take any actions having a regulatory impact pursuant to the National 
Ocean Policy, including Coastal and Marine Spatial Planning?
    Answer. The Policy does not impose or require any new regulations 
now or in the future, or alter any existing Federal authorities. I am 
advised that none of the National Ocean Policy Implementation Plan 
actions in which the Department is involved have any elements that 
require or contemplate new regulations. While the implementation 
actions should, through increased interagency and federal-state 
cooperation, generate better and more timely information that can help 
inform our decisions, new regulations from the Department are not part 
of the plan to implement the Policy.
    Question 23. Among other things, the National Ocean Policy 
Implementation Plan calls for National Ocean Council member agencies 
(of which Interior is a member) this year to adopt ecosystem-based 
management (EBM) ``principles, goals, and performance measures'' and a 
related policy statement. In addition, National Ocean Council agencies 
(of which Interior is a member) are to ``[i]ncorporate EBM into Federal 
agency environmental planning and review processes'' by 2016.
    What if any work is the Interior Department conducting in 
furtherance of the new ecosystem-based management requirement under the 
National Ocean Policy? What if any such activities have already been 
completed? Please explain how incorporation of EBM into DOI 
environmental planning and review processes will impact proposed 
offshore and onshore energy projects.
    Answer. I am advised that consistent with the National Ocean Policy 
Implementation Plan, NOC member agencies, including DOI, are working to 
establish ``principles, goals, and performance measures'' and a related 
policy statement. As these actions are not due until 2016, they have 
not yet been established. Onshore and offshore energy projects, 
however, will remain among the important uses that must be considered 
as part of any planning or review process.


                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

                                                    APIAHF,
                                Washington, DC., December 10, 2013.
Hon. Ron Wyden,
Chair, Senate Energy and Natural Resources Committee, 221 Dirksen 
        Senate Office Building, Washington, DC.
Hon. Lisa Murkowski,
Ranking Member, Senate Energy and Natural Resources Committee, 709 Hart 
        Senate Office Building, Washington, DC.
Re: Rhea Suh's nomination to be the next Assistant Secretary for Fish 
and Wildlife and Parks

    Dear Chairman Wyden and Ranking Member Murkowski;
    On behalf of the Asian & Pacific Islander American Health Forum 
(APIAHF), I write this letter in support of Rhea Suh's nomination as 
Assistant Secretary for Fish and Wildlife and Parks at the Department 
of Interior.
    Incorporated in 1986, APIAHF is the oldest and largest health 
policy organization working with Asian American (AA), Native Hawaiian, 
and Pacific Islander (NHPI) communities across the nation and across 
the Pacific. APIAHF influences policy, mobilizes communities, and 
strengthens programs and organizations to improve the health of AAs and 
NHPIs. With over 30 community-based organizational partners in 20 
states and territories, APIAHF provides a voice in the nation's capital 
for underserved AA and NHPI communities and works towards health equity 
and health justice.
    We applaud the nomination of Rhea Suh to be the next Assistant 
Secretary for Fish and Wildlife and Parks. As the first Asian-American 
woman to hold this position, we know Rhea will fulfill her duty to 
protect and preserve the abundance of natural beauty in our great 
country and its territories, while maintaining a narrative inclusive of 
all the cultures and histories that have contributed to the development 
of this land. APIAHF is confident that Rhea will continue to strive for 
a healthy natural environment for all people to enjoy, and for 
generations to come.
    Ms. Suh has proven her passion for connecting underserved 
communities to our nation's parks. She has worked hard to strengthen 
the ``Youth in the Great Outdoors'' program, which provides thousands 
of disadvantaged youth the opportunity to work on natural and cultural 
resource conservation and learn about America's wildlife, public lands, 
culture and heritage. With a natural landscape as diverse as ours, it 
is comforting to know the Department of Interior has a nominee who 
values youth leadership development as highly as Rhea Suh.
    In addition to her many professional accomplishments and 
qualifications, her confirmation would add much needed diversity in the 
senior levels of government, and to the Department of Interior in 
particular.
    As such, we encourage the Senate Energy and Natural Resources 
Committee to confirm Rhea Suh expeditiously and without delay.
                                 ______
                                 
     Statement of Jobie M. K. Masagatani, Chairman, Hawaiian Homes 
                      Commission, Honolulu, Hawaii

    Aloha Chairman Wyden, Ranking Member Murkowski, and distinguished 
members of the Senate Committee on Energy & Natural Resources. Thank 
you for this opportunity to provide this testimony in support of 
President Obama's nomination of Assistant Secretary Rhea S. Suh.
    In her current position as Assistant Secretary of Policy, 
Management and Budget of the Department of the Interior, Ms. Suh is 
charged with exercising the responsibilities of the Department of the 
Interior pursuant to the Hawaiian Home Lands Recovery Act (P.L. 104-
42). These responsibilities include advancing the interests of the 
beneficiaries of the Hawaiian Homes Commission Act, and assisting the 
beneficiaries and the Department of Hawaiian Home Lands in obtaining 
assistance from Federal programs that promote homesteading 
opportunities, economic self-sufficiency, and social well-being of the 
beneficiaries. To this end, Assistant Secretary Suh's open and 
collaborative style has helped to bring clarity to longstanding issues 
between our two agencies. In short, Assistant Secretary Suh's work with 
us has improved and advanced our relationship and consequently has 
helped our program and the families our program serves.
    In closing, we appreciate her leadership, support, and attention to 
our issues. Based on our experience and working relationship, we are 
confident she will continue to be an asset to the Department of the 
Interior as she oversees Fish and Wildlife and Parks. We support this 
nomination and we ask your committee's favorable consideration. Mahalo 
nui loa (thank you very much).
                                 ______
                                 
                                                Pt Capital,
                                  Anchorage, AK, December 11, 2013.
Hon. Ron Wyden,
Chairman, Senate Energy Committee, 221 Dirksen Senate Office Bldg., 
        Washington DC.
Hon. Lisa Murkowski,
Ranking Member, Senate Energy Committee, 709 Hart Senate Bldg., 
        Washington DC.
Re: Confirmation of Tommy P. Beaudreau

    Dear Chairman:
    I write to support the confirmation of Tommy P. Beaudreau as 
Assistant Secretary for Policy, Management and Budget at the Department 
of the Interior. Since his arrival at the Department, Tommy has 
demonstrated his ability to understand and solve complex issues. Those 
who work with him appreciate his thoughtful approach.
    Tommy's presence is felt across our nation. My testimony, however, 
is based upon his work in the American Arctic. In short, Tommy has used 
his talent and exerted his influence to improve the lives of Arctic 
residents.
    Tommy was key to restructuring the Department's approach to 
leasing, permitting and regulating offshore oil and gas. The process of 
restructuring the former Mineral Management Services has had a profound 
and positive impact on how the federal government conducts business in 
the Arctic. Tommy was an important part of the team that changed the 
system and the culture. As a result DOI has restored the confidence of 
those living in the region. After dramatic failures, local residents 
are more optimistic that the federal government can protect their 
interests through a high quality permitting and regulatory system.
    Tommy has been a strong advocate for improving Arctic standards. 
Fundamental to improving the chances of successful offshore oil and gas 
operations is the willingness of the government to reach out to 
stakeholders to identify best standards. The process is cumbersome and 
requires balancing competing visions of success, a process in which 
Tommy has excelled. By insisting on higher standards, Tommy has 
improved the chances of successful offshore operations in the Arctic 
Ocean.
    As you know, Arctic coastal communities are at once excited and 
fearful of the changes occurring around them. Tommy has demonstrated a 
willingness to travel great distances to talk with indigenous 
residents. He has traveled to the Arctic on several occasions, 
including a multi community visit in the middle of our long Arctic 
winter. While in the communities, he has listened, learned and 
responded as a statesman. Over time Tommy has become a welcomed guest 
in the Arctic communities.
    The Department should take great pride in Tommy's work in the 
Arctic. It would be difficult to replicate Tommy's work or his 
reputation as an Arctic problem solver. I give my highest 
recommendation to Tommy P. Beaudreau for Assistant Secretary and hope 
that he is confirmed quickly.
            Sincerely,
                                            Edward S. Itta.
                                 ______
                                 
                                    The Nature Conservancy,
                                  Arlington, VA, November 13, 2013.
Hon. Ron Wyden,
Chairman, Committee on Energy and Natural Resources, 304 Dirksen Senate 
        Building, Washington, DC.
Hon. Lisa Murkowski,
Ranking Member, Committee on Energy and Natural Resources, 304 Dirksen 
        Senate Building, Washington, DC.
    Dear Chairman Wyden and Ranking Member Murkowski:
    On behalf of The Nature Conservancy, we are writing in support of 
the nomination of Ms. Rhea S. Suh for the position of Assistant 
Secretary for Fish and Wildlife and Parks, U.S. Department of the 
Interior, with lead responsibility for overseeing the U.S. Fish and 
Wildlife Service and National Park Service.
    Since 2009, Ms. Suh has been at the helm of the U.S. Department of 
the Interior's Policy, Management and Budget Office, where she has 
overseen Department-wide administrative policies and practices and 
implemented several major Departmental initiatives focusing on land 
conservation, sustainability, diversity and youth engagement and 
employment. Ms. Suh has spent much of her career identifying 
opportunities for improving the transparency and efficiency of on-the-
ground conservation and ensuring that a broader constituency is engaged 
in impactful ways in conservation delivery mechanisms. In her current 
role, Ms. Suh has emphasized the need for federal funding sources such 
as the Land and Water Conservation Fund to be targeted toward 
collaborative, community-based initiatives, while also continuing to 
address existing needs. She has also focused on broadening the 
constituency for conservation to include both rural and urban 
communities, as well as approaching environmental issues in a 
bipartisan and non-controversial way. These transformative initiatives 
at the Department under her leadership, combined with her extensive 
experience working with Congress and holding roles within both the 
conservation and foundation fields during her professional career, 
position Ms. Suh as an ideal candidate for the Assistant Secretary for 
Fish and Wildlife and Parks position.
    Additionally, Ms. Suh has been a driving force at the Department of 
the Interior for ensuring internal and external accountability. As the 
Chief Financial Officer and Chief Human Capital Officer for the 
Department, Ms. Suh has been responsible for implementing the Budget 
Control Act (BCA) and associated sequestration cuts for all of agencies 
of the Department of the Interior. She has closely coordinated these 
efforts with Capitol Hill, the Office of Management and Budget, and the 
Administration. The BCA budget implementation has been executed 
seamlessly at the Department, exemplifying the professionalism and 
leadership of Ms. Suh.
    The Conservancy requests the Committee's consideration of Ms. Rhea 
S. Suh as a strong and qualified candidate for the Assistant Secretary 
for Fish and Wildlife and Parks position. Thank you.
            Sincerely,
                                             Lynn Scarlett,
                               Managing Director for Public Policy.
                                          Kameran L. Onley,
                        Acting Director, U.S. Government Relations.


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
